<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]


 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010 

                              ----------                              


                        WEDNESDAY, JUNE 3, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Kohl, Murray, Landrieu, Reed, Pryor, 
Specter, and Cochran.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. ARNE DUNCAN, SECRETARY
ACCOMPANIED BY THOMAS SKELLY, DIRECTOR, BUDGET SERVICE


                opening statement of senator tom harkin


    Senator Harkin. Good Morning. The Labor, Health and Human 
Services Education Appropriations Subcommittee will come to 
order. I want to start by welcoming Secretary Duncan. I was 
honored to chair the confirmation hearing on the other 
committee on which I sit. But this is his first appearance 
before this subcommittee, so he's here to talk about money, the 
taxpayers' money.


                 american recovery and reinvestment act


    Every year when Congress considers the President's budget 
it hears people say it is a critical moment in the Nation's 
history. In hindsight, some of those moments were probably more 
important than others, but I would submit when it comes to 
education, this is truly one of those historic moments. The 
Recovery Act will add almost $100 billion to the Nation's 
education system. The largest one-time investment in education 
in our history, and that's on top of the more than $60 billion 
in the regular 2009 bill. There has never been this much 
funding in the Nation's schools before in our history. So we in 
Congress, especially on this subcommittee, and the Education 
Department have a special responsibility to make sure that the 
money is used wisely.
    Funding of this scale brings in opportunities both to help 
to pull our economy out of the recession and to encourage new 
innovations in the way we educate our students. But if we are 
not careful, the money can also be squandered. Therefore, we 
will spend part of today's hearing talking about the 
implementation of the Recovery Act so far, what the Department 
plans to do with the rest of the money for the months ahead.


                        postsecondary education


    We will so consider the President's request for the fiscal 
year 2010 budget. I think there is much to admire in his 
proposal, and am especially pleased by his plan to end 
entitlements for financial institutions that have processed 
Federal student loans and switch to direct lending, instead. 
This plan will save billions of dollars a year that can be re-
invested, to help middle- and low-income students get a college 
education.
    The President's budget also puts real money behind efforts 
to improve our Nation's high schools. And the other end of the 
education spectrum, the budget request makes a strong 
investment in early learning.


                           school facilities


    One area that is not addressed in the President's budget is 
school repair: renovations, repair, and construction. A last-
minute decision to remove funding designated to that purpose in 
the Recovery Act was, in my opinion, a grave mistake. This 
money would have created jobs, met a pressing educational need 
and avoided long out-year funding commitments.
    But even though the funding was pulled from the Recovery 
Act, the need for better school facilities grows with each 
passing day. I recently introduced the School Building Act of 
2009, and I intend to include money for this purpose in the 
regular fiscal year 2010 appropriations bill.
    So, Mr. Secretary, I look forward to hearing your testimony 
about the President's budget, also the Recovery Act and other 
items that will come up here.
    First, I would yield to Senator Cochran. Thank you.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, thank you. I am pleased to 
join you in welcoming this distinguished Secretary to our 
subcommittee to review the budget for the next fiscal year. We 
appreciate your cooperation and look forward to working with 
you through the year. As we proceed with our deliberations on 
the budget request, the budget the President has submitted, I 
would ask, Mr. Chairman, that the balance of my remarks be 
printed in the record.
    Senator Harkin. Thank you, Senator Cochran. Senator Murray.


                   statement of senator patty murray


    Senator Murray. Thank you very much. Mr. Chairman, Senator 
Cochran, thank you so much for having this hearing. Secretary 
Duncan, welcome. I am looking forward to hearing you talk today 
about the budget request and a wide range of educational 
challenges that you are addressing, both opportunities and 
priorities. These are issues that I have been focused on a very 
long time, both as an educator and as a member of this 
subcommittee. So I was very pleased to see that you and the 
President are preparing to tackle or more appropriately, put a 
full-court press on a lot of the large issues facing us in 
education today.


                        postsecondary education


    The budget takes some exciting steps forward. I was very 
happy to see the College Access and Completion Fund, that will 
help our students enter and succeed in college. I think that's 
a promising idea. I look forward to hearing more about that. 
That's been a long-time issue of mine, especially for 
disadvantaged students, and Washington State has some 
innovative work in this area, so I'm looking forward to hearing 
some comments on that.
    I am also very encouraged by the President's goal that 
every student will complete at least 1 year of postsecondary 
education. I share that goal, and as a long-time advocate for 
job training and education programs, it's great to have a 
strong partner in the White House on that.
    I discussed with you earlier one of my innovations to 21st 
century careers, and looking forward to your work in that area 
as well.


                       proposed budget increases


    I am pleased that your budget proposal has some significant 
increases in Pell grants, teacher quality, State grants, school 
leadership for principals, and literacy efforts. Those are all 
very important in our work today.
    This is a very ambitious education agenda and it comes at a 
very difficult time. At home, every weekend I go home and I see 
more headlines about teachers being laid off and the challenges 
in our educational system. I can tell you that teachers in my 
home State and across the country are not only worried about 
their own job security, but the impact on their students, as a 
lot of our States are facing some very tough times.


                           prepared statement


    So our work on the Recovery package to support our schools 
is very important, and I look forward to what you have to say 
about that as well today. And Mr. Chairman, just as a note of 
personal privilege, I want to just mention, I've got some 
students from one of our high schools in Washington State, 
Meadowdale. If you guys could just stand up? They are here all 
the way across the county and I remind all of us, this is what 
we are talking about today. So thank you for being here.
    Senator Harkin. Welcome. Where do you say they are from?
    Senator Murray. Meadowdale High School, Lynnwood, 
Washington.
    And, I would like to quickly mention their names for the 
record: here with us today is: Joshua Gregory; Aaron Feldhaus; 
Andy Nguyen; Morgan Buckingham; Samuel Triece; Evan Primm; 
Robert Baldridge; Matthew Genetiano; Dalia Mendoza; Andrew 
Prichard; Anwar Bible; Noah Beardsley; and Jacob Grund.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    Thank you Chairman Harkin and Senator Cochran for holding today's 
hearing to discuss the need to invest in education and prepare our 
young people to succeed in school and beyond.
    I also want to thank Secretary Duncan for joining us today to 
present the Department's budget request and discuss our wide-range of 
education challenges, opportunities, and priorities.
    I have been focused on these issues for years--both as an educator 
and as a member of this subcommittee.
    And I'm pleased to see that you and the President are preparing to 
tackle--or maybe more appropriately--put a full-court press on so many 
of the large, tough issues facing our education system. And this budget 
certainly takes steps forward on some very exciting education programs.
    The College Access and Completion Fund to help students enter and 
succeed in college is a promising idea. College access and completion, 
especially for disadvantaged students, has long been a goal of mine, 
and my home State of Washington has done some particularly innovative 
work in this area.
    Specifically, they have focused on partnerships with State and 
nonprofit programs to follow up with students throughout college to 
ensure their success.
    I look forward to working with you on the College Access and 
Completion Fund and keeping in touch as this process moves forward.
    I am also encouraged by the President's clear goal to that every 
student will complete at least 1 year of post-secondary education. I 
share President Obama's goals, and as a long-time advocate for job 
training and education programs for our workers, I am glad to have a 
strong partner in the White House.
    To address this goal, I will be re-introducing my bill, the 
Promoting Innovations to 21st Century Careers Act, that works to bridge 
the skills gap between what students need to know to be successful and 
what skills employers, colleges, and communities are looking for.
    I am pleased that your budget proposal has significant increases in 
Pell grants; Teacher Quality State Grants; The School Leadership 
Program for principals; and literacy efforts.
    These are all going to help ensure that our students have access to 
high-quality education--from early childhood all the way through 
college.
    You and President Obama have taken on an ambitious education 
agenda, and we know that it comes at a difficult time. Every day there 
is another front page story somewhere in my state about teachers being 
laid off or education programs being cut or cancelled.
    Teachers are worried about job security and parents are worried 
about quality or how to pay to send their kids to college.
    I am proud that our work together to pass a strong Recovery package 
is beginning to help States like Washington keep more teachers in their 
jobs and continue our national commitment to ensuring a quality 
education for all students.
    But as you know well, our long-term economic recovery is going to 
depend on sustained investments and new and innovative programs that 
will give our kids the skills to succeed in higher education and 
careers in the 21st century economy.
    I look forward to asking you questions on efforts to build those 
skills and on the investments proposed in your budget.
    Thank you.

    Senator Harkin. Welcome to Washington. Thank you, Senator 
Murray. Senator Reed.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Mr. Chairman, I simply want to welcome the 
Secretary, and also underscore what Senator Murray said about 
the College Access and Completion Fund, much of which is built 
on the work that we advised them on last year, and I look 
forward to the Secretary's comments on how he is going to use 
the, I believe, gap provisions, and bolster this particular 
fund. Thank you.
    Senator Harkin. Thank you, very much, Senator Reed. Senator 
Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Secretary, just briefly, I 
want to thank you for your early visit right after your 
confirmation to New Orleans, to see their continued effort to 
rebuild their school system, not just in the city, but in the 
region. And most excitingly, Mr. Chairman, to build a brand new 
school system that's based on large measure on some of the work 
that has been done in this subcommittee and in our full 
Appropriations Committee, but now being led by Secretary Duncan 
and President Obama.
    And I just want to comment that some of the same principles 
about our rebuilding a new, revitalized public school system, 
we can take from that, and give options and opportunities for 
the rest of the country, particularly, Mr. Chairman, the focus 
on expanding our commitment to quality charter schools, which 
are independent public schools, to some degree, that are 
showing extraordinary promise across the country. And I want to 
thank the Secretary for his leadership and just say that this 
budget is not only a commitment to bold reform, but I am also 
excited about your commitment to funding and the President's 
commitment to that goal of reform. Because that didn't happen 
in the last administration, and I'm very excited that the 
commitment to funding and the commitment to excellence have 
been put together, and under your extraordinary leadership, I 
think we can get it accomplished.
    Thank you.
    Senator Harkin. Thank you, Senator Landrieu. Now, Secretary 
Duncan, welcome. Your statement is being made part of the 
record in its entirety, and please proceed as you so desire.

                 SUMMARY STATEMENT OF HON. ARNE DUNCAN

    Secretary Duncan. Thank you, Mr. Chairman, for your 
leadership. I have gotten a chance to spend time with many of 
the subcommittee members and I haven't seen more passion and 
commitment to education anywhere. So I am very excited at the 
opportunity to work with you and try and do something 
dramatically better for the children of our country.

              FISCAL YEAR 2010 EDUCATION BUDGET PRIORITIES

    Thank you so much for the opportunity to be here today to 
talk with you about President Obama's fiscal year 2010 budget 
request.
    Senator Harkin. Mr. Secretary, is your mike on or if it is, 
can you pull yourself a little bit closer?
    Secretary Duncan. This budget makes important choices to 
continue and expand programs that will support our children 
from cradle to career. It provides the resources necessary to 
expand access to high quality early childhood programs, to 
ensure that K-12 schools are preparing their students for 
success in college and the workplace, and to provide college 
students with the money they need to pay for college and an 
assurance that the Federal Government will be there to help 
them. Together, all of these policies will help our country 
reach the President's ambitious goal, that by 2020 the United 
States will once again have the largest proportion of college 
graduates in the world.

               IMPACT OF RECOVERY ACT FUNDS ON EDUCATION

    I am extremely grateful for the work you have already done 
to help our Nation's schools. I look forward to working with 
you in the future. As you know, in the American Recovery and 
Reinvestment Act (ARRA), you provided $100 billion to schools 
and to students. The law provides a great, great start in 
addressing the needs at every point along the cradle to career 
spectrum. Thanks to your support, we are able to stave off an 
education catastrophe and save a generation of children.
    As you know, the ARRA had two goals in education: to create 
and preserve jobs, and to promote school reforms. Even though 
the Department of Education hasn't yet distributed all of the 
money provided in the stimulus bill, we are seeing signs that 
we are meeting the goal of preserving the jobs of teachers and 
other educators.
    We are collecting data on the number of jobs preserved, and 
can point to several districts where the stimulus funding has 
made a significant difference.
    Because of ARRA, the Los Angeles Unified School District 
averted almost 3,800 layoffs. In New York City, that number is 
14,000 layoffs averted, 139 teachers kept their jobs in 
Seminole County, Florida, and in Boston, teacher union leaders 
say the stimulus money ensures that the city won't lay off any 
teachers. Alabama's State superintendent has said that the 
stimulus money will help avert all layoffs in his State as 
well.
    I am confident that in just about all our 14,000 districts 
around the country, the stimulus money will be used to preserve 
jobs that otherwise would have been lost, or to create jobs 
they'd never have been able to add if they didn't receive money 
from the ARRA.

              EDUCATIONAL ASSURANCES FOR EDUCATION REFORM

    Before this stimulus, we were heading for an educational 
disaster. With it, we have largely avoided that catastrophe, 
and now must also work to continue to improve student 
achievement. I am convinced we have to educate our way to a 
better economy.
    Through ARRA, States are promising to make commitments on 
policies that we consider to be essential for reform. They will 
improve the effectiveness of teachers, and work to make sure 
the best teachers are in the schools that need them the most. 
They will improve the quality of their academic standards, so 
that they will lead students down a path that truly prepares 
them for college, the work force and global competitiveness.
    These standards need to be aligned with strong assessments. 
I am particularly concerned that these assessments accurately 
measure the achievement of English language learners and 
students with disabilities. Under the third assurance, States 
will commit to fixing the lowest performing schools. Finally, 
they will build or enhance data systems that track student 
performance from one year to the next, from one school to 
another, so that those students and their parents know when 
they are making progress, and when they need extra help. This 
information must also be put in the hands of educators, so they 
can use it to improve instruction.

                     INCREASING INSTRUCTIONAL TIME

    Another key ingredient of reform is to add more time for 
instruction. I grew up in my mother's after-school program in 
Chicago, so I know firsthand the importance of after-school and 
summer programs. That is why we are asking districts to 
consider using Recovery Act funding, as well as title I 
funding, to extend the school day and the school year. In 
places like Cincinnati, we are already seeing such innovation 
taking place. Cincinnati is adding what they are calling a 
fifth quarter, where students must spend an extra month in 
school this summer.
    This is also a key component of our school turnaround 
strategy, because we know that kids who are struggling 
absolutely need more time in order to catch up.

                          RACE TO THE TOP FUND

    Through ARRA, we will be rewarding States, districts, and 
nonprofit leaders who are dedicating themselves to moving 
forward in each of these areas of reform. The $4.35 billion 
``Race To The Top'' Fund will reward States that are making 
commitments to reforms, so they can push forward and provide an 
example for the rest of the country to follow.

                     WHAT WORKS AND INNOVATION FUND

    The $650 million What Works and Innovation Fund will 
provide grants to districts and nonprofits to scale up 
successful programs and evaluate promising practices.
    My department expects to issue invitations for applications 
this summer and start awarding grants in the late fall. With 
ARRA as a foundation, we have submitted a fiscal year 2010 
budget that will build on the Recovery Act and advance all of 
the President's priorities.

             FISCAL YEAR 2010 DISCRETIONARY FUNDING REQUEST

    Overall, President Obama is asking for $46.7 billion in 
discretionary funding for the Department, an increase of $1.3 
billion over the comparable 2009 level.

                          EDUCATION PRIORITIES

    I want to highlight our request in several important areas: 
early childhood education, improving the pay and professional 
development of teachers, turning around low-performing schools, 
and ensuring that college students have financial aid and 
student loans. They need not just to enter college, but to 
complete. Again, the goal is not just access, it's attainment.

                       IMPROVING TEACHER QUALITY

    In K-12 education, we are requesting two important 
investments in the key priorities identified under the 
stimulus: improving the quality of our teachers and turning 
around low-performing schools. In other countries, the top one-
third of college graduates enter the teaching force. 
Unfortunately, too often here in the United States, our best 
college graduates choose other professions. We need to change 
the way we promote and compensate teachers, so that we can 
attract the best and brightest into the profession by rewarding 
excellence and providing supports that enable success.

                 TURNING AROUND LOW-PERFORMING SCHOOLS

    As for turning around low-performing schools, we all know 
that too many of our schools are actually letting our children 
down. In too many places, achievement is low and not improving. 
For example, in approximately 2,000 high schools, 60 percent of 
the entering freshmen class will drop out by the time they are 
supposed to be seniors. That collective loss of human potential 
and the long-term negative impact on our economy are both 
staggering.
    Under ARRA, we have asked States to identify the bottom 5 
percent of their schools. In our fiscal year 2010 budget 
request, we want to give them the resources to fix them, with a 
strong focus on dropout prevention in these so-called dropout 
factories.

                ECONOMIC IMPACT OF HIGH SCHOOL DROPOUTS

    And just to pause for a moment, our dropout rate for our 
country--for the Nation is approximately 30 percent. So it's a 
problem that plagues every community: urban, rural, and 
suburban. Recently the Alliance for Excellent Education came 
out with a study on the cost to the economy of the dropouts of 
the class of 2008; had they graduated and not dropped out, that 
would have added an additional $319 billion in income over 
their lifetimes. And if we don't do something about this 
dropout crisis, over the next decade the loss to our country 
will be $3 trillion. So the economic impact, beyond the lost 
human potential, is something we absolutely have to come to 
grips with.

                       SCHOOL IMPROVEMENT PROGRAM

    Our budget includes $1.5 billion for the Title I School 
Improvement Program. That's almost a $1 billion increase over 
last year. When that amount is added to the $3 billion the 
program received in the ARRA, and the $545 million in fiscal 
year 2009, we will have more than $5 billion to help turn 
around low-performing schools.
    I am talking about dramatic changes here. I will not be 
investing in the status quo or in changes around the margins. I 
want States and districts to take bold actions that will lead 
directly to improving student learning.
    I want superintendents to be aggressive and take the 
difficult step of shutting down a failing school and replacing 
it with one that will work.

                         TEACHER INCENTIVE FUND

    To improve both the quality of teachers and the critically 
important support they receive, we are requesting $517 million 
for the Teacher Incentive Fund, including $30 million for a 
national teacher recruitment campaign. This program is designed 
to improve the quality of the teaching workforce, using 
innovative professional development and compensation systems as 
a core strategy.
    I want to be clear, I want the grants awarded under this 
program to be a cooperative effort between districts and 
teachers. The President has often said that he believes changes 
to the teaching profession should be made by working with 
teachers and not by doing things to teachers. The chance for 
real collaboration here is remarkable.
    Chicago was one of the first 34 projects to receive a grant 
from this program. Like many others, we worked closely with our 
teachers to create the program. In fact, a team of our best 
teachers actually gave the program shape, and designed the 
framework that became our foundation.
    Together we created a program which emphasized improving 
professional practices of teachers, identifying what it takes 
to make teachers better, and rewarding those who improve.
    One important change that we are requesting to the Teacher 
Incentive Fund would allow districts to reward all of the 
employees of a school for helping that school to improve 
student achievement. Students excel and thrive when all adults 
in the school work together. The janitors, the custodians, the 
cafeteria workers, the security guards also need to be rewarded 
when students in their school succeed.
    I have seen throughout my life, that when every adult in 
the school building collaborates to create a culture of high 
expectations, magic happens for children.

                            READING PROGRAMS

    In addition, we are seeking $370 million for the Striving 
Readers Program. The program now works to improve the literacy 
skills of adolescent students who are reading below grade 
level. We will dedicate $70.4 million for that purpose, almost 
double the amount in the fiscal year 2009 budget.
    With the remaining $300 million, we will create a 
competitive grant program to support districts to create 
comprehensive and coherent programs that address the needs of 
our young readers. These programs would ensure that students 
learn all of the skills they need to become good readers, 
teaching them everything from awareness to reading 
comprehension.
    We intend to build upon the successes and the lessons of 
the Reading First Program, while simultaneously fixing the 
problems.

            RECOVERY FUNDS FOR TITLE I AND SPECIAL EDUCATION

    I would like to say a word or two about the largest 
programs that have been entrusted to us: the title I program 
and the Special Education State Grants program under the 
Individuals With Disabilities Education Act, that Senator 
Harkin, you worked so hard on. Both programs received dramatic 
funding through ARRA.
    Title I received $10 billion in funding for grants to 
districts, in addition to the $3 billion for school improvement 
program, while Special Education State Grants received $11.3 
billion. That's almost as must as it received in fiscal year 
2009. We are working closely with districts to ensure that they 
spend this money wisely, and not put it into programs that they 
won't be able to sustain when that money runs out.
    I would also like to note that both of these programs 
didn't receive the increases they otherwise might have in the 
fiscal year 2010 request because of the amount of money 
provided in the Recovery Act and the period of availability.
    We hope to resume our commitment to funding the increases 
for the programs, once the stimulus money has expired. In the 
short term, we need increased funding for school turnaround 
efforts. The students attending these schools cannot afford to 
wait. We are in crisis.
    More of the same in our dropout factories will not help 
children succeed and beat the odds. That would only ensure that 
we, as educators, actually perpetuate poverty and social 
failure. We have too many examples of what does work and what 
is possible around the country to continue to allow devastating 
failure to exist.

                       EARLY CHILDHOOD EDUCATION

    In fiscal year 2010, we will also be making important 
investments in early childhood programs. Under title I, we are 
requesting $500 million to encourage districts to use the 
program's money to expand preschool programs. This money will 
help build one piece of the comprehensive early childhood 
programs that President Obama has proposed. It is necessary to 
schools serving the title I population, which will benefit the 
most from early childhood education.

                     EARLY LEARNING CHALLENGE FUND

    The budget also includes $300 million to start the Early 
Learning Challenge Fund. The program's initial goal is to help 
States build a network of services that will maximize the 
investment in early childhood education. Expanding access to 
high quality early childhood programs is one of the best 
investments we can make.

                ARRA FUNDING FOR POSTSECONDARY EDUCATION

    All of those changes will help push school reform in K-12 
schools. We also have significant, important policy changes for 
higher education. The Recovery Act made an important down 
payment on our plans to expand student aid. And in addition to 
more aid, we want to make sure that more students are not just 
attending college, but also graduating.

              BUDGET PROPOSAL TO MAKE PELL FUNDS MANDATORY

    The stimulus bill provided $17.1 billion so we could raise 
the maximum Pell award from $4,850 to $5,350. In the fiscal 
year 2010 budget, we propose important and permanent changes to 
ensure students will have access to Federal grant aid and 
loans. The first thing we propose is to move the Pell Grant 
program from a discretionary to a mandatory appropriated 
entitlement. Second, we propose to link the increase in the 
maximum grant to the consumer price index (CPI), plus 1 
percent, every year, which will allow the maximum grant to grow 
at a rate higher than inflation, so we can keep up with the 
rising cost of college.
    I am grateful for all of the work that the appropriators 
have done to fund annual increases for Pell grants, 
particularly in the last 4 years. But even with that 
dedication, the maximum grant has not kept up with the rising 
cost of college tuition.
    By making the Pell Grant program mandatory, and indexing 
annual increases to the CPI, we are ensuring that students will 
know that their Pell Grant will increase at the same rate as 
their tuition. This will give them the assurances that they 
will have the assistance they need to make it through college. 
This is, of course, a major financial commitment.

             PROPOSAL FOR ALL NEW LOANS TO BE DIRECT LOANS

    We are able to pay for this change, in part, by 
streamlining and improving the student loan program. We will 
move all loans over time from the Federal Family Education Loan 
Program to the Direct Loan Program, making loans more efficient 
for taxpayers, and freeing up money for Pell grants. In doing 
so, we can dramatically expand access to college without going 
back to taxpayers and asking them for one additional dollar.

            PROPOSED BUDGET SAVINGS AND PROGRAM ELIMINATIONS

    In closing, I would like to note that this budget makes 
tough decisions. President Obama asked all Cabinet agencies to 
examine their budgets, line by line, to identify programs that 
are ineffective and too small to have a significant impact.
    Our student loan proposal saves more than $64 billion per 
year. In addition, we are proposing to eliminate 12 programs, 
creating an additional savings of $550 million. Even though we 
recommend cutting these programs, we remain committed to their 
goals. We are eliminating the $294 million State program under 
the Safe and Drug-Free Schools and Communities Program because 
several research studies have found that the program is 
ineffective. But we absolutely remain committed to fighting 
drug use and stopping violence in our schools, which is why we 
are recommending a $100 million increase in spending for the 
national activities under the Safe and Drug-Free Schools 
Program.
    Also, we are proposing to eliminate the Even Start Program; 
we will continue to support the program's focus on 
comprehensive literacy programs through the expanded Striving 
Readers Program and Early Reading First.
    These program eliminations show that our fiscal year 2010 
budget is a responsible one. It is investing in our country's 
future economic security, and also making tough decisions to 
eliminate programs that are not working.

                           PREPARED STATEMENT

    I appreciate the opportunity to discuss our fiscal year 
2010 budget and look forward to your questions. Thank you so 
much.
    [The statement follows:]
                   Prepared Statement of Arne Duncan
    Mr. Chairman and members of the subcommittee: Thank you for this 
opportunity to testify on behalf of President Obama's fiscal year 2010 
budget for the Department of Education, and to talk with you about how 
together we can lay the foundation for a generation of reform that can 
restore American leadership in education.
    President Obama is asking for $46.7 billion in discretionary 
funding for the Department in fiscal year 2010, an increase of $1.3 
billion over the comparable 2009 level, that would build on the 
historic increases provided for education in the American Recovery and 
Reinvestment Act (Recovery Act).
    The combined resources of the Recovery Act and the 2010 request 
demonstrate the President's strong belief that improving education is 
the best way to ensure our long-term economic prosperity and security. 
Moreover, education is the civil rights issue of our generation, and 
the only truly effective weapon in our Nation's long war on poverty.
    And it's not just more money that has created this unprecedented 
opportunity to dramatically improve the quality of our education 
system, but also broad, bipartisan agreement on what needs to be done 
to achieve this goal.
    We need college-ready, career-ready, internationally benchmarked 
academic standards that reflect the fact that our kids today are not 
competing against children down the block or even across the country, 
but across the globe in countries like India and China. And to make 
sure all of our kids can meet those standards, especially those poor 
and minority children that currently suffer from the achievement gap, 
we need to invest more in quality early childhood education.
    We also must do everything we can to get a great teacher in front 
of every classroom in the Nation. Everyone knows the difference that a 
good teacher can make, but we have far too few good teachers in our 
most challenging, lowest-performing schools. We need to change the 
incentives to encourage our best teachers and principals to work in the 
toughest schools.
    And we need to be much more thoughtful about supporting reform and 
innovation that have been proven to increase student achievement. We 
need to identify and scale up best practices and promote effective 
strategies like expanding the number of charter schools and extending 
learning time to help turn around low-performing schools.
    All of these priorities--higher standards, early childhood 
education, better teaching, and promoting effective innovation--will 
help more students enter and graduate from college. There is no 
question that one key to success in the global economy is a college 
education, and President Obama has set a national goal of ensuring that 
America is number one in graduating young people from college by 2020. 
Today roughly 40 percent of 25-34 year-old Americans hold college 
degrees, and we want to raise that to 60 percent.
    The Recovery Act put significant resources--almost $100 billion--
behind each of these strategies for ensuring that every child has the 
opportunity to obtain a quality education. Our 2010 request was 
developed in the context of Recovery Act funding, much of which will 
continue to be available to States and school districts in fiscal year 
2010, and reflects our effort to build on and make the most of that 
historic investment in education.
                       early childhood education
    We know from decades of research that investment in high-quality 
early childhood education and services leads to better outcomes in both 
school and the working world. President Obama is drawing on this 
research for his comprehensive Zero-to-Five initiative to expand access 
to quality childcare and education. The 2010 request would jump-start 
this initiative by helping to improve readiness for school, 
particularly in the area of early literacy and reading skills. For 
example, the request includes $500 million for Title I Early Childhood 
Grants, which would provide incentives for school districts to use a 
larger share of Title I Grants to local educational agencies (LEAs) 
funding--including the $10 billion provided by the Recovery Act--to 
establish or expand title I preschool programs. We also are asking for 
$300 million to launch the Early Learning Challenge Fund, which would 
lay the groundwork for future investments in early childhood education 
by helping to build State capacity to measure and improve the quality 
of early childhood programs.
    In addition, the 2010 request would strengthen early literacy 
through a $335 million increase that would expand the Striving Readers 
program to support comprehensive approaches to reading instruction for 
children in the elementary grades that are grounded in scientifically 
based reading research. A portion of the Striving Readers funds would 
continue to support interventions and whole-school efforts in secondary 
schools to help students who read significantly below grade level.
                 new incentives for effective teaching
    President Obama believes strongly that ``America's future depends 
on its teachers.'' We need more effective teachers, and we need them 
most in our lowest-performing schools. Our request supports both of 
these goals. For example, we are asking for a $420 million increase for 
the Teacher Incentive Fund to significantly expand programs developed 
with local stakeholders to reward effective teachers and principals and 
to expand incentives for teachers, principals, and other school staff 
to work in our most challenging schools. The request also includes 
$29.2 million for the School Leadership program, an increase of $10 
million, or 52 percent, to encourage effective principals to work in 
high-need schools and to train effective teachers to become principals 
or assistant principals in those schools.
               promoting innovation in struggling schools
    Creating new incentives for teachers and principals is part of a 
broader effort in our 2010 budget to promote innovation and reform in 
low-performing schools. If you look on our website, at www.ed.gov, you 
will see that as part of our Recovery Act guidance we have posted a 
list of almost 13,000 schools that are identified for improvement 
during the current school year. That number is up by more than 1,000 
schools, or 9 percent, from the previous year. And more than one-third 
of these schools, or almost 5,000 schools, currently are in 
restructuring status--the final stage of improvement for chronically 
low-performing schools that demands fundamental changes in instruction 
and school governance to break the cycle of educational failure.
    Congress recognized the challenges that these schools create for 
States and school districts and provided $3 billion for Title I School 
Improvement Grants in the Recovery Act. The Department is working to 
maximize the impact of these funds on efforts to build State and local 
capacity to support school improvement, and the 2010 request would 
build on those efforts by seeking $1.5 billion for School Improvement 
Grants, a $1 billion increase over the regular 2009 level. The request 
would help intensify efforts to identify and adopt effective turn-
around strategies. The request also would begin to help take on the 
dropout crisis by requiring States to ensure that 40 percent of School 
Improvement Grant allocations are spent in low-performing middle and 
high schools.
    In addition to school improvement funding, we are launching a major 
push to identify and scale-up best practices through our What Works and 
Innovation Fund, which received $650 million under the Recovery Act. We 
would add $100 million to this program in 2010, to support competitive 
grants to LEAs and partnerships between nonprofit organizations and 
LEAs that have made significant gains in improving student outcomes to 
expand or evaluate their work and serve as models of best practices. In 
many ways, this program is the linchpin of everything we are working on 
at the Department, because there is a huge need for effective, scalable 
strategies that can improve student achievement in high-poverty, high-
need schools. Further, we request $72 million more for the Institute 
for Education Sciences, so we can identify what works based on rigorous 
research.
    Our 2010 request also would begin to make good on President Obama's 
promise to increase support for one innovation that we know can improve 
student achievement--charter schools. We are seeking a $52 million 
increase as part of a commitment to double funding for Charter Schools 
Grants over 4 years. Other activities in our 2010 budget to promote 
innovation include $50 million for a High School Graduation Initiative 
to fund innovative and effective strategies designed to increase the 
high school graduation rate, and $10 million for a Promise 
Neighborhoods initiative that would promote comprehensive programs that 
provide the support children need to achieve success from birth through 
college and beyond.
                    helping more kids go to college
    We announced most of our 2010 proposals for postsecondary education 
in February as part of the 2010 President's budget overview, so I will 
just summarize them briefly here. I do think we have an extraordinary 
story to tell about the Federal student aid programs. Under the 
President's request, the Department of Education would administer over 
$129 billion in new grants, loans, and work-study assistance in 2010--a 
32 percent increase over the amount available in 2008--to help more 
than 14 million students and their families pay for college. Our 
proposals to make Pell grants a mandatory, appropriated entitlement, 
raise the maximum Pell award from $5,350 to $5,550, and index the 
maximum award to inflation plus 1 percentage point, would result in a 
$10.4 billion or 57 percent increase in Pell Grant assistance from the 
2008-09 school year to the 2010-2011 school year. And the number of 
Pell Grant recipients would rise by nearly 1.5 million, or 24 percent, 
over the same period.
    We would be able to provide these dramatic increases in student aid 
in part because our proposal to use Federal capital to make all new 
loans through the Direct Loan program, along with our proposed 
restructuring of the Perkins Loans program, would save an estimated 
$24.3 billion over the next 5 years. This is an extraordinary 
opportunity to reform obsolete programs; increase aid available to 
students; and simplify the administration of student loans for 
students, families, schools, and the Department. In short, it is an 
opportunity that should not be missed.
    Finally, our 2010 request would launch a 5-year $2.5 billion Access 
and Completion Incentive Fund that would support innovative State 
efforts to improve college completion rates for low-income students. 
This Federal-State partnership builds on ideas Congress included in the 
Higher Education Opportunity Act, such as the State Grants for Access 
and Persistence program designed to complement LEAP. A key goal of this 
program is to learn more about what works, and what doesn't work, in 
improving student persistence to degree. The administration also 
intends to reach out to the philanthropic community as potential 
partners, and expects to make use of the Experimental Sites authority 
that we already have, to issue regulatory waivers for the purpose of 
research on programs to improve persistence.
                               conclusion
    The Recovery Act provided unprecedented levels of Federal support 
for our schools in return for a commitment to meaningful reform 
strategies. President Obama and I believe that the Recovery Act has 
created a historic opportunity to improve the quality of our education 
system, and we are determined to make the most of that opportunity. Our 
2010 budget request would build on the resources and reforms in the 
Recovery Act to help create a public school system that prepares more 
students for the opportunities provided by a college education and 
helps ensure that they can afford to take advantage of those 
opportunities. As I said at the beginning of my testimony, I believe 
these are goals we all can agree on, and I urge you to support the 
President's fiscal year 2010 request for education.
    I will be happy to take any questions you may have.

                 PELL GRANTS AND COLLEGE ACCESSIBILITY

    Senator Harkin. Thank you very much, Mr. Secretary. That's 
a pretty awesome list of investments that you're making in 
education. I just, off the top, might say that on the issue of 
the Pell grants, well, I guess we are just going to have to 
discuss that further. I think there may be a little bit of 
concern here on this subcommittee and others about making that 
a mandatory program, but it's open for discussion. I don't have 
a closed mind on it, but I think there are reasons on both 
sides.
    Secretary Duncan. I look forward to the discussion, and we 
are open to that. The thing, just, that I worry about a lot, 
Mr. Chairman, is that I worry about fifth and sixth and seventh 
graders who are really smart, and who because dad or mom is 
losing their job, or taking a huge pay cut, start to think 
college is not for them, and that they won't be able to afford 
it. And what I really want is for those young students to know 
that regardless of how tough things are at home, that they are 
going to have an opportunity down the road, if they work hard.
    I worry about the psychological impact, where families are 
under tremendous financial stress, of children just thinking, 
``College is not for me.'' And those dreams start to die at an 
early age.
    So whatever we can do to signal to young children that 
whatever stress your family is under, if you work hard and you 
are committed, you're going to have an opportunity to go to 
college--that's what is important to me.
    Senator Harkin. Well, I am glad to hear you say that. 
That's true. And you are saying that by making it mandatory 
that they have heard that. But there are a lot of other ways 
that we could be looking at, perhaps, making sure that students 
have access to college at any early age, as long as they study 
and get good grades. I am sure you have some ideas of your own 
about changing that system--about providing incentives to kids 
early on so that they can keep up their grades and keep up the 
work, that they get scholarships and they get access to 
college. But we will discuss that. As I said, I don't have a 
closed mind on it, but there are arguments on both sides of 
that.

                          TITLE I FUNDING GAP

    I want to cover my time a little bit on a couple issues you 
raised. One, on the Title I Program. Of course, we did put a 
lot in there, as you mentioned, in the Recovery Act, $10 
billion. So for this year and next year, things are fine. But 
obviously we are looking at what happens when the Recovery 
funds are spent--now in your budget, you requested about a $1.5 
billion cut.
    Well, you can say that's okay since we have all this money 
in the Recovery Act. But the problem with that is you cut the 
base. And you said that we are going to resume a commitment to 
this funding after the Recovery Act money runs out.
    But if we cut the base this year, then as we move into next 
year, you've got to make that up, plus an increase. And that's 
what I am concerned about is cutting the baseline.

           TARGETING TITLE I FUNDS TO LOWER THE DROPOUT RATE

    Secretary Duncan. Yes. I hear the concern. And what we are 
trying to do is really focus that title I money on title I 
children, particularly those schools that have historically 
struggled.
    As I mentioned in the beginning, I worry tremendously about 
our national dropout rate. It's a 30 percent dropout rate. And 
there was a time in our country, you know, a couple decades 
ago, when that was an acceptable dropout rate. There were jobs 
out there for students who didn't have a high school diploma. 
But as all of you know so well, today there are no good jobs 
out there for people without a minimum of a high school 
diploma.
    When we look at the high school dropout problem, it's 
fascinating. Again, a 30 percent rate. We have these 2,000 
dropout factories, about half are in urban areas, 20 percent in 
rural, 30 percent in suburban. So this is a national issue. 
This isn't one or the other. And we can identify 2,000 high 
schools that are producing half of our Nation's dropouts. Half 
the total, and 75 percent are minority students who drop out 
from 2,000 high schools.
    And the cost to our economy is just absolutely devastating, 
as is the loss of human potential. So what I want to do is 
target that title I money to really take this challenge on and 
not just keep perpetuating the status quo.
    Senator Harkin. And that's fine. I am concerned about 
making up the gap for next year. Now you've got to come back 
here again next year with the budget for fiscal year 2011, and 
I am concerned how you make up that $1.5 billion--I don't know 
that we are going to have any better allocation next year than 
we have had this year, and how do we make up that gap of $1.5 
billion, because we cut the base. So we are in a bit of a 
quandary there, and I just--when you say resume, would you look 
next year at bringing it back up to the 2009 level or would it 
go higher than that? I mean, I am just trying to figure out 
where we are headed on this.
    Secretary Duncan. Well, I think those commitments are 
really important to me, so how we do it is obviously not the 
question. I don't know yet, but I want to get those numbers 
back up and keep them up.
    Senator Harkin. Fair enough. We are concerned about that 
cut in the base.
    Secretary Duncan. Yes.

           IMPROVING EDUCATION FOR STUDENTS WITH DISABILITIES

    Senator Harkin. Students with disabilities, this is one 
that we pay special attention to. And we have done well, of 
course, in the Recovery Act with this money. It's an historic 
increase. But I am concerned about something that predates you. 
In 2004, reauthorization of IDEA, there was an allowance that a 
school district could reduce its special education expenditures 
by 50 percent of the increase--whatever the increase they got, 
they could reduce it by 50 percent over what they received in 
the prior year and spend those funds on any other purpose 
authorized in the Elementary and Secondary Education Act.
    Now, if a school has fulfilled all of its responsibilities 
to kids with disabilities and is meeting their needs, then I 
could see that might be fine for them to do that. But in all of 
the information that we have received, and the things that we 
have looked at, obviously some schools have done that, but a 
lot of schools haven't. And if they haven't met the basic needs 
of kids with disabilities, then I am concerned that if they 
take that money out, the students won't get the services they 
need.
    So I guess I would just say how--tell me again how your 
Department is supporting the effective use of the Recovery Act 
money to improve the education outcomes of students with 
disabilities and will you ensure the school districts are 
effectively meeting the needs of these kids before they are 
allowed to shift that IDEA money?
    Secretary Duncan. Very simply, I am in absolute agreement 
with you. And so where States or districts are in compliance, 
we will give them flexibility. Where States are out of 
compliance, we will not give them that flexibility.

              DROP OUT RATE OF STUDENTS WITH DISABILITIES

    Senator Harkin. Right on. Thank you very much. I appreciate 
that very much. Again, when we talk about dropout rates, kids 
with disabilities, right now, are dropping out at a much higher 
rate, and a lot of this for just lack of supporting services 
for these kids at school. Almost 34 percent leave school early, 
and 52 percent of kids with disabilities complete high school. 
So again, I appreciate your response on that.
    I see that my time is out.

                        EARLY LEARNING PROGRAMS

    Senator Cochran. Mr. Chairman, thank you very much. Mr. 
Secretary, the budget requests $300 million for the new early 
challenge program, providing grants for the development of 
statewide programs for children from birth through age 5. Some 
States don't have pre-school programs in place, like my State. 
Would States like Mississippi be eligible for funding under 
this program in some fashion?
    Secretary Duncan. They would be and let me explain how, and 
obviously, we think this investment in early childhood is--you 
could make a pretty good case that it is the best investment 
any of us can make, so we are strongly encouraging it.
    So what we are looking for from States like Mississippi, 
that haven't historically invested, is they can use the 
stimulus dollars, and they can use title I dollars to do that, 
and then we can match those resources. So with all the 
resources coming Mississippi's way, if they invest that in 
early childhood, that would count as a match.
    So there is an absolute opportunity there, but we want the 
States to start to invest in early childhood. The State needs 
it, the country needs it.

               INCREASING THE HIGH SCHOOL GRADUATION RATE

    Senator Cochran. In some States, dropout rates are 
declining. I think in our State they are coming down. But most 
recent statistics seem to indicate that too many students still 
do not complete high school.
    At what age was your program, again, under the new High 
School Graduation Initiative?
    Secretary Duncan. That's a great question. I would argue 
that it's not one age. The folks in early childhood are helping 
to prevent that, but that's long term. So I don't think there 
is one magical age to stop. If you can start with 1 and 2 and 3 
and 4-year-olds, that's the best. You know, prevention is a lot 
better than addressing the back end.
    So I would argue that every investment that we are making 
helps, from early childhood to getting the best teachers to 
work in the toughest communities, to thinking about turning 
around schools, to making college more accessible and 
affordable, and we haven't talked about raising standards that 
we are pushing very hard on.
    I would argue that everything that we are trying to do is 
with a single-minded goal of having more students graduate from 
high school, and having more of those graduates prepare to be 
successful, both in college and in the world of work.
    So I wouldn't give you one age, because I think you have to 
have a comprehensive approach.

                  PROPOSED MOVE TO ALL DIRECT LENDING

    Senator Cochran. The budget also proposes that all new 
postsecondary student loans originate and be serviced through 
the direct lending program. How do we pay for this entitlement 
program and ensure that students will not have their maximum 
grant reduced?
    Secretary Duncan. This is one that I think, again, we can 
pay for without asking for any more money from taxpayers 
because we will basically--again, this is controversial and not 
everyone agrees--but we will get out of the business of 
subsidizing banks. We are going to put all of that money into 
students who are in high school and going on to higher 
education.
    So this is a program that would generate savings, 
conservatively estimated at more than $4 billion annually, 
every single year.
    And so this is one where we can dramatically increase 
access for students, and do it without going back to taxpayers, 
and do it more efficiently. And this is not, sort of, a big 
Government idea. We want and we have to have dramatic private 
sector involvement on the servicing of those loans. We don't 
want to be in that business. We can't be in that business. So 
this is a real chance for the private sector to play, and we 
will reward those players who do a great job in servicing those 
loans.
    Senator Cochran. Let me wish you well and assure you that 
on both sides of the aisle on this subcommittee, we are 
interested in improving opportunities in education for all 
students, whatever their financial situation is, or whatever 
State they come from. And like States like mine, where we have 
had to struggle over the years to meet the educational needs of 
elementary and secondary students, that still is an area that 
cries out for support and assistance from the Federal 
Government. And I can remember, we used to in my State, it was 
kind of you didn't want the Federal Government coming in and 
taking over our schools, and telling us how to teach and all 
the rest, but the fact of the matter is, a lot of these 
programs have been very valuable.
    My mother spent a career in title I mathematics education, 
and was a supervisor for schools. My father was a county 
superintendent of education in the largest elementary and 
secondary school district in the State of Mississippi. I have 
observed at close range all of the challenges that face 
educators and students, alike, in States where there just 
doesn't seem to be enough money to go around and meet all of 
the needs that exist.
    So we appreciate your efforts and your support for States 
like mine.

                    SAVINGS FROM ALL DIRECT LENDING

    Secretary Duncan. I appreciate your comments. I look 
forward to working with you.
    Senator Harkin. Thank you, Senator. I might just add, CBO 
gave an estimate of $96 billion over 10 years, so you might 
want to talk to Mr. Orzag.
    Secretary Duncan. I will try to--I was talking to Tom 
Skelly----
    Senator Harkin. There is Mr. Skelly here.
    Secretary Duncan. Again, I talked about a minimum of $4 
billion and maybe well north of that.
    Senator Harkin. I should have introduced for the record, 
Thomas Skelly, your Budget Director for the Department of 
Education. Welcome back to the subcommittee, again, Mr. Skelly.
    Secretary Duncan. He is the brains of the organization.
    Senator Harkin. Yes. We have met him before. Senator 
Murray.

             PARTNERING SCHOOL PROGRAMS WITH BUSINESS NEEDS

    Senator Murray. Thank you, very much, Mr. Chairman. I 
mentioned in my opening remarks my focus on making sure that 
the skills that we are teaching in our schools actually match 
what our businesses need. And I often hear from employers in my 
State, whether it's our high-tech, clean-energy companies or 
whether it's our boat builders and our construction workers, 
that the skills don't match between what our students are 
learning and what they need in their jobs. And I think we have 
to bridge that gap and as I told you, I will be shortly 
introducing legislation, again, to bring together all the 
players: the employers to the schools to the community; leaders 
to labor; and business workforce experts to design programs for 
their own communities, to focus on the employers and the skills 
that are needed in their own communities.
    And I wanted to ask you if you see a place in your budget 
for promoting those kinds of partnerships for the local level?

            COMMUNITY COLLEGE ROLE--ACADEMIC AND JOB SKILLS

    Secretary Duncan. That's hugely important. I would also 
say, which we didn't talk enough about, I think the community 
colleges play a huge role in this, sort of, trajectory of 
education continuum and I think that's been a really 
underutilized, undervalued resource. And whether it's high tech 
jobs or green jobs or healthcare jobs or jobs specific to your 
area--such as boat building. I was in Miami, and there's a 
fashion industry there. There is a huge player that I am 
actually trying to bring in, my under secretary, she was a 
phenomenal junior college president. I understand there's never 
been a community college president at that level of our 
organization. We think that's strategic. I think it's so 
important that we begin preparing our students for real jobs 
and building those pipelines and working very closely with 
those multiple partnerships. In some places you see great, 
great progress and in some places you don't. But whatever we 
can do to make sure that those employers are actually helping 
to shape the curriculum and helping to shape the opportunities 
that our high school students, as well as our community college 
students, have. We can't do enough of that. We have to tie 
education to the real world.

                             PERKINS LOANS

    Senator Murray. And we have to look at funding programs 
that are already there. Then you've got Carl Perkins loans that 
were level-funded in your budget. Is there any chance for 
improving funding in that?

                         SCALING UP WHAT WORKS

    Secretary Duncan. Again, we have an opportunity not just 
to--this is a real chance for folks to be creative. In the $4.3 
billion Race To The Top Fund, it's all about investing and 
scaling up what works. The $650 million What Works and 
Innovation Fund is a chance for nonprofits and local players 
that partner with districts. So there is a huge chance that 
where we have demonstrated partnerships that will lead to 
higher student achievement, for us to invest in them at 
unprecedented levels and do more of what's working, that's with 
those pools of money.

                         TEACHER INCENTIVE FUND

    Senator Murray. I look forward to further conversations 
with you on that. You mentioned in your remarks to literacy and 
Striving Readers Act, which I introduced with Senator Sessions 
and I wanted to make sure that--I am not sure about my time. I 
want to ask you another question. But I would like to have an 
opportunity to talk to you in the future about that, and how 
you are going to include both adolescent and early literacy 
grants in the proposal, but with the few minutes I have left, I 
did want to ask you about the proposal for the Teacher 
Incentive Fund.
    It's a very large increase that you've asked for and it's 
going to grow the program five times the funding it currently 
receives to about $520 million. That program already received 
an additional $200 million this year in stimulus funds.
    Now this administration often has stressed to us the 
importance to implementing reforms that we know and can prove 
are effective. So can you tell me what the research base is, 
where it shows the effectiveness for the incentives for 
teachers, that justify an expanse for growth in that program at 
such a high rate?
    Secretary Duncan. It's a great question. There are two 
themes that I am going to keep coming back to. One I talked 
about is time. We need more time with our students. The school 
day, the school week, the school year is too short.
    The second one I fundamentally believe is we have to invest 
more in our teachers. And there is a tremendous body of 
research that great teachers, great principals matter 
tremendously. And there are studies that I have seen that talk 
about where the average student has three great teachers in a 
row, that child is a 1 \1/2\ to 2 years ahead of grade level. 
The average child that has three poor teachers in a row can be 
so far behind that it's hard for them to catch up.

                    FOCUS OF TEACHER INCENTIVE FUND

    So I worry a lot about--we talk a lot about the achievement 
gap. I am more interested in what I call the opportunity gap, 
of how we get the best and brightest educators.
    Senator Murray. Yes. I don't think anybody at all disagrees 
with the goal. I am just asking if you can provide us with some 
studies that show that the incentives actually are what makes 
those core teachers better.
    Secretary Duncan. I would be happy to do that. It's not 
just making core teachers better. That's why I was trying to go 
to the next step. What it does is, we want to create incentives 
for the best teachers to go into the most underserved 
communities.
    Senator Murray. So that's the focus of the program?
    Secretary Duncan. That's a piece of it. It's both 
developing talent and creating incentives. And I can just say 
from personal experience, in Chicago, where we did this, we 
only put this program in hard-to-staff schools that had 
significant turnover, and we only put the program into schools 
where 75 percent or more of the teachers asked for it.
    Senator Murray. Okay. Can you explain to me that you put a 
significant amount of money forward that has not been through 
authorization, can you tell me what safeguards are going to be 
in there against some subjective awards, or awards that are 
only based on test scores since you are putting this money out 
there?
    Secretary Duncan. Absolutely. We can sit down and walk 
through it very, very carefully with you. And in any good 
program, test scores are never the only thing you evaluate.

               TEACHER INCENTIVE FUND COMPETITIVE GRANTS

    Senator Murray. My concern is that the program that goes 
out to the States, so it sounds good when you say it to us, I 
just want to know how it's going to be implemented?
    Secretary Duncan. Let me be clear. The money is not going 
out to the States. This is going out on a competitive grant 
basis, so folks are going to have to apply to us. So we can 
walk through with you what our request for proposal is going to 
look like and what our criteria will be for evaluating those 
proposals.
    So this is not money that is going to go out willy-nilly. 
We want to invest in those places that we think are doing this 
the right way. We would be happy to sort of walk through----
    Senator Murray [continuing]. It's not just going to be test 
scores and----
    Secretary Duncan [continuing]. Again, that never--let me be 
clear on two things. One, it can never just be about test 
scores. Second, it cannot pit teachers against each other.
    Senator Murray. Okay. So I would like to, at some point, 
work through it with you so I understand how that is going to 
work.
    Secretary Duncan. Absolutely.
    Senator Harkin. Senator Landrieu.

                             SCHOOL REFORM

    Senator Landrieu. Thank you. Mr. Secretary, I just can't 
tell you how encouraged I am by what I have heard this morning. 
I just really believe you are the right person to lead this 
effort, and I am so encouraged with President Obama's continued 
focus, amidst all the other things that he's got to do, but he 
comes across to me and to many of us as just unrelenting, which 
is the way I think he should be, and obviously you are, on 
reforming a school system in crisis. And reforming a school 
system that is in such a state right now that is it unable to 
support the economic growth of this Nation. And the bold vision 
that you have outlined, I generally support, and I want to let 
you know that.

                            CHARTER SCHOOLS

    I have a comment though, if you could take a minute to 
explain to me and to the subcommittee a little bit about why 
the President's and First Lady's first visit, they stopped at 
charter schools. What is it that they see that we need to know 
about? Because there are some questions, as you know, about 
this issue around the country. We have had very good 
experiences with what we call independent public schools. But 
tell us for a minute about why you and the President feel so 
strongly about this direction.
    Secretary Duncan. It's a piece of the answer. It's not the 
answer. This budget, we didn't mention, includes an additional 
$52 million for charter schools. Let me tell you what we need. 
We don't need more charters, we need more good schools in this 
country. And for charters to be good, I think three things have 
to happen.
    First, you have to have a very high barrier to entry. This 
is not let 1,000 flowers bloom. And if you do that, you just 
perpetuate the status quo. So, you only pick the best of the 
best to open schools. That's like a sacred obligation, a chance 
to educate children. That should not go to everybody. That 
should go to the small percentage, the absolute best.
    Second, after you set that high bar, you need to give these 
educators real autonomy. These are by definition entrepreneurs 
and innovators. And you need to give them room and freedom from 
bureaucracy.
    Finally, you need to tie that real autonomy with real 
accountability. You have to have performance contracts. 
Obviously I am a big fan of charter schools, but I closed three 
for academic failure.
    And so I think if you have just autonomy without 
accountability, you don't get there. If you just have the 
accountability without the autonomy, nobody would want to play. 
So you need to get those three conditions, and that doesn't 
happen that way all around the country. I think you guys are 
doing a great job of it in Louisiana and New Orleans. But when 
those three things happen, you generally have some very high-
performing schools in some of the most underserved communities 
in our country--inner city, urban, and rural.
    And so I think that it is not, by any means, the answer, 
but when done well and when done right, thoughtfully and 
strategically, it is a piece of the answer. And I think what is 
going on in your State, and New Orleans, specifically, is a 
fascinating example of what's possible when things are done the 
right way.

            EARLY CHILDHOOD EDUCATION AND SPECIAL EDUCATION

    Senator Landrieu. Thank you. My second question is about 
the disability issue and program, and Senator Harkin is such an 
extraordinary leader, and I try to be supportive where I can 
be, but I want to just share from my experience, Mr. Chairman, 
as the chairman of the D.C. subcommittee at some point. We 
looked into the disability, the cost of the disability program 
here in the District. And my staff is going to be getting me 
some specific numbers for the record, but I believe, if my 
memory serves me correctly, that the cost per student here is 
somewhere between $20,000 and $40,000 a year. Is that your 
understanding of the students in the District that are going to 
outside of the public system? And Mr. Skelly, do you know what 
the numbers are?
    Mr. Skelly. Senator, those numbers sound about right, but I 
am not aware of them specifically.
    Senator Landrieu. I am going to ask the staff to get those 
numbers on the record, because the point that I am making here 
is that if we don't get on the front end of this situation, 
which is, I think, what your budget is attempting to do, which 
is investing in early childhood education, keeping children, 
Mr. Chairman, from getting an inappropriate and unnecessary 
label as dysfunctional just because they can't read. And then 
they get into a trap that is actually unsustainable for any 
budget to continue. It's a totally different issue than trying 
to provide basic services, which the Chairman on our committee 
will insist be given.
    So I just want to lay the record down that we need to find 
those numbers out, because it's unsustainable at the $20,000 to 
$25,000 a year.

                  READING SKILLS AND SPECIAL EDUCATION

    Secretary Duncan. I would argue that in many places, it's 
much higher than that. And as you know, so many children go 
into special education because they are labeled LD, learning 
disabled----
    Senator Landrieu [continuing]. A lot of times they can't 
read----
    Secretary Duncan [continuing]. And that means they can't 
read. So if we teach our children to read, they don't go into 
special education. And what's amazing to me is you almost never 
see anyone exit special education. Once you go in, in many 
cases, you are there forever. And so the right thing to do is 
to do a much better job on the front end, and it is right for 
multiple reasons, but if we could have--if we could reduce over 
time the numbers who are going into special education because 
they can't read, we will be doing those children a tremendous 
service.
    Senator Landrieu. Thank you, Mr. Secretary.
    Senator Harkin. Thank you, Senator. Senator Kohl.

                          HIGH SCHOOL DROPOUTS

    Senator Kohl. Thank you, Mr. Chairman. Mr. Secretary, as 
you sit here this morning, one of the most urgent crises that 
we face is the epidemic of high school dropouts and the fact 
that No Child Left Behind did not do very much to address this 
problem.

                 DUAL ENROLLMENT PROGRAMS AND DROPOUTS

    Many ideas are proposed to increase high school graduation 
rates and better prepare our students for college. I have been 
talking about additional Federal support for what they call 
dual enrollment programs to help low-income students get on a 
fast track to get a high school as well as a college degree.
    As you know, these programs help students. They save time 
and money on college courses while building the skills and 
confidence they need to succeed in the college environment. The 
President has expressed his efforts to help high school 
students begin earning college credits.
    Do you anticipate increased support for early college and 
dual enrollment programs?

                  BENEFITS OF DUAL ENROLLMENT PROGRAMS

    Secretary Duncan. Senator Kohl, I am very familiar with 
that work under your leadership, and I want you to know how 
much I appreciate it. It does a couple things for students, and 
I will tell you how we will support it, but let me tell you why 
I think it's so important.
    First of all, in these tough economic times, having 
students get that college credit in their back pocket before 
they go on to college will save the high school student 
significant money.
    The second thing it does, which I think is probably more 
important, particularly for children who might be first 
generation going to college, and English language learners, it 
helps them really understand in their heart, that they can be 
successful at the college level. They really can do it. Some of 
these children reach a psychological barrier, that they are 
academically prepared, but because they don't have family 
members who have taken that step, they don't believe they can 
do it. And when they have that dual enrollment or dual credit 
system as a 10th, 11th, 12th grader, they know they can be 
successful at that collegiate level.
    So there is a huge opportunity in both the $4.35 billion 
Race to the Top Fund for States, as well as the $650 million 
Innovation Fund for districts, community colleges, 
universities, cities, whatever it might be, to come together 
and expand upon those programs that are working. I think that's 
a very significant investment.
    Senator Kohl. In terms of priority, the program seems to me 
should have a very high priority, if we talk about encouraging 
our high school students that aspire to going to college, and 
to more than talk about it, to give them a way in which they 
can start down that path.
    What kind of a priority do you have on that?
    Secretary Duncan. Dual enrollment is one of our FIPSE 
competitive priorities in fiscal year 2010.

                       INCENTIVE PAY FOR TEACHERS

    Senator Kohl. Thank you. On the teacher incentive fund and 
merit pay, during your time in Chicago, how did you work with 
teachers and unions to get this kind of a system up and going 
and implemented? What did you learn?
    Secretary Duncan. As I said, the only way--I know Senator 
Murray has some concerns, so I should have addressed this more 
clearly while she was here, the only way this works is when you 
do it in collaboration. And actually what we did in Chicago, is 
we had a set of the best teachers in the system who started an 
advisory council for me, they actually set the program up. So 
it was absolutely teacher led.
    They figured it out. They went out and met with schools 
around the city and they applied for the grant through the 
Department of Education and did a phenomenal job. I think we 
were awarded the largest grant in the country.
    And it's interesting. You do all this hard work, and you 
think you have a good idea, but at the end of the day, you 
don't know if anyone is going to be interested. We had 120 
schools show interest and we would only go to schools where 75 
percent of the teachers wanted the program. And at most of the 
schools we picked, 95, 98, 100 percent of the teachers asked 
for it.
    So this is driven by great, great teachers. They want to be 
rewarded. They want that excellence, to shine a spotlight on 
that, and they want to get more great teachers into underserved 
communities. So this is a perfect opportunity for 
collaboration. And there can be tough conversations or 
differences of opinion, and that's part of the process. But the 
program we did in Chicago was created and established and led 
by a set of the best teachers in the city.

        ADDRESSING IMMEDIATE FISCAL NEEDS AND SUSTAINABLE REFORM

    Senator Kohl. Good. As you know, the Recovery Act passed by 
Congress contains billions of dollars for one-time funding for 
public schools. In many States, such as my own State, they are 
facing serious budget constraints and struggling just to 
preserve jobs and maintain existing education services. As you 
administer the funds provided in the Recovery package, how will 
you help States invest in sustainable improvements while also 
addressing their immediate fiscal concerns?
    Secretary Duncan. Right, and sometimes people can see that 
as a tension, and I think this is a real test of leadership and 
creativity. So it is, you know, times of crisis that provide us 
a huge opportunity. We have to be thinking about both. Let me 
give you an example, on the IDEA funding, unprecedented 
resources, how can you spend that money wisely? I would argue 
that one of the best things that we can do is invest a massive 
amount of money and train all teachers how to better work with 
special education teachers. I think we have had this divide 
between special education teachers and regular teachers, and 
the fact of the matter is so many of our regular education 
teachers have special education students in their classroom, 
and don't know how to do a good job with them. And so I think 
that's one area where the benefits for those teachers and 
school systems will far outlast the availability of those 
funds.
    And so we want to work very, very hard. You see, again, I 
talk a lot about time. You know, thinking differently about 
time. You see lots of school districts trying to figure out how 
to do more over the summer, more on the weekends, more on 
Saturdays, and bring in nonprofit partners and build 
sustainable programs, where schools are open 12, 13, 14 hours a 
day. Where the money can be a catalyst by bringing in all these 
outside partners, you have a huge leverage on those resources.
    So we are going to continue to provide guidance. We are 
going to highlight examples of success, like Cincinnati, that 
added what they call a fifth quarter, this summer, now, for 
their students, keeping them a month longer after the school 
year ends. We are going to continue to provide those kinds of 
best practices as examples for folks around the country.

                           PREPARED STATEMENT

    And, you will see some real innovation. And you will see 
some folks that are paralyzed by the crisis, and this will be a 
real test of how leadership handles a tough situation and an 
opportunity, and I would argue that the nexus of crisis and 
opportunity gives a huge chance to push for the kind of 
dramatic change we need.
    [The statement follows:]
                Prepared Statement of Senator Herb Kohl
    Thank you, Mr. Chairman. Mr. Duncan, I join my colleagues in 
welcoming you here today. I appreciate the difficult task you face in 
improving our public education system, particularly in light of the 
fiscal constraints we face during this recession. As we seek to 
maintain America's competitiveness in the global economy and guarantee 
our children their chance at the American Dream, I believe your task is 
more important than ever.
    As you know, one of the first orders of business must be to reform 
and reauthorize the Elementary and Secondary Education Act, currently 
known as No Child Left Behind. I initially supported this legislation 
because it guaranteed increased Federal funding and flexibility in 
exchange for real accountability from schools. However, over the years, 
funding levels have fallen billions short of what was authorized, and 
schools are struggling to meet the law's requirements without the 
necessary resources and evidence-based solutions to meet ongoing 
challenges. To make matters worse, Congress also has not provided the 
funding promised to States for special education under the Individuals 
with Disabilities Education Act. This chronic underfunding of our 
public schools has caused serious hardships nationwide and makes it 
extremely difficult for teachers and students to meet their goals.
    I am hopeful that President Obama and this Congress will make 
school funding one of our Nation's highest priorities. Although the 
current economic crisis requires fiscal prudence, I believe education 
is one of the best investments our Nation can make to ensure future 
economic growth and stability. I am also hopeful that, under your new 
leadership, the Department of Education will use Federal funding to 
foster innovative ideas and new policy solutions to ensure that all 
students have the opportunity to fulfill their potential--regardless of 
the State or neighborhood in which they live. I look forward to working 
with you and the President as we work toward these important goals.

    Senator Kohl. Thank you so much. Thank you, Mr. Chairman.
    Senator Harkin. Thank you Senator Kohl. We call Senator 
Pryor.

                    STATEMENT OF SENATOR MARK PRYOR

    Senator Pryor. Thank you, Mr. Chairman. And Mr. Secretary, 
thank you for being here. I first want to start on the stimulus 
spending and say that the feedback from the Arkansas Department 
of Education and educators in our State are very positive on 
that and we appreciate your help and your Department's 
cooperation and assistance. And I am sure a lot of other States 
have had that same experience, and we want to thank you for 
that.
    Secretary Duncan. We will try and keep it that way. Just 
one plug for our staff. They have done a phenomenal job. Folks 
are applying, and we are committed to turning around the 
applications in 14 days, and we have been doing it in 6. Our 
staff is working nights and weekends and I couldn't be more 
proud of their collective effort.
    Senator Pryor. That's very un-Federal and un-Government 
like, and that's good.
    Let me also mention just one concern, and that is, our 
State Department of Education has put a lot of requirements and 
very stringent guidelines on the money to make sure it is going 
to the right places and doing the right things. And we 
understand that there is going to be an audit of that, and 
that's great. Everybody should welcome that. But the only thing 
is that I would ask, that your Department coordinate with our 
State departments around the country to make sure that we are 
auditing the same things, and that we are focused on the same 
things.
    Secretary Duncan. I would be happy to go over that with 
you. With unprecedented resources you want to have 
unprecedented transparency and real clarity and visibility to 
see how every single dollar is being spent.
    Senator Pryor. Right.
    Secretary Duncan. And as much as we coordinate and work 
together, and not waste and not overload and not duplicate 
resources, that makes a lot of sense.

                     ADDRESSING THE DROPOUT PROBLEM

    Senator Pryor. Exactly. Thank you very much for that. I 
also want to follow up on something that Senator Cochran 
mentioned earlier about dropouts and how that has been a real 
challenge for the Nation, and you mentioned about the drag on 
the economy and problems that that causes long term. I think 
you guys have set aside, what, $50 million for a new high 
school graduation initiative, and how did you arrive at that 
figure and how do you envision that money being spent on that?
    Secretary Duncan. That is a piece of the money, again, I 
would mention the $5 billion school improvement entitlement 
money that we really want to focus on this. And I think as a 
country, we have shied away from the complexity of this and the 
difficulties of this, and I think we do that at great detriment 
to those children, and at great harm to our Nation's economy 
long term. So I want to confront this front and center.
    And again, when you look at the data, it's fascinating. The 
economic costs are staggering. When we think about 2,000 high 
schools producing half the Nation's dropouts, and 75 percent of 
the dropouts are minority children, that's a number you can get 
your hands around. You can't tackle every school tomorrow, but 
if we could systemically, year after year, come back and do 
something dramatically better, not just for those high schools, 
but those feeder elementaries as well, I think we could turn 
this around.
    And what we have, why I am optimistic, is we have in every 
rural community that's poor, and any inner city urban 
community, while we have these ``dropout factories'' we also 
have schools where 95 percent of students are graduating, and 
90 percent of those that graduated are going on to college. So 
we know what works. We know what is successful out there. There 
are more good examples out there today than ever before, and 
what we want to do is scale those up, invest in those best 
practices, and give more students those kinds of opportunities.
    So this is a tough battle, but it's absolutely the battle I 
think we need to fight and I am committed to being in it for 
the long haul.
    Senator Pryor. And it's another example of where the public 
schools, the apparent demographics of the population that we 
are serving presents a lot of unique challenges and 
circumstances around the country.

                           THE GRADUATES ACT

    Let me just let you know about something, if you don't 
already, and that is, last year, Senator Harry Reid and I had a 
bill, we called the Graduates Act, and basically what we were 
trying to do is come up with a way to incentivize and reward, 
innovative partnerships to try and keep people in school with 
the public and private sector. Are you familiar with that?

                   RAISING COLLEGE GRADUATION BY 2020

    Secretary Duncan. Yeah, and we want to build upon all 
those--everything we can do to have students not just graduate 
from high school, but go to college; but not just go, but 
graduate from college. We have to. That's what this work is 
about at the end of the day, to try to dramatically drive up 
our college graduates by 2020. We have to take steps every 
single year, and I appreciate your leadership in that effort.
    Senator Pryor. Well, I just--that was a little bit before 
your time, before you got here, and I just wanted to make sure 
you were aware of it.

                SAFE AND DRUG-FREE SCHOOLS STATE GRANTS

    There are some grants that serve at-risk populations that 
the administration has eliminated or has proposed elimination 
of that deal with safe and drug-free schools. Could you talk a 
little bit about that?
    Secretary Duncan. I did. I talked about it in my statement. 
That what we saw was that money we put out--obviously those are 
big issues for me, both trying to keep our schools drug-free, 
but also dramatically reduce violence. We found through 
research and doing evaluation of this money that we put through 
the States, there wasn't much effectiveness there. But money we 
put out directly to districts and schools, we saw more 
effectiveness. So we basically eliminated the State grants and 
put an additional $100 million into a national program.
    So I was trying to be more strategic: same goals, same 
commitment. We are trying to be much more targeted in getting 
those resources where it needs to happen.
    Money was dribbling out to States, and we just weren't 
seeing in objective research, in evaluative studies, we weren't 
seeing the impact we want.
    Senator Pryor. Do you feel like you have good ways to 
measure that? Are you confident in your ability to measure 
that?
    Secretary Duncan. Yes, I am pretty confident we can measure 
that.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Pryor. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman. I join my 
colleagues, Secretary Duncan, in welcoming you here. You have 
taken on a tough job. I have had the opportunity to work on 
this subcommittee for many years, and it's very, very 
difficult.

               PROPOSAL TO MOVE FFEL TO ALL DIRECT LOANS

    I would like to start by asking you about the Federal 
Family Education Loan Program, where the proposal has been made 
to have direct loans as of July 1, 2010 and questions have been 
raised in my State by the folks in the Pennsylvania Higher 
Education Assistance Agency as to whether that can be 
implemented in that length of time, and whether the allocation 
of funding set at $500 million per year would be adequate to 
take on the services which are currently provided, including 
early awareness, financial literacy training and counseling 
programs; and what will happen to the very substantial number 
of employees who are working for not-for-profit in public 
agencies in their State. So it is a sweeping change. No doubt 
this is a very important program, and necessary to keep young 
people in school, especially given the economic problems of 
today.
    How do you propose to address those very serious 
considerations?

                   SAVINGS FROM MOVE TO DIRECT LOANS

    Secretary Duncan. Yeah, so there are a couple pieces. First 
is by making that switch from FFEL to direct lending, we can 
dramatically increase the amount of money going out to students 
directly, you know, in Pell grants. So we are anticipating 
savings of over $4 billion a year, and at a time when going to 
college has never been more important, as you know, it's never 
been more expensive and families have never been under more 
financial duress.
    So we can sustain indefinitely, dramatically higher levels 
of funding for students without going back to taxpayers for 
another dollar. The $2.5 billion over 5 years, to help work on 
not just access, but on completion, actually significantly 
increases the amount of resources that will go out to 
nonprofits. It will help keep those students in school and 
build a culture at universities where it's not just about 
access, but it's about attainment, making sure students know 
what the opportunities are and in making sure they graduate.

                   LOAN SERVICING UNDER DIRECT LOANS

    So we think these are the right investments to make. On the 
servicing of loans, we don't want to get into that business. 
That is all going to be done by the private sector. We don't 
want to get into that. We have no expertise in it.

           PROGRAMS PROVIDING TRANSITION TO COLLEGE SERVICES

    Senator Specter. Mr. Secretary, how about programs that I 
stated and enumerated on: early awareness, financial literacy 
training, counseling programs, will they be maintained under 
the changed program?
    Secretary Duncan. I think more than maintain, we want to 
actually enhance. We want to do more than that.
    Senator Specter. Do you have more than the $500 million, 
which is currently allocated here?
    Secretary Duncan. Well, that's a starting point. I think 
that's a very significant investment and to be able to do that 
every year over the next 5 years gives us a huge opportunity to 
better inform and better help students understand what their 
options are.

                          IMPACT ON EMPLOYMENT

    Senator Specter. How about the large number of employees? 
Would there be some effort made to transition and accommodate 
the 2,200 employees who are in my State, and who are of great 
concern to me?
    Secretary Duncan. Well, again, it depends what business 
they're in--on that side, we think there will be a growing 
market. We are going to need more folks doing this work and we 
think we are actually going to increase the market share for 
the folks working on the servicing of loans. And so we are 
hopeful that the job loss will be minimal and we're actually 
going to create jobs in those two areas.

                            GEAR UP PROGRAM

    Senator Specter. Mr. Secretary, shifting to another 
program. There has been an operation called GEAR UP, which was 
originated by Congressman Fattah on the House side. And this 
subcommittee has provided very substantial funding of $300 
million a year and the program has been in existence for 7 or 8 
years now. So it has really taken off. And these are at-risk 
students, and they tie into efforts which this subcommittee has 
taken the lead on mentoring. So many single parent families, 
working mothers, children at loose ends, not afterschool care, 
and efforts have been made to find adult mentors in the 
community, this ties into many facets of their lives: the 
learning program, the delinquency issue, the crime problems, 
and I would be interested to know what thought you might have 
of your Department supplementing efforts now being undertaken.
    Secretary Duncan. I am a big fan of the GEAR UP program. We 
were a large beneficiary of that program in Chicago, and for 
all of the reasons you said, these are students who desperately 
need that help and need the chance to be supported in that 
transition from high school to college, and so we are going to 
support those efforts going forward.

                        IMPORTANCE OF MENTORING

    Senator Specter. How about the mentoring aspect?
    Secretary Duncan. That's hugely important. Our children 
need adults in their lives to help them to understand what 
their options are, and doing the hard work with them every 
single day to stay on track.
    Senator Specter. Thank you, Mr. Secretary. I'd appreciate 
it if I could have your commitment to take a personal look at 
how the Direct Loan program is going to go, to accommodate as 
best you can the kinds of concerns I have raised.
    Secretary Duncan. You have that, and I would be happy to 
sit down with you further and discuss exactly what's going on 
in your State.
    Senator Specter. Thank you.

              BASIS FOR AWARDING LOAN SERVICING CONTRACTS

    Senator Harkin. I just want to echo a little bit what 
Senator Specter just said here. The last thing I want to see 
happen is to see Mr. Lord get more money to buy--to build more 
private golf courses for himself. You know, this whole scandal 
that happened at Sallie Mae was awful. If someone can make that 
much money off the back of students, that just shouldn't be 
allowed. Now again, because Sallie Mae has gotten so big, 
because of the subsidies that we have given to Sallie Mae over 
the years, now they are able to undercut everybody else. So, it 
does require some more looking into.
    If just the cost is the only basis on which we are going to 
award these service contracts, then Sallie Mae can undercut 
everybody. But, my gosh, we are the ones who gave them all 
these subsidies all these years so they could get that big.
    Secretary Duncan. It just can't be cost. It is going to be 
cost and ability to help those students.
    Senator Harkin. Exactly. I appreciate it.
    Secretary Duncan. You have to look at both.
    Senator Harkin. I appreciate that.
    Secretary Duncan. You have to look at outcomes.

                  SUSTAINING RECOVERY FUND INITIATIVES

    Senator Harkin. And outcomes, exactly right. Exactly, Mr. 
Secretary. Mr. Secretary, you mentioned Cincinnati has 
increased the school year by a month?
    Secretary Duncan. Yes.
    Senator Harkin. Well, that's pretty good. My question is 
where does the money come from?
    Secretary Duncan. The stimulus.
    Senator Harkin. Stimulus money? So what are they going to 
do when the stimulus money runs out?
    Secretary Duncan. Well, we will cross that bridge when we 
get there. But, this is the right thing to do for children now 
and it keeps students at-risk in school. It keeps teachers 
teaching. And what I would argue is that every dollar, 
historically, hasn't always been used really wisely, and you 
are going to see some innovation with stimulus dollars, and if 
these things work--I am very optimistic. Obviously we don't 
have any data yet, but what I would argue is if districts and 
States start to do some creative things with stimulus dollars, 
that might change their allocation and their strategic use of 
their dollars once that money is gone.

                           LONGER SCHOOL YEAR

    Senator Harkin. Don't misunderstand me. I happen to be one 
of those in favor of a longer school year. I think the school 
year ought to be 11 months.
    Secretary Duncan. Twelve.
    Senator Harkin. Well, I am all for giving them the month of 
August, 3 or 4 weeks in August, that would be fine. But I do 
believe that it should be longer. And we have got to get to 
that point. It is just not right what we are doing with these 
kids today.
    Secretary Duncan. And again, I think this is one bit where 
we have not had as much creativity as we need. And more and 
more, the data is showing this. And if we can use stimulus 
dollars as sort of the impetus to get this gain, I think folks 
will start to think about how they are using other resources 
and start to allocate more funding in this direction. But this 
opens that door, which I think is so important.
    Senator Harkin. Well, let's open the door further. I would, 
both on this subcommittee, as Chair of the subcommittee, but 
also on the authorizing committee, we ought to be saying what 
we can do over the next few years to expand that school year? 
We have got to do this. We just can't keep on like we are.
    Secretary Duncan. I appreciate your leadership on this 
issue. I think it's a big, big deal.
    Senator Harkin. I don't know if I am much leadership, but I 
got a lot of support for you. I can put you out there on the 
point, Mr. Secretary. We'll be right there backing you up.

               RECOVERY ACT DISCRETIONARY EDUCATION FUNDS

    Let me ask you a little bit more about the Recovery Act. It 
provides that you get more money for discretion than any 
Secretary of Education has ever had. This is your money and you 
can just sort of do with it as you wish, $4.35 billion for the 
Race To The Top Fund, $650 million for What Works and 
Innovation Fund.

                       RACE TO THE TOP FUND GOALS

    Again, this can be powerful incentives. Again, we don't 
really have many details on what you plan to do with it. On the 
Race To The Top Fund, I mean, let's fast forward a few years. I 
mean, if we go ahead 5 years, what will you hope to have 
achieved, and how will we know if it has worked? What will be 
different in terms of what districts and States do in 
education?
    Give me some idea about this Race To The Top.
    Secretary Duncan. What we want to do--what I think, 
historically, what we have a bit is the race to the bottom. And 
that has really hurt our country and hurt our economy and hurt 
our children, and we want to fundamentally use these dollars to 
reverse that. And the Race To The Top means it's not by 
accident.
    What we want to do, let me take the $4.35 billion first and 
I will come back to the $650 million. On the $4.35 billion, we 
want to work with a set of States that are willing to lead the 
country where we believe we need to go. There are four areas we 
are looking at.

                        SETTING HIGHER STANDARDS

    One is we want to see higher standards. I have been arguing 
pretty vociferously that in too many States, due to political 
pressures, standards have been dummied down and watered down, 
and that in fact, we have been lying to children. Let me take 1 
minute on why I say that.
    When you tell a child that they are ``meeting a State 
standard,'' the logical assumption by that child and that 
parent is that child is on track to be successful.
    In far too many places, including the State I am from, from 
Illinois, those children who are ``meeting the standards'' are 
barely able to graduate from high school, and absolutely 
inadequately prepared to go to a competitive university, let 
alone graduate.
    So we want to talk about common, college-ready, career-
ready, internationally benchmarked standards. Really raising 
the bar there.

                 DEVELOPING COMPREHENSIVE DATA SYSTEMS

    Second, we want to talk about comprehensive data systems, 
so that you can't lose children throughout the educational 
trajectory. You have to know how they are performing. You want 
to be able to track students to their teachers, to know which 
teachers are making the biggest difference in their students' 
lives, and you want to be able to track teachers back to their 
schools of education, so you can know which schools of 
education are producing the teachers, who are producing the 
students that are learning the most.

                          INVESTING IN TALENT

    Third, we want to invest deeply in talent. Great teaching, 
great principals matter tremendously. And how do we think about 
getting the best and the brightest to work in the communities 
that have been historically underserved--rural, inner city, and 
urban?
    We have had a shortage of math and science teachers for how 
long? A couple of decades? I would like to pay math and science 
teachers more. Some people disagree with me. I think we need to 
end that. And how can we create the next generation of 
engineers and mathematicians and people who are going to create 
the breakthrough technologies if they are not being taught by 
the teachers who know the content?
    So really working with States that are willing to think 
differently about talent, getting the best and the brightest 
where we need them, awarding excellence, thinking about areas 
of critical need.

                       HELPING STRUGGLING SCHOOLS

    And then finally, I keep coming back to this idea of 
struggling schools, and I want to take just 1 second on this. 
We have about 95,000 schools in our country. Let's call it 
100,000. What if we took the bottom 1 percent, the bottom 1 
percent of schools each year----
    Senator Harkin. You mean bottom in what way?
    Secretary Duncan. One thousand schools, dropout factories, 
low gain, students not learning, basically just simply not 
working; and we can figure out State-by-State what that would 
look like. What if we took their bottom 1 percent every year 
and just fundamentally turned them around? Stop tweaking around 
the edges, stop looking at incremental change, but really 
trying to attack this dropout program full, square on, at both 
the high school, middle school, and at the elementary level.
    What we want to do is look at those four reforms and work 
with a set of States and invest hundreds of millions of dollars 
in those States that are willing to lead the country where we 
need to go. This is really about having courage, and having the 
will to challenge the status quo in some areas.

                 RACE TO THE TOP--REQUEST FOR PROPOSALS

    So in the next 2 months or so, we will issue a request for 
proposal to States. We will look at how they are making 
progress against these things, and we want to have a set of 
States, again, lead the country and set an example of what is 
possible.
    On the $650 million, the Innovation Fund, investing in what 
works----
    Senator Harkin. Let me interrupt. So the request for 
proposals, when you put those out, and you are going to do that 
within the next month?
    Secretary Duncan. Two to three months. We want to be very 
thoughtful about it, so we are spending lots of time thinking 
about it now.
    Senator Harkin. Okay. So they will include specific areas 
of focus in the requests?
    Secretary Duncan. Yeah, and these echo and mirror the 
assurances we look for on the stimulus dollars, under the 
Recovery Act. These are the same areas. We are trying to be 
very, very consistent in our message. We ask States to make a 
series of assurances to receive stimulus dollars, and this RFP, 
this request for proposal, will mirror those same assurances. 
So we are trying, again, to be laser-like focused on those 
things that we think will make the biggest difference.

                        INVESTING IN INNOVATION

    Senator Harkin. Now the $650 million?
    Secretary Duncan. The $650 million is not focused on 
States. It's focused on districts and nonprofits. So this is 
trying to--again, we have so many districts and we have so many 
schools and we have so many nonprofits that are making huge 
differences in students' lives.
    For me, what's so helpful is that I don't think I have to 
come up with any great ideas. I think all of the great ideas 
are out there. We need to listen. We need to learn. We need to 
invest in what works and scale it up.
    And what our challenge is and opportunity, I think, Mr. 
Chairman, is this. We have these huge pockets of excellence. We 
have these islands of excellence. I want to take those to 
scale. If something is working, I want to give more students, 
more teachers, more communities the opportunity to benefit from 
that.
    We are seeing this flourishing of innovation in education 
over the past 10, 15 years. We have wonderful examples of what 
is happening, but they are all constrained by resources. If we 
can significantly invest in those and give more students, more 
teachers and more schools, more districts, more communities 
those kinds of opportunities, I just simply want to invest in 
what in those programs have demonstrated an ability to make a 
difference in students' lives. That's the purpose of this $650 
million.
    Senator Harkin. Thank you very much. I will come back to 
that, but first I want to yield to Senator Reed.

                  ACCESS AND COMPLETION INCENTIVE FUND

    Senator Reed. Thank you, very much, Mr. Chairman, and 
welcome Mr. Secretary. And let me first raise a question that I 
suggested in my opening comments. That is that the Access and 
Completion Incentive Fund is something that we are all excited 
about. In your own statement, you suggest that it is going to 
be built on some form of the LEAP and GAP program that we 
passed last year. And I wonder if you might go into some of the 
details, Mr. Secretary?
    Secretary Duncan. Yes. I think these are really 
complementary. What the LEAP--and this is your baby, so you 
well know that LEAP can help some States do more to create 
need-based aid, not just merit based, so really helping those 
students who are poor. And again, what I want to do is not just 
help give them access, I want to drive up completion rates. I 
want to work on attainment. So what these resources will do, it 
will go through States to universities, to really build a 
culture that helps those--probably help those very same 
students that your program is supporting--those students who 
come in, who may not have had family members who have gone to 
college, who might be English language learners, and so for me, 
the goal is not just about access. It's about completion. I 
think that these two, could actually be very, very 
complementary and mutually reinforcing.
    Senator Reed. Well, part of this whole process is making 
children aware, really, of their potential to go onto higher 
education, and also, to try and incentivize the State to put 
more money in what are very difficult times. So anything you 
could do to coordinate those programs, make them work in 
tandem, not just to get them there, as you said, both 
financially and academically.
    Secretary Duncan. It's really interesting, not to belabor 
the point, but as you well know, universities are actually, to 
me, a lot like high school. You have some high schools that do 
a great job on graduation rates, and some that don't. There are 
some colleges that do a great job in working with at-risk 
students and help them to graduate, and some don't. Again, we 
have to scale up those best practices. And I will tell you 
honestly, that we tracked this data very closely in Chicago, 
and we started to steer our graduates away from some 
universities, and towards others. Because as we looked at the 
data, we saw that some universities that would have--you know 
this type of population, this GPA, this class rank, this SAT 
score; 90 percent of those students were graduating, and at 
another university, 50 percent were. I mean, huge disparities 
from very similar populations.
    And so the more we can share those best practices, and get 
more universities thinking about this--you know, we have done 
very little to incentivize universities to graduate students. 
We give them lots of money to get students in the door, but we 
haven't done enough on the completion side. And that's where I 
want to continue to focus every single year.
    Senator Reed. Thank you. Let me turn the page literally to 
another issue, and that is I commend you for the economic 
recovery package, getting money out. As you pointed out in your 
opening statement, preserving employment and preserving 
opportunity for students in thousands of communities, both 
large and small, across the country.
    The first round was, essentially, to get the money out to 
plug gaps. And the second round, though, I think you are going 
to have to look closely at how that money has been spent, so 
that it is truly honed in on the objectives and the outcomes 
and the reform that you emphasized.
    Can you give us an indication of how you are going to look 
at the second round of funding, and tell what judgments you 
will make?
    Secretary Duncan. Sure. And it's a great question. We 
intentionally did not put out 100 percent of the money. We put 
out a lot because there was desperate need and we wanted to 
stave off this educational catastrophe. And again, coming from 
my previous job, you want to give States and districts the 
opportunity to plan for the upcoming school year and not have 
that uncertainty.
    You are exactly right. As we go into the second round, let 
me be clear, where States are doing the right thing, and being 
creative and innovative, that's right. And we will continue to 
support them.
    Where States have acted in bad faith, or are playing shell 
games or doing nothing, we have the ability to withhold that 
money.
    And further beyond that--so that's the stick. And we are 
prepared--don't want to use it--but we are prepared to use it 
if need be.
    And the second part of that--the carrot, as Mr. Chairman 
brought out, is that we have these unprecedented discretionary 
resources, you know, $4.35 billion Race To The Top, $650 
million Invest in What Works Innovation Fund. And I will tell 
you, States that are trying to game the system or are playing 
shell games or act in bad faith, they will basically eliminate 
themselves from those further competitions, and deprive their 
States of unprecedented new resources coming in.
    And so we are trying to work with both carrots and sticks 
to encourage States to do the right thing by their children.
    Senator Reed. Well, I think that's a very important message 
to get out today because States are under excruciating fiscal 
pressure. And the pressure to just get through the day is so 
excruciating that unless you lay down clear guidance and clear 
markers, from what you said today, I think that they will 
succumb to that.
    Secretary Duncan. Yeah. We are trying to be absolutely, 
explicitly clear. We will continue to do that, and again, we 
are not looking for a fight. But we are prepared to have that, 
if need be.
    This is too big of an opportunity for our Nation's school 
children to mess around.

              IMPROVING LITERACY THROUGH SCHOOL LIBRARIES

    Senator Reed. Let me raise another issue, Mr. Secretary, 
and that is that with my colleagues, we work to improve school 
libraries, and not only just for the sake of the library, but 
for improving literacy. And we have had some very impressive 
results in terms of demonstrating increases in literacy. I know 
that the budget is rather slim, about $19 million, I think. The 
grants that have been put out, I think they were roughly 496 
applicants and only 60 were filled because of the budget 
limitations.
    And the other aspect to the legislation is that if we ever 
reach the $100 million mark, and it's a formula in every State, 
but a few States, the District of Columbia has never yet 
received a grant. So again, a difficult set of priorities. I 
would like to work with you to see if we can put some more 
resources on the program.
    And also, to validate the effectiveness of this proposal.
    Secretary Duncan. Yes. I appreciate that and we can look at 
that line item again, I would--I am happy to work with you in 
that, but with stimulus dollars, with Race To The Top dollars, 
it's a huge opportunity for States and districts to invest in 
creative ways. They have title I dollars, an unprecedented 
resource on the table, if folks can think about--not just line 
items, but how they can strategically use all of these 
resources to arrive at a common agenda. And that's a huge 
potential avenue for schools to improve.
    Senator Reed. I think just your sort of emphasis on school 
libraries and their role in literacy, together with those other 
resources might be a very important ingredient in this program.
    Secretary Duncan. I appreciate that.
    Senator Reed. Thank you, Mr. Chairman.

                    RACE TO THE TOP FUND COMPETITION

    Senator Harkin. Back to the RFP, the request for proposals, 
how many do you expect to award; do you have any ball park idea 
at all?
    Secretary Duncan. I really don't. Again, we are going to 
set a high bar, and so this is not--we are going to say ``No'' 
to some folks and that is going to create some pressure--but 
when we say a race to the top, we literally mean that. So we 
will set a high bar, and States that hit it, that's great. And 
what we may do is we may come back with a second round, you 
know, down the road. So States that don't hit the bar now will 
come back and we will say you have another opportunity if you 
make these changes.
    We will be very, very clear to States, this is where you 
hit it and this is where you didn't. And you know, I would love 
it if at the end of the day, when we are done with this, if we 
had all 50 States doing these things, that would be phenomenal. 
I mean, our children would be in great, great shape. But this 
is going to be--we are going to be very, very clear about our 
expectations and give folks a chance to hit it now, and give 
folks a chance to come back, and where they are a little short 
or not doing something that we think is important, they will 
have the opportunity to address that, to correct it and come 
back down the road.
    We will also put all of this out for public comment. So 
before anything goes out, we are going to put out a draft and 
give folks feedback and go through that process before we 
finalize it.

                OBLIGATION PERIOD OF RECOVERY ACT FUNDS

    Senator Harkin. Well, you are really going to have to move 
rapidly. That money is--you don't--that money expires, if I am 
not mistaken, September 30 of next year, right?
    Secretary Duncan. No, it can be used beyond.
    Senator Harkin. It has to be obligated. No?
    Secretary Duncan. We have to use it by 2010.
    Senator Harkin. That's what I mean. You have to get it out 
by 2010?
    Secretary Duncan. They have time beyond that.
    Senator Harkin. But it has to be obligated by then? Yes.
    Secretary Duncan. Yes. So we will get that out, I promise 
you.

                RACE TO THE TOP FUND AND CHARTER SCHOOLS

    Senator Harkin. Okay. Let me ask you a question about the 
statement that said, ``States will hurt their chances to 
compete for millions of Federal stimulus dollars if they fail 
to embrace innovations, like charter schools, Secretary of 
Education Duncan said Thursday.''
    Is that it? If States have a cap on the number of charter 
schools, that they would have a harder time of winning one of 
these awards? So are charter schools a litmus test?
    Secretary Duncan. It's not a litmus test. It may be one 
factor--we are going to ask a series of questions around those 
four assurances, and so that may be a piece of that. And again, 
we haven't finalized the RFP, but it may be one of the 
questions that we ask in those topics.
    And again, let me be clear, I am not just for more 
charters, I am for more good charters. And so it's not just 
about a cap. It's much more complex than that. It's about 
having accountability, autonomy, and a high barrier to entry.
    Senator Harkin. I'm glad to hear you say that----
    Secretary Duncan [continuing]. We want to address all of 
those things.
    Senator Harkin. Yes. Because there seems to be some thought 
that you are focusing so much on charter schools, that every 
charter school is great, no matter what.
    Secretary Duncan. I try to be explicitly clear. I have 
never said that, and again, if you look at my record, I closed 
three charter schools for failure, and so I am for good schools 
of every stripe and every ilk.

                     WHAT WORKS AND INNOVATION FUND

    Senator Harkin. I am glad to clear that up and make that 
clear, that it's not necessarily a litmus test.
    There's one other thing I wanted to ask you about here, and 
that was in this What Works and Innovation Fund, I just don't 
know where this might fall. But it's been my view after all 
these years of looking at schools, and finding schools that 
work, that there are a lot of different reasons why a school 
might be successful and one year why it won't. You have to look 
at a lot of factors.

                     IMPORTANCE OF A GOOD PRINCIPAL

    But the one element that always seems to be present is 
whether or not they have a good principal.
    Secretary Duncan. Very true.
    Senator Harkin. A principal who is smart, who is dedicated, 
who knows how to organize, how to motivate teachers, it's just 
invaluable. But we haven't really had a good program for 
training principals. You are a teacher and then you become a 
principal. Well, sometimes the best teacher may not be the best 
principal. The skill set may be different.

                       SCHOOL LEADERSHIP PROGRAM

    So we have this school leadership program, and quite 
frankly, you, in your request, in your budget, you bumped it up 
a lot, $19 million. We bumped it up quite a bit from 2008 to 
2009, and then you asked for about $10 million increase, up to 
$29.2 million for 2010.
    I guess my question has to do with these RFPs that go out. 
Are you going to be looking at things like that, too?
    Secretary Duncan. Absolutely. That's exactly right--whether 
it's districts, whether it's States, whether it's universities, 
whether it's nonprofits, there are lots of folks that are 
training principals. Some are doing a great job of it and some 
aren't. We can look at the data at how those principals have 
been trained, that have done a lot in terms of driving up 
student achievement.
    Senator Harkin. Good.
    Secretary Duncan. In those places, again, districts, 
universities, nonprofits, States, whatever players might be 
doing a great job of this, there is a huge chance to do more of 
that, and I absolutely concur with you. I don't think there is 
a good school in this country without a good principal.
    I've seen quite the inverse. I have seen a school that 
struggled that had a great principal, that took 10 or 12 years 
to improve. And without the right succession plan, that good 
principal leaves, and within 6 months the place is a disaster. 
It is much, much harder to build this thing up than it is to 
tear it down.
    And just as in your business, and in any of the business, 
leadership matters tremendously. Good principals keep good 
teachers. They help good teachers improve. They work with the 
community. And so there is a huge opportunity here to invest in 
leadership, and that would cure many of the problems that ail 
us. When you see these high-performing schools in tough 
neighborhoods, every single one has a dynamic principal driving 
that change. It can't happen without it.
    Senator Harkin. I am really glad to hear you say that. So 
when I am looking at that request for the $29.2 million that 
you are requesting, but then there might be more than that in 
the----
    Secretary Duncan [continuing]. The $650 million is 
absolutely eligible for that. That's the kind of thing we want 
to invest in.

                    STATE LONGITUDINAL DATA SYSTEMS

    Senator Harkin. I am really glad to hear that. Let's see 
what else? Let me be just a bit more general.
    One of the four elements you mentioned on what you are 
looking at in these RFPs, comprehensive data systems on 
tracking students?
    Secretary Duncan. The assurances? Yes.
    Senator Harkin. There are some systems that are out there 
that do this. I don't know which are good enough, but I am sure 
you are looking at those that are existing already?
    Secretary Duncan. Yes. You bet.
    Senator Harkin. I don't know which ones are good enough, 
but I know there are some out there.
    Secretary Duncan. Again, and this is where there is huge 
variation. Some States are doing a phenomenal job of this now, 
and other States are, you know, just sort of starting off. And 
what we are saying is, we're saying that this is important. You 
need to know where your students are, you need to know how your 
teachers are doing, and you need to know how the schools of 
education are producing the teachers that are helping.
    And you have to have this fundamental basis of fact or 
otherwise we are just guessing. You can't guess at what is 
important. You need to know what is happening, and we have to 
track students throughout their educational career. You can't 
be losing students through the cracks. This is not right.

                         DATA QUALITY CAMPAIGN

    Senator Harkin. So you have already tasked someone in your 
organization to start gathering the information on this?
    Secretary Duncan. Yes, it actually goes well beyond this. 
There is an outside group, called the Data Quality Campaign, 
DQC, that has done extensive work for years in this. They have 
ranked every State. They have 10 requirements. They have a set 
of States that make all 10. They have a set of States that make 
9, 8, 7, 6, 5, and our goal would be to have every State to hit 
all 10 of those benchmarks.
    So this goes far beyond our Department. This is really a 
national movement with some clear bars and clear, objective 
criteria, and every State knows exactly where they stand. And 
we have money in the budget for data systems, and we just want 
to help every State get where they need to go.
    I think there are 6 States now that hit all 10 of those 
criteria, so we have got some work to do.
    Senator Harkin. We have a system that started in Iowa just 
a few years ago. It's not complete in the State yet, but my 
information from the school board says that they really like 
this tracking system that they have. I will have to get more 
information on it. Objectively, I don't know, how well it's 
working, but from what I hear from people, they said they are 
doing a great job of tracking students and making sure they 
know what each student--where each student is and each teacher 
knows where the student is, and where they are weak, and where 
they are strong, what happened to them last year, that type of 
thing.
    Secretary Duncan. That sounds like exactly what we are 
looking for.

            TRANSITION AFTER RECOVERY ACT FUNDS ARE EXPENDED

    Senator Harkin. Yeah. Okay. Lastly, and I don't mean to 
keep you any longer, but on the Recovery Act funding, you 
mentioned some of the guiding principles that we would be 
doing. You said that they could spend money quickly and save 
and create jobs, implement school reform, minimize the funding 
cliff that we are going to be facing. And that is a big concern 
of all of us here. But what is going to happen when we get past 
next year? Some school districts are confused how to balance 
all of this. They say, ``How do we create jobs without creating 
this funding cliff?'' How do we implement school reform if we 
just focus on creating jobs?
    I don't know that I have a real pointed question on that, 
it's just there is--and I am hearing back that there is some 
confusion from school districts out there. What am I supposed 
to do? Which is the priority: am I supposed to save some jobs, 
or am I supposed to hire some new employees, some new people? 
But then what is going to happen next year when the money runs 
out? What will happen to them?
    I keep getting input on this all the time. I just want to 
explore that with you a little bit.

           TARGETING RECOVERY RESOURCES--A TEST OF LEADERSHIP

    Secretary Duncan. It's a really, really fair question, and 
what I would really urge is, first of all, I see these things 
not as contradictory, but you need to do both--let me be clear 
on saving jobs. With the stimulus, you know, we think we are 
going to save or create well north of 300,000 jobs.
    Senator Harkin. Saving? Otherwise, it would have been more?
    Secretary Duncan. Yeah, if class size would have gone from 
25 to 40, we would have laid off librarians and social workers 
and counselors. That would have been an absolute disaster. 
Obviously, I am pushing for us to get dramatically better. If 
we would have taken a step backwards, that would have been a 
catastrophe for the country.
    So you have to do that. Simultaneously, I would push very 
hard, that if all we do is invest in the status quo, that's not 
going to get us where we need to go either. And we have to 
attack this 30 percent national dropout rate. We have to attack 
these dropout factories. We have to think differently about 
time. We have to think differently about talent. And we can do 
these things at the same time. And you are seeing real 
innovation, real creativity happen in some places, and you are 
seeing other folks that are a little bit paralyzed. And this is 
hard. This is a lot of folks under huge financial pressure.
    This is not just about principles. This is a real test of 
leadership and you are going to see some States and some 
districts and some schools do a phenomenal job of this, and 
also you are going to see some places get paralyzed, and they 
won't be able to handle the pressure.
    And I would argue, you know, Rahm Emmanuel has this 
little--the President's Chief of Staff has this great line, 
``Never waste a good crisis.'' I really believe that. That 
sometimes it's in times of crisis, this intersection of crisis 
and opportunity, that you can sort of push this kind of 
fundamental reform. So I would argue, that if we could now, 
with existing resources, and the additional title I money that 
schools are requesting, that if we could fundamentally 
challenge some of these dropout factories and fix them, we 
would fix them forever, and we would stop this pouring out of 
kids onto the streets that have no ability to compete in 
today's economy and hold a good job, and support a family and 
own their own home.
    You know, if we train a generation of teachers to work 
better with special education students and teach those students 
to read early, we would prevent a whole other generation of 
students being labeled special ed, a label they never escape.
    So there are things that we can do now. The early childhood 
investment, if we do that well, these children are going to be 
better prepared for work and for life, you know, 20 years from 
now. So if we do the right thing now, on both fronts, we have 
this chance to fundamentally change education in our country. I 
really believe that.
    And so these things aren't in conflict. I think they can be 
absolutely complementary. But it is going to take leadership 
and vision. And we want to share best practices. So there are 
no secrets in this. We are all in this together. Because as we 
see States and districts doing innovative things, we are going 
to try to continue to highlight those best practices, so that 
other folks can steal some ideas, and we are all in this 
together. We are all in this together.

                    PROPER USE OF RECOVERY ACT FUNDS

    Senator Harkin. Well, that's very encouraging. I read 
something from the States, that they might try to siphon some 
of this money off into other areas. I hope that we are being 
diligent in trying to check that.
    Secretary Duncan. We are going to check it. And again, I am 
not looking for a fight, but we put out tens of billions of 
dollars, but we withheld tens of billions of dollars. We did 
that for a reason. That's exactly the reason. So that's, again, 
that's the stick side. The carrot side is unprecedented 
discretionary resources. And if States are gaming things, they 
are basically going to walk away and eliminate themselves from 
the hundreds of millions of dollars in additional resources 
coming to their State. So we are trying to push very hard on 
both sides, carrots and sticks, to get States to do the right 
thing.
    I know the pressure they are under. I know the difficulties 
and I don't imagine--and it varies. Some States are in 
disastrous situations, but everyone is under stress. But again, 
this is a test of leadership. When you are under stress, what 
do you do?
    This is a real test of leadership right now.

                  RECOVERY ACT INVESTMENT IN EDUCATION

    Senator Harkin. Well, it is a real test and I think that 
the President was very bold in the Recovery Act, and I think 
that he met that by putting that money in there for education. 
I think the total was about $100 billion.
    Secretary Duncan. North of that. It is a phenomenal 
investment and I appreciate your tremendous leadership in this.
    Senator Harkin. Now we just want to make sure that we use 
it well and wisely. I can't tell you how much I like everything 
I hear coming from you, and from the President on this, and 
that we are going to make some real changes and just get us 
really in a new direction on education. So whatever--we will 
look at these budgets and these numbers and we will obviously 
will be consulting with you and your people on this as we go 
through our appropriations cycle here.

            NO CHILD LEFT BEHIND AND NARROWING OF CURRICULUM

    The last thing I just wanted to mention. This is not very 
appropriate probably for this year, it would be probably more 
appropriate in my other hat on the authorizing committee, but 
what the heck, you are here and I am here.
    I can't tell you how many times I met with your 
predecessor, Margaret Spellings, on the issue of No Child Left 
Behind. And that what we had seen is because of these AYPs, and 
the focus on schools to do more on math and science, that what 
we found is that schools under this pressure were trying to 
pour money into that, and the first people to go were their art 
teachers and music teachers and physical education teachers.

           IMPORTANCE OF ARTS AND PHYSICAL EDUCATION COURSES

    So there are two areas: one, the physical health of our 
kids in school. When you build an elementary school without a 
playground, I don't know what statement you are making about 
the health of our kids. I had this quote from this one 
principal that said that, ``We are in the business of teaching 
kids, not letting them play around on monkey bars'', when asked 
about the fact that they had built a school without a 
playground. And so the health of our kids is important in those 
early years.
    But also Wynton Marsalis just gave a great 1 hour discourse 
on culture at the Kennedy Center, about a month or so ago. It 
was one of the most fantastic discourses on American culture, 
and the history of culture as it is interwoven with the arts 
and music. And it just seems that we do ourselves a disservice 
if we don't have, again, a school education for those kids 
where they learn about art and music, and what music means. And 
not every kid is talented enough to be in math or science, but 
they may have other talents. They may have talents in artistic 
fields, and we have to engender that. And I just think we are 
falling way behind on that. We are just getting it short 
shrift, as though it's not important. I would submit it is 
vitally important, and so again, with all this pressure from No 
Child Left Behind, I hope we think about those other two 
things. And don't leave them behind in terms of their health, 
and don't leave them behind in terms of their culture, and 
their appreciation for culture and the arts, music, and that 
type of thing.
    I just wanted to state that to you.
    Secretary Duncan. I couldn't agree with you more. I worry a 
lot about the narrowing of the curriculum. I think our students 
desperately need arts and music and dance and drama. They need 
health. They need PE. I think we have to give students multiple 
opportunities to develop their unique skills and passions and 
talents and give them a reason to be excited about coming to 
school every single day.
    For me, it was sports. For another kid, it might be debate 
or chess or dance, or drama. We have to provide those 
opportunities. Our students have to be healthy. They have to be 
physically active.
    You and I went to a phenomenal school that I will never 
forget in your State that has an absolutely state-of-the-art PE 
program. But, guess what? I am convinced that students are 
going to do better academically because of what is going on 
there and the lessons that are being learned.
    So, again, it's so funny when people always talk about 
these things being contradictory. Monkey bars, if they spent 
some time on the monkey bars, I think they will learn more. I 
was one of those young kids that couldn't sit still all day. 
This is a long time, frankly, for me to sit still here. It's 
still a challenge; I need some monkey bars. But kids need to 
get up, to get some fresh air and run around a little bit. I 
worry a lot about our young kids that don't have those kinds of 
opportunities.

           IMPORTANCE OF DEVELOPING ALL SKILL SETS IN SCHOOL

    So these things to me aren't contradictory. They absolutely 
need to--do you want to improve math scores? Do some music. 
There is actually a lot of data about that. And so I go back to 
the narrowing of the curriculum, that's a problem. The school 
day being too short, we can't pack all this stuff in. We have 
got to get some more time. So this could be before school, 
after school----
    Senator Harkin. A longer school year.
    Secretary Duncan [continuing]. At lunch time, a longer 
school year, summer enrichment, so if a kid is great at the 
piano or violin or dancing, drama, it's not just more of the 
same, but for somebody to have the chance to build upon those 
skills.
    And so I think we have a real chance to be creative and to 
stop those sort of false dichotomies and false battles, and say 
that every kid needs these kinds of opportunities and let them 
figure out what the right path is for them. So, this is one 
that we want to spend a lot of time and thought on and try and 
get it right.
    Senator Harkin. Well, how can we be helpful both on the 
authorizing end, but also on this end, the Appropriations 
Committee, if there are things that we need to pilot or we need 
to look at in terms of boosting some funds some place, to 
enhance that, I would like to know your thoughts on that. We 
may have some of our own, but we would like to hear your 
thoughts.
    Secretary Duncan. I look forward to that.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. Mr. Secretary, thank you very much. You 
have been very generous with your time and input and I'm sure 
that we will be dealing with your people and others as we move 
ahead on this appropriations process.
    Secretary Duncan. Thank you so much for your leadership. I 
really appreciate it.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
 data on lea reduction of expenditures for special education under the 
           individuals with disabilities education act (idea)
    Question. The Recovery Act provided $11.3 billion under IDEA Part B 
(section 611) Special Education State grants program. These funds were 
intended to save jobs and improve student achievement through 
investments in evidence-based practices with the potential for long-
term benefits. A provision in the IDEA allows States or school 
districts meeting requirements under IDEA to use funding increases 
received over the prior year to reduce levels of special education 
expenditures by up to 50 percent of the prior-year amount. What 
information has the Department collected on the number of districts and 
States using this provision up through the current academic year?
    Answer. IDEA, section 613(a)(2)(C), permits (local education 
agencies (LEAs) that meet certain conditions to reduce their required 
level of local, or State and local, expenditures on special education 
by up to 50 percent of any increase in the LEA's allocation under IDEA, 
section 611. The Department does not have any data on the numbers of 
districts that have taken advantage of the flexibility available to 
LEAs under this provision in prior years. We do not currently have a 
data collection in place to collect this information; moreover, we have 
not learned of any districts that have taken advantage of this 
flexibility.
    While we suspect that many more LEAs will be interested in taking 
advantage of this flexibility during the current fiscal year, it is 
worth noting that only certain LEAs will be eligible to do so. For 
example, pursuant to section 616(f), State educational agencies (SEAs) 
must prohibit any LEA that does not currently meet the requirements of 
the Act from taking advantage of this local maintenance of effort 
flexibility.
       data collection on lea reduction of maintenance of effort
    Question. Will the Department collect for the current academic year 
and future academic years the number of districts and States reducing 
maintenance of effort under current law; the amount of IDEA funds being 
used for purposes authorized under the Elementary and Secondary 
Education Act (ESEA); and the major categories of ESEA expenditures 
made using these IDEA resources?
    Answer. The Department is currently developing a data collection 
instrument that will be used to obtain information on the extent to 
which LEAs reduce their special education expenditures under IDEA, 
section 613(a)(2)(C), or use funds for coordinated early intervening 
services under section 613(f). While this data collection package has 
not yet been formally approved, the agency is working to implement this 
collection in time to obtain data for the 2009 fiscal year.
   data on states ineligible to use maintenance of effort reduction 
                               authority
    Question. What information does the Department have available on 
the number of States and districts ineligible to utilize the 
maintenance of effort (MOE) reduction authority for reasons of: 
mandatory early intervening services, State not meeting requirements 
under IDEA or districts not meeting requirements under IDEA?
    Answer. The Department does not currently have complete data on the 
number of LEAs that may be ineligible to utilize the MOE flexibility 
under section 613(a)(2)(C), either because those LEAs do not meet 
requirements or because they are required to spend the full mandatory 
15 percent on coordinated early intervening services due a finding of 
significant disproportionality based on race and ethnicity. However, we 
do have information for particular States.

----------------------------------------------------------------------------------------------------------------
                                                                              Number of LEAs    Number of LEAs
                                                                               not in meets     identified with
                            State                             Number of LEAs   requirements       significant
                                                                                status (in    disproportionality
                                                                               2007 or 2008)   (in 2007 or 2008)
----------------------------------------------------------------------------------------------------------------
Arizona.....................................................             590             296           ( \1\ )
Arkansas....................................................             244         ( \1\ )                23
California..................................................             980              85           ( \1\ )
Connecticut.................................................             180              66           ( \1\ )
Florida.....................................................              67              16           ( \1\ )
Georgia.....................................................             180         ( \1\ )                72
Hawaii......................................................               1  ..............           ( \1\ )
Idaho.......................................................             129         ( \1\ )                 6
Indiana.....................................................             338         ( \1\ )                 7
Kentucky....................................................             176         ( \1\ )                 4
Louisiana...................................................              96              56           ( \1\ )
Maine.......................................................             154              51           ( \1\ )
Massachusetts...............................................             391         ( \1\ )  ..................
New York....................................................             683              51                 5
Ohio........................................................             941             542           ( \1\ )
Rhode Island................................................              52              14                29
South Carolina..............................................              86         ( \1\ )                 4
Tennessee...................................................             136             131                21
Texas.......................................................           1,230             523           ( \1\ )
Virgin Islands..............................................               2               2           ( \1\ )
Wisconsin...................................................             471             137           ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Not known.

              long-term impact of recovery act idea funds
    Question. Lastly, what is the Department's view of the long-term 
impact of Recovery Act IDEA dollars being used to reduce special 
education expenditures?
    Answer. It is not yet clear what the long-term impact of Recovery 
Act IDEA dollars will be, but the Department's goal is to ensure that 
LEAs use these emergency one-time funds to avoid teacher layoffs and 
support essential services, in addition to making investments in 
improving student outcomes and advancing reforms that will have a 
positive long-term impact.
    technical assistance for special education state data collection
    Question. The budget request assumes that $15 million of part B 
Special Education State grants will be used for special education 
technical assistance related to data collection for State Performance 
Plans and Annual Performance Reports, as well as ensuring that LEAs are 
meeting the requirements of IDEA. How will requested funds be used to 
support these activities?
    Answer. Under technical assistance for the State Data Collection 
program, established under section 616(i)(2) of IDEA, the Department 
makes competitive awards to provide technical assistance to improve the 
capacity of States to meet the section 616 data collection 
requirements. During fiscal year 2010, the Department expects to make 
approximately $13 million in new awards to States, but the focus of 
this upcoming competition has not yet been determined.
Technical Assistance Center on IDEA Accountability Data
    The request would also support one $2 million continuation award to 
support a Technical Assistance Center on IDEA Accountability Data 
(called the Data Accountability Center). This project provides 
assistance and information to States to help them improve data 
collection infrastructures and to implement the requirements under 
section 616. This on-going project focuses on the following three 
areas: assessment of State needs; strategic planning and evaluation; 
and provision of technical assistance to States.
        additional support for states related to data collection
    Question. What other Department of Education resources are being 
used currently and are requested in the fiscal year 2010 budget to 
assist States in carrying out their responsibilities in these areas?
    Answer. The Department has not yet decided the focus areas for 
upcoming competitions during fiscal year 2010. The primary source of 
additional support to States on activities related to data collection 
comes from centers funded through the IDEA Technical Assistance and 
Dissemination program, including the Regional Resource Centers (for 
which $7.8 million was awarded in fiscal year 2009 to support 
approximately 4 new awards) and the Post-School Outcomes Center (which 
receives approximately $800,000 per year, over 5 years, beginning in 
fiscal year 2008).
   special education grants to states program improvement strategies
    Question. The Congressional Budget Justification indicates that one 
of the Program Improvement Efforts under Special Education part B 
Grants to States is ``identifying strategies in key topic areas that 
have the potential for improving results for children with 
disabilities.'' Specifically, what strategies has the Department 
identified and on what basis has it targeted these particular 
strategies?
    Answer. The Department has identified strategies in a variety of 
areas, including: supporting on-going, formative, school-wide 
strategies such as multi-tiered interventions and Positive Behavioral 
Intervention Strategies (PBIS); enhancing general education and special 
education teacher effectiveness by supporting professional development 
and more effective pre-service training for teachers and school 
leaders; requiring all special educators to be highly qualified; 
improving the curricula of pre-service teacher training programs; 
supporting formal induction and mentoring programs, and incorporating 
assistive technology into classroom teaching practices; establishing 
coordinated data systems and using data to improve student outcomes; 
incorporating universal design for learning principles as widely as 
possible, and; encouraging States to adopt rigorous standards, 
curricula, and assessments and ensuring that students with disabilities 
have an opportunity to participate alongside their general education 
peers to the greatest extent possible.
    The Department targets these areas by making them the topical focus 
of competitions under special education discretionary grant programs, 
and by encouraging States to use funds available through the grants to 
states, preschool grants, and grants for infants and families formula 
programs to support authorized activities related to these strategies.
           funding sources for program improvement strategies
    Question. How much funding (and what funding sources) is dedicated 
to implementing these strategies in the current fiscal year and how 
much is included in the fiscal year 2010 budget request to continue 
and/or expand on these efforts?
    Answer. The Department has not yet decided the focus areas for 
upcoming competitions during fiscal year 2010. However, special 
education discretionary grants programs are the primary source of 
funding used to support strategies in key topic areas that have the 
potential for improving results for children with disabilities.
Special Education Pre-service Training, Professional Development, and 
        In-service Training
    For example, the Personnel Preparation Program is the key source of 
funding used to support key strategies related to pre-service training, 
professional development, and in-service training for special educators 
and school leaders. In fiscal year 2009, in additional to several new 
competitions, the Department is supporting continuation awards that 
target a wide range of strategies that are likely to improve results 
for children with disabilities.
    For example, Personnel Preparation Program investments in fiscal 
year 2009 include:
  --A new award to a consortium of universities that will produce at 
        least 30 new doctoral candidates in the area of low-incidence 
        sensory disabilities, including visual and hearing impairments 
        ($5 million over 5 years beginning in fiscal year 2009).
  --Up to 15 new Paraprofessional Pre-Service Training Improvement 
        grants. These grants will focus on improving pre-service 
        training programs for paraprofessionals who serve children ages 
        birth through 5, and children in grades kindergarten through 
        grade 12, by enhancing or redesigning curricula to adequately 
        train these paraprofessionals to address the needs of infants 
        and toddlers with disabilities and their families.
  --A single continuation award to support the Center to Improve the 
        Recruitment and Retention of Special Educators ($2.5 million 
        over 5 years).
  --Preparation of Leadership Personnel Grants.--The Department will 
        make approximately $5 million in new awards (to 23 grantees) 
        and $12.3 million in continuations (to 68 grantees) in fiscal 
        year 2009 to train personnel at the pre-service doctoral or 
        postdoctoral level in early intervention, special education, or 
        related services, and at the advanced graduate level (masters 
        and specialists).
  --Pre-service Improvement Grants.--The Department will make 
        approximately $1.5 million in new awards (to 12 grantees) and 
        $4.1 million (to support 48 continuation awards) in fiscal year 
        2009 to institutions of higher education to ensure that pre-
        service training programs and curricula are aligned with the 
        highly qualified teacher requirements.
    special education technical assistance and dissemination program
    Question. The Congressional Budget Justification under the 
Technical Assistance and Dissemination Program narrative indicates that 
the Department will be collecting performance and other information to 
adjust issue coverage and reallocate resources for this program. Please 
provide the information being used in this process and identify 
specifically how funding would be reallocated under the budget request.
    Answer. On an on-going basis the Office of Special Education 
Programs (OSEP) works to ensure that resources available under this 
program are invested in critical areas of need. In identifying new 
topics for funding priorities and allocating resources OSEP considers: 
Institute for Education Sciences (IES) research findings; information 
on the needs of SEAs and LEAs and other important customers and 
constituencies; results from formal program evaluations; and, other 
relevant materials. OSEP has also established an internal Technical 
Assistance and Dissemination (TA & D) workgroup. This group maps all 
current TA & D investments, identifies discrepancies and emerging 
trends, proposes modifications to the scope of work in current 
investments, recommends projects that should be phased-out, and 
recommends new priorities.
    The Department has not yet decided the focus areas for upcoming 
fiscal year 2010 competitions.
          recruiting and retaining special education teachers
    Question. The Teacher Quality Under No Child Left Behind.--Final 
report documents the particular challenge that high-poverty schools 
face in recruiting and retaining special education teachers. What 
specific activities (and funding sources) will be undertaken to address 
this issue in fiscal year 2009 and under the fiscal year 2010 budget 
request?
    Answer. Severe shortages in the supply of special education 
teachers have been documented for at least 15 years, and the problem is 
particularly acute in high-poverty districts. The Department has 
adopted a number of strategies to alleviate on-going shortages of 
special education teachers, including:
  --Supporting initiatives that are designed to improve the overall 
        quality of special education training programs, to ensure that 
        all special educators are highly qualified, and consequently to 
        reduce the high turnover-rate of new and veteran special 
        educators teachers. For example, since fiscal year 2007 the 
        Department has made approximately 56 Special Education Pre-
        Service Training Improvement grants to institutions of higher 
        education for the purpose of restructuring or redesigning 
        preparation programs for special educators who teach grades K 
        through 12 to ensure that training program curricula are 
        aligned with evidence-based practices and that all graduates 
        meet the highly qualified teacher requirements upon program 
        completion. During fiscal year 2009, the Department is using 
        $1.4 million in Personnel Preparation funds to make 
        approximately 12 new awards in this activity area.
  --Focusing limited Federal resources for scholarship support in areas 
        where such investments are likely to have the greatest impact 
        on supply (e.g., supporting scholarships in programs that 
        prepare teachers of children with low-incidence disabilities 
        and leadership personnel). During fiscal year 2009, the 
        Department is using $4.5 million to support approximately 23 
        new awards in this area.
  --Supporting novel strategies to attract and retain special education 
        teachers, such as alternative teacher certification programs, 
        high-quality professional development, partnerships between 
        institutions of higher education and LEAs (particularly with 
        high-poverty LEAs/schools), and mentoring programs for recent 
        graduates from training programs. For example, the Department 
        supports the National Center to Improve the Recruitment and 
        Retention of Qualified Personnel for Children with Disabilities 
        to help States develop and implement strategies to recruit and 
        retain sufficient numbers of highly or fully qualified 
        personnel.
Fiscal Year 2009 State Personnel Development Grant Focus on Promising 
        Strategies
    Section 14005(d)(2) of the Recovery Act requires each State, as a 
condition of receiving State Fiscal Stabilization Funds (SFSF), to 
commit to taking ``actions to improve teacher effectiveness and comply 
with section 1111(b)(8)(C) of the ESEA . . . in order to address 
inequities in the distribution of highly qualified teachers between 
high- and low-poverty schools, and to ensure that low-income and 
minority children are not taught at higher rates than other children by 
inexperienced, unqualified, or out-of-field teachers.'' Consistent with 
the requirements of section 14005(d)(2), in fiscal year 2009 the 
Department is encouraging competitive applicants under the State 
Personnel Development Program to address these challenges by awarding 
additional points to applicants who propose promising strategies.
    The Department has not yet decided on priorities for upcoming 
fiscal year 2010 competitions.
              educational materials in accessible formats
    Question. Under the Technology and Media Services Program, funds 
are included for a competition for State System Improvement Grants 
which are intended to support the development or improvement of State 
systems for providing to students with disabilities educational 
materials in accessible formats. The Congressional Budget Justification 
describes initial awards made under this program as ``very 
successful.'' What information enabled the Department to come to this 
conclusion about these awards?
    Answer. In September 2007, the Department made awards under the 
``Educational Media Activities to Improve State Systems for Providing 
Educational Materials in Accessible Formats'' priority to two 
consortia:
  --The Accessible Instructional Materials (AIM) Consortium, which 
        represents 15 States serving more than 1.3 million students 
        under IDEA, of whom more than one-half million are estimated to 
        have print disabilities; and
  --The Pacific Consortium for Instructional Materials Accessibility 
        Project (CIMAP). The Pacific CIMAP facilitates the 
        collaborative efforts of the six Pacific Basin entities to 
        build local and regional capacity for implementation of the 
        National Instructional Materials Accessibility Standard (NIMAS) 
        and National Instructional Materials Access Center (NIMAC) 
        requirements, as well as all other accessibility requirements.
Educational Media Activities To Improve State Systems for Providing 
        Educational Materials in Accessible Formats
    The goals of the educational media activities to improve State 
systems in accessible formats are to:
  --Facilitate the development of State systems for increasing the 
        awareness and timely provision of accessible instructional 
        materials via NIMAS/NIMAC for qualifying students and other 
        means for nonqualifying students;
  --Ensure that State systems for the identification, acquisition, and 
        use of accessible instructional materials employ high-quality 
        procedures and practices; and
  --Produce related products and services that are scalable and can be 
        made available to all States, Outlying Areas (OAs), and Freely 
        Associated States (FAS), thus contributing to improving 
        outcomes for all students with disabilities.
    Making available appropriate accessible materials in a timely 
manner is key to improving outcomes for children and youth who are 
blind or have print disabilities. Every State and Pacific entity has 
indicated that it has made significant progress in implementing high- 
quality sustainable systems that ensure the provision of textbooks and 
related instructional materials in specialized formats in a timely 
manner to students with disabilities. The information that follows 
indicates that the participants in these projects are significantly 
ahead of where they were 18 months ago in leveraging local, State, and 
national resources so that students with print disabilities receive 
appropriate, accessible, and accurate core curriculum materials in a 
timely manner. State leaders involved in the consortia unanimously 
attribute much of their ability to move forward to the work of the 
consortia.
    Educational materials obtained through source files provided by the 
NIMAC only may be provided to students who meet the eligibility 
requirements of the Act to Provide Books for the Adult Blind of March 
3, 1931. However, the definition of eligibility promulgated to meet the 
requirements of this Act does not cover many students who are eligible 
under IDEA or students eligible under section 504 of the Rehabilitation 
Act of 1973. The consortia have addressed the needs of both students 
who are eligible for materials created from NIMAS sources files and 
those who are not eligible for instructional materials produced from 
this source, but who have been determined to require accessible 
educational materials.
AIM Consortium
    Regarding the AIM Consortium, data indicate that there are 1.3 
million students with disabilities served under IDEA in the 15 States 
participating in the project. It is estimated that 500,000 of those 
students require accessible instructional materials of some sort. This 
number does not include students with learning disabilities who do not 
meet the eligibility requirements for materials produced from NIMAC 
source files or children with disabilities who receive services under 
section 504 of the Rehabilitation Act.
    Throughout the grant period, the AIM Consortium and its independent 
evaluator have collected baseline data, periodic formative data, and 
summative data to determine progress and the potential impact of the 
work of the Consortium. To ensure that high- quality procedures and 
practices are used by the AIM Consortium, the Consortium's Steering 
Committee, made up of leaders from each of the 15 States, developed 7 
Quality Indicators for the Provision of Accessible Instructional 
Materials to guide the development of high-quality, sustainable 
systems. Those quality indicators have been the basis of information-
gathering on the status of State delivery systems, public awareness 
efforts, and targeted technical assistance. Data gathered in the fall 
of 2008 indicate that the current status of State systems on each of 
the indicators is markedly improved from the baseline obtained at the 
beginning of the grant period.
Progress of AIM Consortium States in Developing Systems To Provide 
        Accessible Instructional Materials
    The following table provides data on the progress the AIM 
Consortium States have made toward the development of individualized 
systems that align to the critical elements of high- quality systems 
for the provision of accessible instructional materials. The rating 
scale used to gather these data was: 1=Emerging; 2=Planning stages; 
3=Under development; 4=Partly implemented; and 5=Fully implemented. The 
first number in the table is the mean rating that was reported by the 
AIM State Leaders at the beginning of the grant period. The second 
number represents the mean rating for the most recent data collection 
in February 2009, and the third number indicates the change between the 
baseline and the most recent data collection.

     MEAN PROGRESS RATINGS IN DEVELOPING DELIVERY SYSTEMS FOR DELIVERY OF ACCESSIBLE INSTRUCTIONAL MATERIALS
----------------------------------------------------------------------------------------------------------------
                                                                Mean rating--     Mean rating--
                      Quality indicator                            October          February          Change
----------------------------------------------------------------------------------------------------------------
The education agency supports the provision of appropriate,                2.5              4.1             +1.6
 high-quality instructional materials in specialized formats
 to all students with print disabilities who require them....
The education agency supports the provision of appropriate                 2.5              4.0             +1.5
 specialized formats in a timely manner......................
The education agency develops and implements written                       1.9              3.7             +1.8
 guidelines to define the responsibilities and actions needed
 for effective and efficient provision of specialized formats
The education agency supports learning opportunities and                   2.1              4.2             +2.1
 technical assistance (e.g., professional development,
 training, and support) to facilitate the identification of
 students with print disabilities, as well as the selection,
 acquisition, and use of appropriate specialized formats.....
The education agency develops and implements a systematic                  1.3              3.1             +1.8
 process to monitor and evaluate the equitable, timely
 provision of appropriate, high-quality materials in
 specialized formats.........................................
The education agency uses data to guide changes that support               1.3              2.7             +1.4
 continuous improvement in the selection, acquisition, and
 use of accessible instructional materials...................
The education agency allocates resources sufficient to ensure              1.9              3.8             +0.9
 the delivery and sustainability of quality services to
 students with print disabilities............................
----------------------------------------------------------------------------------------------------------------

Educational Materials in Accessible Formats--Other Accomplishments
    State leaders have also provided information on the following 
accomplishments:
  --Formulation of definitions of ``timely manner.'' (Each State has to 
        develop its own definition.)
  --Coordination with the NIMAC and designation of authorized users. (A 
        recent NIMAC report indicates that AIM States were responsible 
        for 34 percent of the files that have been drawn down or 
        assigned to date.)
  --Establishment of relationships with other federally funded NIMAS-
        related projects such as Bookshare for Education, Recording for 
        the Blind and Dyslexic (RFB&D), and the American Printing House 
        for the Blind (APH). (The Pacific entities did not have 
        relationships with these programs prior to the grant.)
  --Collaboration with State assistive technology service providers.
Web Links to Overview of Three State Systems for Educational Materials 
        in Accessible Formats
    Although every AIM State has developed a system specifically 
focused on the needs of that State and its students, three systems are 
included here as examples. URLs shown below provide access to overviews 
of those systems: Iowa at http://trueaim.iowa.gov/; Maine at http://
aim.mainecite.org/; and Louisiana at http://www.atanswers.com/aim/
downloads.html.
AIM Consortium Products
    Based on input from the AIM Steering Committee, the AIM Consortium 
is also developing a suite of best practices products and Services that 
addresses critical areas of decisionmaking, which will be made readily 
available to all States, FASs, and OAs by the fall of 2009. Each of the 
products in the suite is designed to support high-quality collaborative 
decisionmaking by school personnel, families, and students about the 
selection, acquisition, and use of specialized formats of textbooks and 
related core materials. The primary means of distribution will be via 
the fully accessible AIM website.
    AIM Consortium products include:
  --The AIM DVD includes a variety of topics important to the 
        selection, acquisition, and use of accessible instructional 
        materials. The DVDs are expected to be accompanied by resource 
        materials, possible sample lesson plans, and other training 
        supports that would make the videos useful across multiple 
        environments.
  --The AIM Decision Making Guidelines provides a suite of tools 
        (procedures/supports/materials) that increase awareness, 
        knowledge, and skills related to AIM for IEP team members (the 
        primary target group), policymakers, curriculum committee 
        members, materials procurement personnel, publishers, and 
        members of organizations with interest in and/or 
        responsibilities related to the education of students with 
        disabilities.
  --The AIM Demonstration Software project provides training and 
        support to educators and parents involved with the selection, 
        conversion, and use of student-ready accessible instructional 
        materials. The primary product in this project is a dual-
        platform laptop computer for each of the participating AIM 
        Consortium States, on which will be loaded an extensive suite 
        of assistive technology applications that support the use of 
        AIM.
  --The User's Guide to Federally-Funded Accessible Media Producers 
        will provide an overview of federally funded Accessible Media 
        Producers, the resources available from each, who can use them, 
        and detailed step-by-step instructions on how to access the 
        resources.
  --The online graduate level course entitled, ``AIM 102'' is designed 
        to provide practical, hands on experience in the acquisition 
        and creation of student-ready specialized format versions of 
        print instructional materials. This course is the second in the 
        AIM online course series (prerequisite: AIM 101: Accessible 
        Instructional Materials). The course will cover the creation/
        acquisition of digital materials (DAISY book, html, etc.), scan 
        and read systems, supported reading software, large print, 
        Braille, and tactile graphics.
  --A toolkit for implementation entitled ``Using AIM in the Classroom: 
        A Model for Implementation and Efficacy'' consists of a suite 
        of materials that can be used by SEAs and LEAs interested in 
        supporting the use of AIM with text-to-speech technology and to 
        measure efficacy in achieving successful outcomes. Model 
        materials for classroom implementation including a text-to-
        speech training module, overview DVD, pre- and postdata 
        collection elements/forms, and a project planning 
        implementation checklist.
    Provision of professional development and training to key 
stakeholders is a major part of the work of the AIM Consortium. Data on 
professional development and training reported by AIM State Leaders 
indicate that more than 6,250 participants received training in more 
than 215 sessions conducted across the 15 AIM States during the grant 
period to date. Responses to a recent informal query sent to the Aim 
State Contacts Listserv indicate that before the start of the AIM 
Consortium, training related to the provision of accessible 
instructional materials either did not occur or was limited to 
awareness of NIMAS and NIMAC, and the creation of accessible formats 
via assistive technology.
Pacific Consortium for Instructional Materials Accessibility Project 
        (CIMAP) Project Accomplishments
    Some specific accomplishments of the CIMAP include connecting 
consortium members with available resources, such as the American 
Printing House for the Blind and Bookshare for Education; helping them, 
after the determination was made that the areas are not covered by the 
exemptions to the U.S. copyright law, to find other sources they can 
use to obtain accessible versions of educational materials; and 
providing appropriate forms and materials for the entities to use in 
making direct requests to publishers for permission to make accessible 
copies of educational materials. In addition, the members made 
improvements in how they identify students with print disabilities, 
established a database for children with print disabilities, and 
provided training on how to identify and select materials and use them 
in instruction.
Accessible Educational Materials Competition
    Question. How will the fiscal year 2010 competition be structured 
to build on what was learned through the initial competition?
    Answer. We have learned a lot from these projects. They have acted 
as a laboratory for identifying barriers to the provision of accessible 
materials in a timely manner and creative solutions to these problems. 
In addition to working directly with the 15 States and pacific 
entities, the grantees have worked closely with the NIMAC, the NIMAS 
Technical Assistance Center, Recording for the Blind and Dyslexic, 
Bookshare for Education, the American Printing House for the Blind, 
publishers, and publishing association representatives to ensure that 
issues identified by the States and findings, creative solutions, and 
model practices developed by the projects are disseminated to all of 
the States.
Challenges to Timely Provision of Accessible Instructional Materials
    Despite the progress made by the two consortia, there are a number 
of major areas where continued support of the initiative to provide 
accessible instructional materials to students who require them is 
critically needed. Some of the challenges to timely provision of 
accessible instructional materials that remain include, but are not 
limited to:
  --Ambiguity related to the term ``print disability'';
  --Differing interpretations of who can determine that a student meets 
        eligibility criteria for accessible instructional materials 
        produced from source files obtained through the NIMAC;
  --The provision of materials to students who are ineligible for 
        accessible instructional materials produced from source files 
        obtained through the NIMAC;
  --Systematic quality control across the distribution process: file 
        creation, storage, retrieval and transformation; and
  --Efficiency and the elimination of redundant effort.
    In addition, while much progress has been made, many States are 
still struggling. Only 15 States and the 6 Pacific Basin entities have 
had opportunities for direct support and collaboration through these 
projects. However, a majority of the States wanted to participate in 
this program. We believe that many other States could benefit from the 
opportunity to participate in the program.
Fiscal Year 2010 Proposal for new Consortium
    The current projects end in September 2009. In fiscal year 2010 we 
would propose to support a new consortium of States that have not 
participated in the AIM Consortium or Pacific CIMAP, but that would 
benefit from support and collaboration as they implement systems to 
address the needs of students with disabilities, regardless of where 
they are located or their eligibility for materials produced from NIMAC 
source files. These States also would be expected to work closely with 
the NIMAS technical assistance center and other entities involved with 
the production of accessible materials to ensure that effective systems 
that address the needs of all students are implemented in all of the 
States.
                  video description grant competition
    Question. The Congressional Budget Justification indicates that 
$2.5 million is included for new projects and $1.1 million for 
continuation projects for support of video description and closed-
captioning of educational programming that would otherwise not be 
required to be described or captioned. How many projects and how much 
funding would be dedicated to a video description grant competition in 
2010?
    Answer. The entire $2.5 million would be dedicated to the video 
description grant competition in fiscal year 2010. We estimate that 
approximately five new projects would be funded through this 
competition.
                video description performance assessment
    Question. What has been the Department's evaluation/assessment of 
projects funded previously?
    Answer. The Department has not conducted any formal evaluations or 
assessments of the video description projects. However, as part of the 
Department's annual Government Performance and Results Act process, we 
annually select a sample of Technology and Media Services projects to 
evaluate. For example, in fiscal year 2008, a panel of six special 
education experts reviewed a sample of projects that produced products 
in the previous fiscal year. This included four projects that produced 
described video or a combination of described video and captioning. The 
products were assessed, using a nine-point scale, along three 
dimensions: quality, relevance, and usefulness. Successful products are 
defined as those scoring 6.0 or above. These products scored an average 
of 6.5 on the quality dimension, 8.06 for relevance, and 7.81 for 
usefulness. The Department also attempts to assess the efficiency of 
the program by looking at the number of hours of captioning and video 
description obtained from its products in relation to its expenditures. 
For fiscal year 2008, the average cost for the captioning and 
descriptive video products that were reviewed was $89.41 per hour.
      rehabilitation services and disability research--vocational 
                  rehabilitation state grants program
    Question. In May 2009, the percent of people with disabilities in 
the labor force was 22.9 compared with 71.1 for persons with no 
disability. The unemployment rate for those with disabilities was 13.7 
percent, compared with 8.9 percent for persons with no disability. The 
fiscal year 2010 budget includes more than $3.5 billion under this 
account to support programs of vocational rehabilitation (VR) and 
independent living for individuals with disabilities.
    What actions is the Department taking currently (or planning for 
fiscal year 2010) to assist State Vocational Rehabilitation agencies in 
increasing the number of individuals achieving and sustaining 
employment and how does the current budget and 2010 budget request 
support these actions; and lastly, what resources are available in the 
current year and included in the fiscal year 2010 budget request to 
support improved outcomes at State VR agencies?
    Answer. The Department has undertaken three major initiatives in 
its effort to improve the performance of the VR State Grants program. 
These include implementing a new monitoring process that focuses on the 
performance of State VR agencies, enhancing the Rehabilitation Services 
Administration's (RSA) capacity to provide technical assistance, and 
developing a strategic performance plan for the VR program.
    As you are aware, in fiscal year 2005, the Department redesigned 
its monitoring and technical assist activities to focus on performance 
and assist State VR agencies in increasing the number of individuals 
achieving and sustaining employment. Monitoring was centralized to 
ensure more uniform procedures, and a new organizational structure 
integrated RSA's data collection with monitoring activities so that the 
process of review and improvement is continuous and reduces the time 
period between assessing performance and conducting reviews. As 
performance and other issues are identified, RSA provides technical 
assistance directly to State VR agencies through the RSA monitoring 
team.
Monitoring and Technical Assistance Puts Performance Improvement at 
        Forefront of RSA Activities
    Investments in developing information from RSA databases for 
monitoring and technical assistance purposes has put performance 
improvement at the forefront of RSA activities. Current monitoring 
efforts are facilitated by several tools that provide information 
essential for the focus on performance. An enhanced RSA Management 
Information System (MIS) includes various data sets developed for 
performance monitoring purposes that allow RSA and State VR agency 
staff to perform ad hoc queries on RSA databases and download data in 
MS Excel format from the RSA-2 Cost Report and the RSA-113 Quarterly 
Caseload Report data bases. Various sets of data tables are developed 
annually for use by RSA monitoring teams and State VR agencies for 
performance monitoring purposes. These data tables are a central 
beginning point for each State VR monitoring activity, and are used by 
RSA staff and State VR agency staff to discuss and identify program 
areas in need of improvement or in need of further discussion and 
investigation during on-site reviews. Performance information is 
presented and discussed in each on-site monitoring review. These data 
are also used to prepare annual review reports that include information 
about each State VR agency's program outcomes, use of resources, and 
performance on standards and indicators.
Technical Assistance and Continuing Education (TACE) Centers
    A range of activities to assess and improve the performance of the 
VR program are also being conducted with support from other resources 
within RSA and the National Institute for Disability and Rehabilitation 
Research (NIDRR). The Department also recently established 10 new 
regional TACE Centers under the training program to provide technical 
assistance and continuing education to State VR agencies and other 
entities involved in the provision of vocational rehabilitation and 
independent living services. The TACE Centers assess the performance 
and compliance needs of agencies in their regions, including needs 
identified through RSA's review process, and work with RSA and State VR 
agencies to develop plans for addressing those needs. The TACE Centers 
are supported by a Technical Assistance (TA) Network consisting of 
other RSA- and NIDRR-funded projects focused on VR and employment.
Program Improvement Funds Projects Supporting Technical Assistance to 
        State VR Agencies
    Program Improvement funds provided under section 12 of the 
Rehabilitation Act are being used to support technical assistance 
activities, including a National Vocational Rehabilitation Technical 
Assistance Center (NTAC) that coordinates the activities of a TA 
Network that supports technical assistance and continuing education 
activities for State VR agencies. Nearly half (47 percent) of the funds 
would be used to continue support for the NTAC. Program improvement 
funds will also be used to increase service delivery capacity by 
providing forums for sharing promising practices, and by enhancing the 
capacity of grantees to fulfill their responsibilities more effectively 
and efficiently. Timely training and technical assistance will be 
delivered to RSA grantees and stakeholders using state-of-the-art 
communication methods as the primary means of dissemination, including 
web-based seminars (webinars), and RSA's new Dissemination and 
Technical Assistance Resource web-based resource. These strategies will 
allow RSA to reach a broader population of grantees and stakeholders 
without convening face-to-face meetings, greatly improving the cost 
effectiveness of providing ongoing training and technical assistance.
Evaluation Funds Support Studies To Improve Program Performance
    Evaluation funds provided under section 14 of the act are also 
being used to conduct studies that will assist the Department to 
improve program performance. Additional information on these and other 
related projects and activities are provided on pages J-80 to 89 of 
Volume I of the Department of Education fiscal year 2010 Justification 
of Appropriation Estimates to Congress.
Improving Quality of Program Employment Outcomes
    State VR agencies are serving more individuals with particularly 
challenging disabilities and personal histories, including, but not 
limited to, more individuals who are autistic, experience chronic 
mental illness, battle substance abuse, or have criminal records. New, 
innovative, and effective approaches are needed in order for VR 
agencies to improve the quality and quantity of the program's 
employment outcomes. Through NIDRR, the Department is supporting 
employment-related centers and projects that will identify and develop 
evidence-based practices that have been proven effective in improving 
employment outcomes for these and other challenging and emerging 
populations. The results of these investments will be disseminated to 
VR counselors and VR service providers to assist in their efforts to 
increase the number of individuals with disabilities that achieve and 
sustain employment.
Fiscal year 2010 Support for Projects on Employment and Vocational 
        Rehabilitation of Individuals With Disabilities
    The fiscal year 2010 budget request would support research centers 
and projects initiated in previous years and new projects that focus on 
employment and vocational rehabilitation of individuals with 
disabilities.
    NIDRR will continue support for the following employment research 
centers and projects:
  --Center on Demand-Side Employment Placement Models (fiscal year 
        2006).
  --Center for Vocational Rehabilitation Research (fiscal year 2007).
  --Vocational Rehabilitation Service Models for Serving Individuals 
        with Autism Spectrum Disorders (fiscal year 2008).
  --Center on Vocational Rehabilitation Program Management (fiscal year 
        2009).
  --Center on Effective Delivery of Rehabilitation Technology by 
        Vocational Rehabilitation Agencies (fiscal year 2009).
  --Center on Improved Employment Outcomes for Individuals with 
        Psychiatric Disabilities (fiscal year 2009).
    Examples of new employment-related topics that are under 
consideration for NIDRR support in fiscal year 2010 include:
  --Individual-level Characteristics Related to Employment Among People 
        with Disabilities.
  --Transition to Employment.
  --Knowledge Translation of Employment Research Findings.
  --Employer Practices Related to Employment Outcomes.
  --Employment Measurement and Policy.
  --Employment Outcomes for Individuals with Blindness and Low Vision.
Vocational Rehabilitation Strategic Performance Plan
    Finally, RSA is developing a Vocational Rehabilitation Strategic 
Performance Plan, including goals, objectives, and outcome-oriented 
performance measures, to ensure a long-term strategic focus on program 
performance, performance improvement, and outcomes for individuals with 
significant disabilities. The plan will assist the Department in 
directing its resources (monitoring, technical assistance, training, 
demonstration, and evaluation) toward the implementation of policies 
and practices that are known to have a positive effect on increasing 
high-quality employment outcomes. RSA will use this plan to guide the 
administration of the VR program and address program challenges. The 
plan will assist RSA in monitoring progress of the VR program and to 
provide appropriate, targeted technical assistance to State agencies 
toward the achievement of desired outcomes.
         findings from monitoring reviews of state vr agencies
    Question. What are the major categories of findings from State VR 
reviews and the technical assistance provided to help State VR agencies 
implement corrective action plans?
    Answer. Many of the findings from the reviews of State VR agencies 
often center on fiscal management, implementation of an order of 
selection for services (if a State agency does not have sufficient 
resources to serve all eligible individuals), and delays in service 
provision. When findings are identified, State VR agencies develop a 
corrective action plan (CAP) describing how they will address the 
findings. RSA then monitors the implementation of the plan until it is 
complete. If the compliance finding relates to a failure to meet one of 
the standards and indicators, the VR agency develops a program 
improvement plan (PIP) and RSA monitors the agency's progress toward 
improving its performance. In addition to compliance findings, RSA 
makes observations and recommendations to improve the performance of 
State VR agencies. Recommendations often focus on such issues as 
improving the VR agencies employment outcome rate, increasing the 
number of individuals applying for the program, improving the agency's 
case management system, strengthening the agency's management of data, 
implementing a comprehensive strategic planning process, improving 
internal and external communications, and developing and implementing a 
quality assurance system. RSA also provides technical assistance both 
during and after monitoring visits to assist State agencies in 
addressing compliance findings or to implement a recommendation. 
Furthermore, the TACE Centers provide additional technical assistance 
upon request.
                    delivery of technical assistance
    Question. On average, how long does it take to complete delivery of 
technical assistance to address State needs?
    Answer. The duration of technical assistance depends on the type 
and complexity of the need as well as when, how, and by whom the 
technical assistance is delivered. RSA offers on-site technical 
assistance during its reviews of State agencies, so that the delivery 
of some technical assistance is immediate or completed in a few days. 
RSA also has used annual fiscal and data management meetings to deliver 
technical assistance directly to agency personnel over the course of 2 
days. If a State agency has a PIP or CAP, the plan includes timelines 
for its completion and RSA may provide technical assistance at any 
point during that timeline.
    The TACE Centers program provides longer-term and more systemic 
technical assistance. The TACE program was recently implemented and RSA 
does not yet have data on how long it takes the Centers to complete the 
delivery of technical assistance to States. The Centers submitted plans 
to RSA at the beginning of fiscal year 2009 describing the needs to be 
addressed and the activities the TACE will conduct to address them, 
including projected timelines for completion. The projected time for 
TACE Centers to complete technical assistance varies based on the 
complexity of the need or intervention. For example, assisting a State 
agency to create and launch a quality assurance system where none 
existed may take significantly longer than assisting a State agency to 
create a strategic plan for addressing personnel shortages. As such, 
according to TACE Center plans, the range of duration for technical 
assistance is anywhere from a few months to 2 years depending on the 
need.
   improvement of deficiencies identified in state monitoring reviews
    Question. Has the technical assistance, at least in part, led to 
improvement of the deficiencies identified in VR reviews?
    Answer. Yes. Over the past 3 years, State VR agencies have made 
steady progress in completing corrective actions and taking steps to 
improve their performance as a result of RSA's technical assistance 
efforts. RSA provides technical assistance during and following its 
State monitoring reviews. RSA tracks State VR agency progress and 
completion of corrective actions outlined in either a CAP or a PIP. 
They also track a State agency's progress toward implementing 
recommendations aimed at improving performance. As of this time, RSA's 
technical assistance efforts have produced the following results:
  --60 agencies have completed all of their required corrective actions 
        that resulted from previous monitoring reviews, and 20 State VR 
        agencies are implementing approved corrective actions plans 
        resulting from fiscal year 2007 and fiscal year 2008 reviews;
  --During the on-site portion of RSA's reviews, agencies have 
        corrected a significant number of deficiencies relating to 
        reporting and fiscal management requirements; and
  --RSA received 84 requests for technical assistance from State VR 
        agencies to address performance and compliance deficiencies 
        identified during its fiscal year 2008 reviews of 19 State 
        agencies. RSA is either providing that TA directly or is 
        working with the TACE Centers to provide agencies with the 
        technical assistance they requested.
    RSA has also developed an informal evaluation survey that State VR 
agencies and other stakeholders are requested to complete after a 
monitoring review. The vast majority of comments received indicate that 
the reviews are helpful and that the technical assistance is timely and 
consistent.
        resources for reviews of centers for independent living
    Question. Are sufficient resources available in the current year 
and fiscal year 2010 budget request to conduct the 20 compliance 
reviews of Centers for Independent Living (CILs) required by the 
Rehabilitation Act?
    Answer. The RSA has sufficient resources to conduct 20 on-site 
compliance reviews of the CILs in 2009 and in 2010. In addition, RSA 
uses performance information that is collected annually to monitor CIL 
performance and compliance with established standards and indicators.
        technical assistance for centers for independent living
    Question. What resources are available in the current year and 
under the fiscal year 2010 budget request to provide technical 
assistance to CILs?
    Answer. In accordance with section 721(b) of the Rehabilitation 
Act, RSA is setting aside $2,965,788 of the funds appropriated for 
fiscal year 2009 under title VII, chapter 1, part C of the 
Rehabilitation Act, including $1,575,000 in Recovery Act funds, for 
training and technical assistance to CILs and statewide independent 
living councils (SILCs). Of this amount, $1,465,485 will be used to 
provide continuation funding for three grants, two of which provide 
training and technical assistance to CILs and one of which provides 
these services for SILCs. Funds remaining after funding the 
continuation awards will be used for new competitive awards, an 
estimated $1,325,000 of which would be used to support training and 
technical assistance to CILs. Under the budget request for fiscal year 
2010, $1,444,788 would be set aside for training and technical 
assistance to CILs and SILCs. The CILs are also eligible to receive 
technical assistance from the Technical Assistance and Continuing 
Education centers.
    Question. Are these resources sufficient to meet the requirement 
under the Rehabilitation Act?
    Answer. The allocations outlined above are sufficient to comply 
with the requirement in section 721(b) of the Rehabilitation Act that 
RSA reserve no less than 1.8 percent and no more than 2 percent of 
funds appropriated under title VII, chapter 1, part C of the Act for 
CIL and SILC training and technical assistance.
                     career and technical education
    Question. A 2005 National Research Center for Career and Technical 
Education report found that a ratio of 1 CTE class for every 2 academic 
classes minimizes the risk of students dropping out of school. What 
role does the Department believe career and technical education courses 
funded under the Perkins Career and Technical Education Act have in 
working to support the administration's goal of decreasing the dropout 
rate, and contributing to the administration's high school reform 
efforts?
    Answer. We know that many youth drop out of high school because 
they are not challenged and they do not feel their courses are relevant 
to their future careers and ambitions. Career and technical education 
(CTE) courses provide students with the information, training, and 
skills that are relevant to future careers, thus potentially making all 
of their classes more meaningful. As you have noted, we know that CTE 
courses can provide students, particularly those at risk of dropping 
out of school, with the motivation and justification for staying in 
school. According to the NCES report CTE in the United States: 1990 to 
2005, students who take CTE courses in high school are likely to pursue 
postsecondary education. The 2006 reauthorization of the Perkins Act 
increased the Act's emphasis on the rigor of CTE courses and created 
the requirement that States create at least one ``program of study,'' 
which, among other things, must include coherent and rigorous content 
aligned with challenging academic standards and must incorporate 
secondary and postsecondary elements. As such, the CTE program will 
continue to support the Administration's goal of decreasing the dropout 
rate by supporting high school reform efforts that make coursework more 
coherent, challenging, and relevant to postsecondary education, 
training, and the workforce.
             intergovernmental job training programs review
    Question. The Congressional Budget Justification indicates that the 
administration is conducting a comprehensive review of job training 
programs to assess their effectiveness. What is the Department's 
timeline for completing action on this review?
    Answer. In preparation for the upcoming reauthorization of the 
Workforce Investment Act (WIA), the Department has been working with 
the Department of Labor, Domestic Policy Council, and Office of 
Management and Budget to review job training programs administered by 
both agencies. The goal is to ensure that education and labor programs 
work together effectively at the local level to provide seamless career 
advancement services for low-skilled adults, at-risk youth, and others 
needing employment and training. The review will inform the 
administration's policies on reauthorization of the WIA as well as 
budget policies in the President's 2011 budget request.
    Question. What actions (and associated findings) have been 
completed to date?
    Answer. The Office of Management and Budget has convened meetings 
with the Department of Education, Department of Labor, and the Domestic 
Policy Council to discuss the existing job training programs and the 
process for developing a reauthorization proposal.
                    national institute for literacy
    Question. The fiscal year 2010 budget request proposes to eliminate 
funding for the National Institute for Literacy (NIFL). The 
Congressional Budget Justification indicates that the NIFL resources 
would be absorbed by the Department, which would continue NIFL 
activities that are of value to the field. How will the Department 
determine which activities to continue?
    Answer. The Department has begun to organize meetings in order to 
learn more about the needs of the adult literacy and adult education 
communities. Once we have completed that process, we will review the 
existing NIFL activities and determine which of them still meet a 
current need and, of those, which could be subsumed within existing 
projects in the Department and which need to be continued regardless of 
the vehicle. NIFL's current system of delivery, LINCS, will be part of 
this review. In addition, the Department has already heard from the 
adult literacy and adult education field that there is a desire to 
create a new center on adult literacy and education. The center could 
provide many of the services that are authorized for NIFL under the 
WIA.
    Question. Which National Institute for Literacy activities are 
continued with resources available in the fiscal year 2010 budget 
request?
    Answer. The Department will need to complete a review of NIFL's 
existing activities in order to determine which activities should be 
continued. The funds appropriated for NIFL are multi-year funds. NIFL 
has not yet begun to expend its fiscal year 2009 funds and will have 
access to its fiscal year 2009 appropriation through September 30, 
2010. This provides the Department with ample time to review the fiscal 
year 2010 appropriations and make decisions about the activities to 
continue, initiate, or terminate.
                research on adult education and literacy
    Question. Roughly 30 million adults have educational issues that 
make difficult their pursuit of education, occupational training, and 
securing or retaining a job. Specifically, how much research, 
development, and dissemination funding has IES previously dedicated to 
specific funding opportunities to support rigorous research on programs 
and strategies designed to help adults develop the reading and writing 
skills they need to be successful in school and/or work?
    Answer. The following chart includes grants and cooperative 
agreements, including award amounts, awarded by the IES for research 
projects that focus on the development of reading and writing skills in 
adult students. IES would have made additional awards on this topic if 
more applications had been judged to be of higher quality by peer 
reviewers. Approximately 30 percent of the funding of the National 
Center on Postsecondary Research is devoted to research related to 
helping adults develop reading and writing skills. Other grants shown 
are exclusively on this topic.

                                    RESEARCH ON ADULT EDUCATION AND LITERACY
----------------------------------------------------------------------------------------------------------------
        Title of research project                    Grantee                        Year                Amount
----------------------------------------------------------------------------------------------------------------
Improving Adults' Reading Outcomes with    Daryl Mellard/University of  2007.......................   $1,991,961
 Strategic Tutoring and Content             Kansas.
 Enhancement Routines
Postsecondary Content-Area Reading-        Dolores Perin/Teachers       2006.......................    1,168,758
 Writing Intervention: Development and      College, Columbia
 Determination of Potential Efficacy        University.
The Writing Pal: An Intelligent Tutoring   Danielle McNamara/           2008.......................    2,015,456
 System that Provides Interactive Writing   University of Memphis.
 Strategy Training
Assessing Reading Comprehension with       Joseph Magliano/Northern     2004.......................    1,560,506
 Verbal Protocols and Latent Semantic       Illinois University.
 Analysis
Developing Reading Comprehension           John Sabatini/Educational    2004.......................    1,572,635
 Assessments Targeting Struggling Readers   Testing Service.
Developing a Program of Postsecondary      Stephen Steurer/             2007.......................    1,997,936
 Academic Instruction Over the              Correctional Education
 Corrections Learning Network               Association.
The Effects of College Remediation on      Isaac McFarlin/University    2007.......................      301,687
 Students' Academic and Labor Market        of Texas, Dallas.
 Outcomes
National Center for the Study of Adult     John Comings...............  1996 (to 2007).............   30,191,490
 Learning and Literacy (http://
 www.ncsall.net/?id=1)
National Center for Postsecondary          Thomas Bailey..............  2006.......................    9,813,619
 Research (http://
 www.postsecondaryresearch.org)
----------------------------------------------------------------------------------------------------------------

        major findings of research on adult reading and writing
    Question. What have been the major activities/findings supported by 
this funding?
    Answer. Research on programs and practices to help adults develop 
their reading and writing skills has been funded through three 
mechanisms: (a) reading and writing research programs, (b) the 
postsecondary education research program, and (c) the national research 
and development center program.
Reading and Writing Research Programs for Adult Learners
    IES has solicited applications for research on improving reading 
outcomes for adult learners through its research programs on reading 
and writing since 2002, but it has received relatively few applications 
for research on this topic despite the need for flexible and 
appropriate interventions for adult learners and for materials that 
enable adult education instructors to teach reading to underprepared 
adults. In order to stimulate more interest in research on this topic, 
in 2007, IES created a separate research program called ``Interventions 
for Struggling Adolescent and Adult Readers and Writers.''
    To date, five research projects on adult literacy have been 
awarded. IES-funded researchers at the University of Kansas are 
developing interventions for Job Corps participants that focus both on 
mastering literacy skills and on developing the knowledge and skills 
needed to pass the vocational certification tests. A team at Teachers 
College is working to improve interventions for community college 
students in remedial reading classes. University of Memphis researchers 
are developing a computer tutor that adults can use to support their 
mastery of writing. The remaining grant on this topic supports the 
development of assessments for use with adult readers and writers. The 
assessment of adults has provided ongoing challenges, both because the 
content of typical reading assessments is inappropriate for adults, and 
because current assessments do not provide sufficient discrimination at 
the low ability end. IES is supporting the development of two new sets 
of assessments to address these issues.
Improving Reading Outcomes for Adults Underprepared for Postsecondary 
        Education
    IES has funded research on improving reading outcomes for adults 
who are underprepared for postsecondary education through its 
postsecondary education research program. The researchers on one of the 
grants are evaluating the impact of a satellite-based distance learning 
program for prisoners aged 18-25 on the adults' academic achievement, 
progress toward a degree, recidivism, and subsequent workforce 
participation. The results of this evaluation are not yet available. A 
second project examines the effects of remediation courses on 
postsecondary students in Texas and Florida. Initial results have found 
existing remedial education programs to have no benefits for Texas 
students attending 2- or 4-year institutions in regards to academic 
credits attempted, likelihood of completing 1 year of college, degree 
completion, transferring to a 4-year college, or labor market earnings.
  national research and development centers research on adult literacy
    Through grants from IES, two national research and development 
centers, the National Center on Postsecondary Research and the National 
Center for the Study of Adult Learning and Literacy, have addressed 
adult literacy challenges. From 1996 to 2007, the Department of 
Education, through Office of Educational Research and Improvement and 
then IES, supported the National Center for the Study of Adult Learning 
and Literacy (NCSALL). NCSALL conducted primarily descriptive research 
highlighting the diversity of individuals being served by adult 
literacy instruction, characteristics of adult basic education 
teachers, and social and instructional processes that occur in adult 
education classes. In addition, NCSALL engaged in dissemination of 
information to practitioners.
    The National Center for Postsecondary Research (NCPR) is measuring 
the effectiveness of programs designed to help students master the 
basic skills needed to advance to a degree. Their broad program of 
research includes two projects that specifically target reading skills 
for underprepared postsecondary students. The first study examines the 
impact of remedial English courses in community and 4-year colleges and 
has found that remediation improved persistence among Florida community 
college students but did not increase the likelihood of course 
completion, transfer to a 4-year school, or degree completion. The 
other project (no findings yet) focuses on the use of learning 
communities (some specifically target reading or English) in community 
colleges.
    Although there is a great need for additional rigorous research in 
this area, the current capacity of the field to carry out this research 
is limited. In order to rectify this, IES continues to reach out to the 
adult education research community and to stimulate interest in adult 
education research on the part of researchers who have conducted 
rigorous research on K-12 students.
           funding for research on adult reading and writing
    Question. How much funding is allocated to adult reading and 
writing research in the current year, as well as under the budget 
request?
    Answer. The number of grants IES awards in any year depends on the 
number of high-quality applications received under a specific program, 
such as the research program on Interventions for Struggling Adolescent 
and Adult Readers and Writers. No new applications for research on 
adult reading and writing were awarded in 2009 because IES did not 
receive any applications in 2009 that peer reviewers determined 
warranted support. Ongoing projects are receiving support. IES is 
unable to predict how much funding will be allocated to adult reading 
and writing research in 2010, but the budget request for 2010 is 
sufficient to fund all applications on this topic that peer reviewers 
judge to be of high quality.
                        what works clearinghouse
    Question. Last year, in response to concerns raised about the 
operation of the What Works Clearinghouse (WWC), the National Board on 
Education Sciences convened an expert panel to perform a focused study 
addressing the fundamental question of whether the Clearinghouse's 
evidence review process and reports are scientifically valid. The panel 
report found that is generally the case, but made a number of 
recommendations, including that the Department of Education commission 
a comprehensive review of the full range of WWC activities and 
procedures, with a timeframe to allow a complete consideration of a 
number of issues that could not be fully evaluated in the Expert Panel 
report. What action is IES taking in and/or planning for the current 
fiscal year and fiscal year 2010 to address these recommendations?
    Answer. The WWC and its statistical team are currently considering 
how the WWC standards should take into account study size and other 
issues noted by the expert panel. The WWC released a Procedures and 
Standards Handbook [Version 2.0] in December 2008 as a result of the 
panel's report. A comprehensive review of the full range of WWC 
activities and procedures and of its other dissemination activities 
will be a high priority for IES and its new leadership as it begins to 
consider reauthorization of the Education Sciences Reform Act and the 
development of a statement of work for the next competition for the WWC 
contract.
                 program administration staff increases
    Question. The fiscal year 2010 budget proposes a net increase of 58 
full-time equivalent staff (FTEs) above the 2009 level for key 
positions not staffed in 2009 due to funding constraints and to 
implement the Recovery Act. The Congressional Budget Justification 
identifies 7 FTEs in the Office of Elementary and Secondary Education 
needed for Recovery Act implementation. Please identify the positions 
not staffed in 2009 due to funding constraints, as well as the impact 
of not staffing these positions in 2009 and in 2010.
    Answer. The additional staff requested in fiscal year 2010 are 
necessary to perform several key functions not performed at optimal 
levels in 2009 due to funding constraints. These functions are grouped 
into the four areas listed below.
    The first function requiring additional staff is monitoring grants 
awarded by the Department in a variety of areas including elementary 
education, postsecondary education, and in programs grants focusing on 
providing services to individuals with disabilities. Additional 
monitoring is needed to ensure that Department programs are both 
improving the quality of education and are fiscally sound.
    Additional staff are also needed to work on increasing college 
access and student success by restructuring and dramatically expanding 
Federal financial aid, while making programs simpler, more reliable, 
and more efficient. A key component of this effort is to simplify the 
Federal application for student aid--Free Application for Federal 
Student Aid (FAFSA)--making it easier to complete and more effective 
for students.
    Increased staff will also work on the administration's priorities 
related to reauthorization of the ESEA and the WIA.
    Finally, staff are needed for the Department's staff offices to 
work on activities including budgeting, legislative affairs, public 
outreach, and policy formulation.
                 recovery act administrative activities
    Question. The Recovery Act required Department staff to take many 
actions this budget year, including developing and issuing guidance 
documents, allocating funds, and writing requests for proposals, 
without additional resources. What specific activities would be 
undertaken with these requested funds?
    Answer. For several Recovery Act programs, such as the State Fiscal 
Stabilization Fund, Teacher Incentive Fund, and Impact Aid, the 
Department received appropriated funds for the purpose of 
administration and oversight. For Recovery Act programs without any 
administration and oversight funds, the Department has included funds 
necessary for this purpose in its fiscal year 2010 program 
administration budget request. ARRA-specific administration and 
oversight activities include policy development, grant award (either 
through allocation or grant competition), technical assistance--
ensuring that grantees effectively and properly use their funds, grant 
reporting, and grant monitoring. In many cases, the Department assumed 
these activities would be covered with existing resources and staff 
time.
compliance and technical assistance activities in the office for civil 
                                 rights
    Question. Over the last decade, more than half of the Office for 
Civil Rights' (OCR) complaint receipts have alleged disability 
discrimination. Please explain the compliance and technical assistance 
activities that OCR is taking currently or planning to undertake in the 
current budget year and fiscal year 2010.
    Answer. Shown below is a list of the 29 fiscal year 2009 compliance 
reviews conducted by OCR. Also shown below is a list of the fiscal year 
2009 planned technical assistance activities. More than 100 technical 
assistance presentations have already been done by OCR on the issues 
listed, some initiated by OCR and others requested by recipients or 
interested other parties such as parent groups or students. In 
addition, OCR does other technical assistance as requested.
    Concerning the compliance reviews and technical assistance 
activities that OCR plans to conduct in fiscal year 2010, those plans 
are being developed now.
Fiscal year 2009 OCR Compliance Reviews
    Fiscal year 2009 OCR Compliance Reviews:
  --Providence Public Schools (RI)
    Title VI: English Language Learners services, Limited English 
Proficient parent communication
  --Sachem Central School District (NY)
    Section 504/ADA: Coordinator, grievance procedures
  --Hempstead Union Free School District (NY)
    Section 504/ADA: Coordinator, grievance procedures
  --New York City Department of Education, P.S. K396 (NY)
    Section 504/ADA: Implementation of individual education programs
  --New York City Department of Education, P.S. M094 (NY)
    Section 504/ADA: Implementation of individual education programs
  --College of Notre Dame (MD)
    Title IX, Section 504/ADA: Coordinator, grievance procedures
  --Hood College (MD)
    Title IX, Section 504/ADA; Coordinator, grievance procedures
  --Cleveland County (SC)
    Title IX: Athletics
  --Hillsborough County School District (FL)
    Title IX: Sexual harassment policies and procedures
  --St. Lucie County School District (FL)
    Section 504/ADA: Disparate discipline
  --Painesville City Local School District (OH)
    Title VI: English Language Learners services
  --Notre Dame College (OH)
    Title IX: Sexual harassment policies and procedures
  --Eastern Michigan University (MI)
    Title IX: Sexual harassment policies and procedures
  --Moline School District (IL)
    Title VI: English Language Learners services, Limited English 
Proficient parent communication
  --Ball State University (IN)
    Title IX: Athletics
  --Bayless School District (MO)
    English Language Learners services
  --Cape Girardeau #63 School District (MO)
    Section 504/ADA: Physical accessibility
  --South Brown County U.S.D. #430 (KS)
    Title VI: National origin-based harassment, different treatment
  --Jenks Public Schools (OK)
    Section 504/ADA: Implementation of individual education programs
  --Texas A & M University (TX)
    Title IX, Section 504/ADA, Grievance procedures
  --Campbell County School District (WY)
    Section 504/ADA: Coordinator, grievance procedures
  --Churchill County School District (WA)
    Title IX: Athletics
  --Idaho Falls School District 91 (ID)
    Title IX: Athletics
  --Seattle School District No. 1 (WA)
    Title VI: School closings
  --University of Montana (MT)
    Section 504/ADA: Physical accessibility
  --University of Montana-Western (MT)
    Section 504/ADA: Physical accessibility
  --Mt. Diablo Unified School District (CA)
    Title VI: English language learners services
  --Ontario-Montclair Elementary School District (CA)
    Title VI, Section 504/ADA: Placement of English Language Learners 
in special education
  --Vallejo Unified School District (CA)
    Title VI: Race-based disparate discipline
Fiscal year 2009 Planned OCR Technical Assistance Activities
    Fiscal year 2009 Planned OCR Technical Assistance Activities:
    The list that follows is only the list of subjects that OCR planned 
to address in fiscal year 2009.
    Section 504 /ADA:
  --Identification and evaluation of students;
  --TA to postsecondary institutions whose Web sites are inaccessible 
        to individuals with disabilities;
  --Transition of students with disabilities from high school to 
        postsecondary institutions;
  --Training to elementary and secondary special education directors 
        and 504 coordinators;
  --TA to postsecondary institutions and veterans concerning services 
        for disabled veterans;
  --Procedural safeguards and impartial hearing process;
  --Academic adjustments and auxiliary aids; and
  --Students with disabilities in college.
    Title IX:
  --Grievance procedures and responsibilities of Title IX coordinators; 
        and
  --Sexual harassment.
    Title IX: Athletics (postsecondary)
    Title VI:
  --Limited English proficiency
    Early Complaint Resolution:
  --TA to promote the use of ECR by complainants and recipients.
   proposed organizational placement of office of civil rights staff 
                               increases
    Question. How will the additional 19 FTEs in the fiscal year 2010 
budget request be deployed with respect to its organization and 
mission?
    Answer. The 19 FTE will restore OCR's staff to a level necessary to 
fulfill its mission, and ensure successful management of OCR programs 
and priorities. Sixteen FTE will be assigned to OCR's regional offices 
for resolving complaints and compliance reviews, and three FTE will be 
used in headquarters for developing policy guidance and technical 
assistance materials.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                       early childhood education
    Question. President Obama included $7.2 billion for Head Start in 
his budget, which is actually a decrease from the fiscal year 2009 
regular appropriations level, not including stimulus funding. While I 
am pleased that the significant recovery funding for Head Start 
programs is starting to help our State and local communities who are 
struggling, I know that a strong, sustained investment in Head Start is 
the only way that this program can continue to be effective, 
particularly in light of the improvement and coordination tasks we have 
asked Head Start programs to take on as part of reauthorization. Do you 
plan to increase funding for Head Start programs in future years, when 
stimulus funding has ended?
    Answer. Since the Head Start program is administered by the 
Department of Health and Human Services, Secretary Sebelius would be 
better suited to answer your question.
                     early learning challenge fund
    Question. How does your $300 million early learning challenge grant 
proposal connect to existing Federal and State funding streams such as 
Head Start, child care, pre-K, and their K-12 systems?
    Answer. The new Early Learning Challenge Fund would serve to 
improve the quality of existing and proposed Federal investments in 
early childhood programs, including Head Start, by funding State 
efforts to develop a statewide infrastructure of integrated early 
learning supports and services for children. With this framework in 
place, States would be able to compare the quality of services for 
children from birth through age 5 without regard to funding source, 
which would also inform Federal and State decisionmaking regarding 
investments in early learning.
    Question. How will the grants encourage recipient States to take 
high-quality pre-K to a larger scale and build an early childhood 
system around a strong and successful program?
    Answer. The grants would support State efforts to improve the 
quality of existing early childhood services by holding all publicly 
funded programs to a common set of State-developed standards. The 
administration expects that this effort would build a pathway for 
increased Federal, State, and local investments in high-quality early 
childhood programs in the coming years.
                    literacy--early reading programs
    Question. I was excited to see that the President included funding 
for early and adolescent literacy grants in the fiscal year 2010 budget 
proposal. In the last session of Congress, I introduced a literacy 
bill, called the Striving Readers Act, along with my colleague Senator 
Sessions. A companion bill passed on the House side last year. There is 
clearly bipartisan interest here in Congress for creating an improved 
adolescent literacy program, hopefully as part of a comprehensive 
literacy program for young children all the way through grade 12.
    Can you tell us a little bit more about what this literacy program 
would look like and why the administration chose to include both 
adolescent and early literacy grants in the proposal?
    Answer. The administration's request for the Striving Readers Act 
included an increase both to build on the success of the current 
Striving Readers program, which focuses on adolescent literacy, and to 
enable schools to implement innovative and effective strategies for 
improving the reading comprehension of students in low-income 
elementary schools. We structured the request to emphasize the 
importance of continued investment in high-quality literacy programs 
from elementary school through high school, and also to invoke an 
existing authority to request funds for early reading services that 
would draw lessons from and addresses the deficiencies of Reading First 
and other literacy efforts. Applicants would be required, at a minimum, 
to serve students in grades kindergarten to third grade and would be 
encouraged to extend services to children in pre-kindergarten and in 
the fourth or fifth grades. Applicants would also be required to 
demonstrate how they would coordinate their reading programs from 
preschool through fifth grade, including with activities supported with 
funds from other Federal, State, or local sources. The Department would 
require participating schools to incorporate proven practices into 
their programs, including by providing a significant amount of time 
focused exclusively on reading instruction as well as integrating 
reading instruction into other content areas across the curriculum.
          federal support for early learning literacy programs
    Question. Do you see a strong continued role for Federal support of 
kindergarten through grade three literacy programs in States?
    Answer. Research shows that early reading skills are a major 
predictor of future success in school. We do believe that the Federal 
funds should be used support high-quality literacy programs. This is 
why the administration included $300 million for early reading in the 
budget request.
    Question. Do I have your commitment to work together on this 
literacy proposal to ensure that we have the best continuum of literacy 
supports possible for our youth?
    Answer. I look forward to having these discussions with you in the 
coming months.
adult literacy programs and reauthorization of the workforce investment 
                                  act
    Question. What is your vision for adult literacy, for those who may 
not yet have gained the skills they need to be successful in the 
workforce?
    Answer. The reauthorization of the Workforce Investment Act (WIA) 
provides an opportunity for the administration to look carefully at the 
needs of low-literate adults. The Departments of Education and Labor 
envision a modernized service delivery system that provides seamless 
support for adults who seek employment, regardless of their needs. This 
system would provide integrated solutions to meet the needs of both 
workers and employers. The Department of Education currently envisions 
a reauthorized WIA that leads to all States having adult education 
standards that are aligned with standards for college and career 
readiness. Finally, the Department of Education believes that the adult 
education and adult literacy communities must identify successful 
practices for meeting the needs of the diverse groups of adult 
learners, such as adults with limited English proficiency, youth at 
risk of dropping out of school, and adults who have not attained the 
requisite skills needed for jobs that will enable them to support 
themselves and their families.
                 data collection and the sdfsc program
    Question. Secretary Duncan, as you know the administration has 
proposed to move all of the SDFSC State Grant funding into national 
programs.
    It is my understanding that the Department of Education under the 
last administration did very little to collect data under the SDFSC 
program, although these data collection efforts are specifically 
required by law. Why is the administration not taking the first step of 
fully honoring data collection and accountability requirements and 
examining the new data on whether this program works as a State grant 
before moving all of the funding to national efforts?
    Answer. The Elementary and Secondary Education Act of 1965 requires 
that each State participating in the SDFSC State Grants program 
implement a Uniform Management Information and Reporting System (UMIRS) 
and make information about drug and violence prevention programs 
available to the public. Specifically, the UMIRS provisions require 
that States report information about truancy rates and drug- and 
violence-related offenses resulting in suspensions or expulsions. These 
data are required to be reported at the school-building level. 
Additionally, States must also report information about types of 
curricula, programs, and services provided with SDFSC State Grants 
program funds, and information about incidence and prevalence, age of 
onset, perception of health risk and perception of social disapproval 
of drug use and violence. We have monitored State implementation of the 
UMIRS requirements during the past several years and have not 
identified significant instances of noncompliance.
    The SDFSC program also requires that States provide reports about 
their implementation and outcomes of programs supported with State 
Grants program funds, as well as information about their progress in 
attaining identified performance measures, and on the State's efforts 
to inform parents of and include parents in drug and violence 
prevention efforts.
    We have collected some of this information from States as part of 
the Consolidated State Performance Report (CSPR). In an effort to 
minimize data collection and reporting burden for the States, we 
requested data from States only about truancy and suspensions and 
expulsions for drug- or violence-related offenses--information that 
States are required by the UMIRS provisions. States have also reported 
their progress toward meeting the performance measures they identified 
for the program.
    The statute does not create a unified system of data collection and 
reporting; rather it requires that each State create its own, uniform 
system. Because we believe that it would be valuable for States to 
collect and report the required data in a manner that is more uniform 
across the States, we have worked with States to identify a uniform 
data set that includes common definitions and collection protocols for 
data required by the UMIRS requirements. We are beginning to use those 
definitions and protocols in CSPR collections, but the definitions and 
protocols are voluntary.
    statutory funding requirements under sdfsc state grants program
    We believe that we have implemented the statutory requirements of 
the current authorization, but continuing concerns about the SDFSC 
State Grants program stem not just from the challenges involved in 
collecting and aggregating meaningful outcomes data for the program. 
The most significant concern is the current structure of the program, 
which requires that funding be distributed to any local school 
districts that wish to participate. Even when program funding levels 
were significantly greater than they are now, such as in fiscal year 
2004 (2004-2005 school year), fully two-thirds of participating school 
districts (67 percent) received less than $10,000 under the program. 
Realistically, grants of this size are not sufficient to permit 
districts to adopt and implement high-quality programs for even a small 
proportion of their students.
  funding support for drug and alcohol abuse prevention and violence 
                          prevention programs
    Question. With State and local budgets strained or massively cut 
back across the Nation, if a local educational agency (LEA) does not 
receive funding under the proposed new funding for the national 
program, how does the administration expect that this district will 
continue their efforts to prevent drug and alcohol abuse and prevent 
violence among students? I believe this question is particularly 
important in a time of economic crisis when we tend to see an increase 
in concerning activities among youth and families.
    Answer. As your question suggests, many States and localities are 
experiencing the most significant economic challenges in memory, and 
the result is that policy makers at all levels of government are being 
forced to make very painful choices about where to spend a declining 
pool of revenues. Just as State and local officials are reviewing 
expenditures very closely and establishing priority uses for limited 
available funding, the administration engaged in a similar process in 
developing the President's fiscal year 2010 budget request. Ultimately, 
we had to identify program terminations or consolidations in order to 
reduce spending. Part of the process for formulating the fiscal year 
2010 budget included reviewing available information about program 
effectiveness or other analyses that point to problems that may limit a 
program's capacity to produce desired outcomes. Findings from recent 
assessments of the program and from the Rand study suggested that the 
SDFSC program is not currently structured in a way that is likely to be 
able to demonstrate significant student outcomes.
    I share your concern about the importance of preventing drug and 
alcohol use and violent behavior among students and know both of these 
behaviors not only imperil students, but also pose significant barriers 
to student academic achievement. We are anxious to make the best 
investments we can in order to address these problems, and believe that 
the new $100 million initiative to improve school culture and climate 
(included in the fiscal year 2010 budget request under SDFSC national 
programs) provides the best opportunity in the current economic climate 
to make a meaningful difference in a significant number of schools and 
communities.
    Support provided under the State Fiscal Stabilization Fund (SFSF), 
part of funding appropriated under the American Recovery and 
Reinvestment Act of 2009, may also be a potential source of support for 
drug and violence prevention programs and activities. Monies available 
to States under either component of the SFSF program--the Education 
Stabilization Fund or the Government Services Fund--may be used to 
support a broad range of educational services and activities, including 
prevention programming, in elementary and secondary school settings.
            technical assistance for leas for sdfsc programs
    Question. How will technical assistance and training be 
consistently provided to LEAs without the State assisting with that 
role, and does the Department of Education have the capacity to take on 
this role?
    Answer. The Department will continue to provide some technical 
assistance to States relating to safe and drug-free schools, but lacks 
both the funding and staffing to become a primary provider of technical 
assistance directly to schools, school districts, and communities 
across the country. Several States have developed and maintain school 
safety centers or other technical assistance infrastructure. While some 
support for some of these centers has been provided by SDFSC State 
Grants funds, in other cases support for technical assistance has been 
provided with State monies. I encourage States to continue to make this 
kind of activity a priority.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                               even start
    Question. The President's budget request does not include funding 
for Even Start, the national early childhood and parenting program. I 
understand that some Even Start programs in the country have not been 
effective. However, in my State of Louisiana, we have some excellent 
Even Start programs that will be devastated by this loss. Could you 
explain the decision to eliminate Even Start and propose options for 
the 60,000 participants who will be left without services?
    Answer. Based on the results of three national evaluations, the 
administration believes that the Even Start program has not yielded 
meaningful benefits for children and families. For example, the most 
recent evaluation concluded that, while Even Start participants 
demonstrated small improvements in some outcomes, they did not perform 
better than the comparison group that did not receive Even Start 
services. As a result, the administration chose to direct the resources 
to other efforts that would better address the needs of children and 
families. Specifically, the administration has requested almost $1 
billion for early childhood programs at the Department of Education, 
including $500 million for the new Title I Early Childhood Grants, $300 
million for the new Early Learning Challenge Fund, and $162.5 million 
for Early Reading First, in addition to more than $6.5 billion in 
funding for Head Start at the Department of Health and Human Services 
(HHS). Further, the Department has requested more than $628 million for 
Adult Basic and Literacy Education State Grants, a program that 
supports activities similar to some of the components of Even Start, 
such as English literacy, adult basic education, and family literacy 
services. We believe that these programs will serve the same types of 
children and adults as are served by Even Start.
                     early learning challenge fund
    Question. Your budget request includes $300 million to launch the 
Early Learning Challenge Fund. How will this fund be administered and 
how does it fit into the administration's overall vision for early 
childhood education?
    Answer. The Department will be working closely with HHS to 
administer the new Early Learning Challenge Fund program. This new 
program would support statewide systems of early learning and support 
that apply a standard set of expectations in both the educational and 
the social-emotional domains in order to provide children with the 
preparation they need to enter kindergarten ready for success while 
empowering parents to seek and select the care that best serves their 
children. The administration's overall vision is for children to come 
to school socially and cognitively prepared to learn, and we expect 
that the quality improvement efforts supported by the Early Learning 
Challenge Fund would build a pathway to improvements in early learning 
program quality and, in future years, increased investment in high-
quality early childhood services.
                      teacher incentive fund (tif)
    Question. The administration requests the TIF increase to $517 
million. How does the administration plan to encourage these States and 
local educational agencies (LEAs) to develop and use innovative and 
effective teacher compensation systems?
    Answer. With the requested fiscal year 2010 funds, the Department 
will hold a grant competition for up to 100 new awards to LEAs, 
including charter schools that are LEAs, or States (or partnerships of: 
an LEA, a State, or both; and at least one nonprofit organization) to 
develop and implement performance-based compensation systems for 
teachers, principals, and other personnel in high-need schools.
    In an fiscal year 2010 competition, the Department will place a 
priority on the support of comprehensive, aligned approaches that: (1) 
support improved teacher and principal effectiveness and help ensure an 
equitable distribution of effective educators; (2) actively involve 
teachers (including special education teachers) and principals in the 
design of human capital and compensation systems; and (3) use data from 
emerging State and local longitudinal data systems to track outcomes 
and associate those outcomes with educator performance.
priorities in use of funds from american recovery and reinvestment act 
                 (arra) and the teacher incentive fund
    Question. How will the TIF work in conjunction with funds from the 
ARRA?
    Answer. The Department expects to use approximately $140 million of 
the ARRA appropriation for about 60 new awards, $50 million for 
continuation awards, and up to $10 million for the mandated national 
evaluation. With ARRA funds, and in response to lessons learned from 
the first two rounds of TIF grants and from other efforts around the 
country to improve educator effectiveness, the Department will place a 
priority on the support of: comprehensive, aligned approaches that 
support improved teacher and principal effectiveness and help ensure an 
equitable distribution of effective educators; that actively involve 
teachers (including special education teachers) and principals in the 
design of human capital and compensation systems; and that use data 
from emerging State and local longitudinal data systems to track 
outcomes and associate those outcomes with educator performance.
    With the funds requested for TIF in fiscal year 2010, the 
Department would launch a grant competition--for up to 100 new awards--
encompassing the new strategies and emphases being implemented with the 
ARRA funding. This new competition will support the ARRA objectives of 
improving teacher effectiveness, reducing disparities in the access of 
students to effective teachers, and turning around persistently low-
performing schools. Funds requested for fiscal year 2010 would also 
support 94 continuation awards.
    Priorities for an fiscal year 2010 competition would be similar to 
those for the ARRA competition; however, the Department has requested 
appropriations language that would also allow fiscal year 2010 grantees 
to use TIF funds to reward all staff in a school, as opposed to only 
teachers and principals.
             federal facilities funding for charter schools
    Question. I was pleased to see that your budget request follows on 
President Obama's promise to increase support for charter schools. Your 
request includes a $52 million increase for Charter Schools Grants. How 
does the administration plan to address the challenges charter schools 
face in securing facilities funding?
    Answer. The administration understands that access to public 
facilities or funding for facilities is one of the major challenges 
confronting charter school operators, and we are committed to helping 
charter schools secure facilities funding. This issue will certainly be 
one that we plan to address during reauthorization. In the meantime, 
there are a number of Federal programs that support facilities 
financing for charter schools, including the State Charter School 
Facilities Incentive Grants, Credit Enhancement for Charter School 
Facilities, Qualified Zone Academy Bonds (QZABs), Qualified School 
Construction Bonds (QSCBs), Build America Bonds (BABs), and one-time 
funding under the State Fiscal Stabilization Fund (SFSF).
    The primary Federal funding sources for charter school facilities 
are the Department's State Charter School Facilities Incentive Grants 
and Credit Enhancement for Charter School Facilities programs. The 
State Charter School Facilities Incentive program provides 5-year 
grants to States with per-pupil facilities aid programs to assist 
charter schools in the purchase or acquisition of facilities. In the 
past 5 years, the Department has awarded more than $90 million to 4 
States that, by combining Federal grant funds with State matching 
funds, have provided facilities funding to more than 600 charter 
schools. The administration is committed to maintaining the momentum of 
this program and plans to award more than $12.7 million this summer to 
a new cohort of State Facilities Incentive grantees. Similarly, the 
Department's Credit Enhancement for Charter School Facilities program 
provides grants to support charter schools in the acquisition or 
renovation of facilities. The Credit Enhancement grants are awarded on 
a competitive basis to public and nonprofit entities to assist charter 
schools in securing facilities financing, through loan guarantees, 
lease guarantees, and other credit enhancement methods. These grants 
operate until the Federal funds and earnings on those funds have been 
expended for the grant purposes or until financing facilitated by the 
grant has been retired. Since 2001, the Department has awarded more 
than $214 million in grants, with another $8.3 million requested in 
fiscal year 2010, to provide charter schools with access to financing 
to help them acquire, build, or renovate school facilities.
    Charter schools may also benefit from other Federal subsidies for 
public school improvement and modernization activities, including 
QZABs, QSCBs, and BABs. The ARRA authorized tax-credit bonds for school 
construction by expanding QZABs from $400 million annually to $1.4 
billion for each of calendar years 2009 and 2010, and authorizing $11.2 
billion in the new QSCBs for each of those 2 years. QZABs provide 
funding for school repairs and renovation and certain other activities 
for eligible schools and may not be used for new construction, while 
QSCBs and BABs provide funding for new construction as well as 
renovation.
           use of sfsf for charter school facilities funding
    The SFSF, a one-time appropriation of $53.6 billion under ARRA, 
provides funds to States that also may be used to assist charter 
schools with their facilities challenges. By the end of 2009, the 
Department plans to award approximately $48.6 billion to governors 
under the SFSF program in exchange for a commitment to support 
essential education reforms, including reforms involving charter 
schools. Under the SFSF program, governors are required to use 81.8 
percent of the SFSF State grant funds to support public elementary, 
secondary, and higher education programs and 18.2 percent for public 
safety and other government services, including the modernization, 
renovation, or repair of public schools and facilities. Therefore, a 
charter school LEA should receive stabilization funding on the same 
basis as other LEAs in the State. State educational agencies (SEAs) are 
also required to take necessary steps to ensure that a newly opened or 
expanded charter school LEA receives all of the Federal formula funds 
to which it is entitled. These additional funds should help address the 
challenges many charter schools face in securing facilities funding.
      expansion and replication of promising charter school models
    Question. Currently, the Charter Schools Program funds can only go 
to new school creation and schools cannot receive more than one grant 
because of a statutory limitation. President Obama has called for 
replicating and expanding our most successful charter schools. What are 
ways in which the administration proposes to achieve this goal?
    Answer. The replication and expansion of high-quality charter 
schools will play a central role in the administration's education 
reform agenda. Since 1995, the Charter School Program (CSP) has 
provided more than $2.2 billion in financial assistance to SEAs to 
support planning, development, and initial implementation activities 
for approximately 1,200 charter schools per year, as well as fund 
dissemination activities by schools with a demonstrated history of 
success. Under the program, SEAs also may reserve up to 10 percent of 
their grant for dissemination sub-grants to share lessons learned about 
how to create, sustain, replicate, and expand high-quality, accountable 
charter schools.
    In the President's fiscal year 2010 budget request, the 
administration has proposed new appropriations language and the use of 
available waiver authority to help expand or replicate successful 
charter school models or networks. The proposed appropriations language 
would allow the Department to make direct grants to Charter Management 
Organizations or other entities for replication and expansion of 
effective charter school models, which should significantly expand the 
reach of the program. The administration also plans to strengthen 
program capacity by waiving, in appropriate circumstances, the one-
grant limitation and the 18-month planning limitation to allow grantees 
additional time within the 36-month grant period for planning and 
implementation.
    The administration intends to use a portion of the $8 million 
available under the CSP national activities set-aside to support 
activities that promote the expansion and replication of promising 
charter school models. In fiscal year 2010, the Department plans to 
hold a new National Charter School Leadership grant competition to 
support projects of national significance that are designed to build 
State capacity and assist in the expansion of high-quality charter 
schools. The Department also will launch a new National Charter School 
Resource Center, which will provide technical assistance and resources 
to State and national charter stakeholders to expand the number of 
high-quality charter schools and increase the national understanding of 
the charter school model as a key reform strategy.
    The administration is also calling on States to reform their 
charter laws and lift caps that limit growth among excellent high-
quality charter schools. We plan to structure the Race to the Top 
competition in such a way as to create a financial incentive for States 
to lift their charter school caps and promote accountability and high 
academic standards in all charter schools. This, in turn, would allow 
for more rapid expansion and replication of successful charter school 
models nationwide.
                          arra innovation fund
    Question. In the Innovation Fund section of ARRA, Congress included 
a special rule allowing nonprofits to apply for grants in partnership 
with LEAs. This rule says that the eligibility will be determined based 
on the track record of the nonprofit in improving student achievement. 
The intent of this language was to ensure that high-quality nonprofits 
like the ones leading reform efforts in Louisiana could compete for 
funding to grow their programs. What kind of guidance will the 
Department issue to facilitate the application process for nonprofits?
    Answer. I can assure you that we are focused on providing funds to 
LEA and nonprofits that have demonstrated results to expand their work 
and serve as models for others. The Department is working on proposed 
requirements for the Innovation Fund, which we will release shortly for 
public comment.
    Question. How will nonprofits have to show their impact on student 
achievement?
    Answer. We are working on establishing the parameters of the 
competition now and will publish the Notice of Proposed Priorities 
later this summer. The notice will include more detail on how we intend 
to run the competition, including how nonprofits can demonstrate the 
impact they have had on student achievement. We encourage the public to 
review and comment on the Notice.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
               safe and drug-free schools and communities
    Question. Some concerns were raised during the hearing regarding 
the State grant and mentoring grant programs under the Safe and Drug-
Free Schools and Communities (SDFSC) program. Can you direct me to the 
studies which determined that the State grant and mentoring grant 
programs under the SDFSC program are ineffective or not as effective as 
they were envisioned?
    Answer. For the mentoring program, the study I referred to is the 
Institute of Education Sciences (IES) ``Impact Evaluation of the U.S. 
Department of Education's Student Mentoring Program,'' which IES 
released in March 2009.
    For the Safe and Drug-Free Schools and Communities State Grant 
program, there are two studies: (1) ``Options for Restructuring the 
Safe and Drug-Free Schools and Communities Act,'' which was released by 
the RAND Corporation in 2001; and (2) ``Prevalence and Implementation 
Fidelity of Research-Based Prevention Programs in Public Schools, which 
was conducted by Westat and covered the 2004-2005 schools year.
   measuring the effectiveness of the sdfsc state grant program and 
                           mentoring program
    Question. What standards did the Department of Education use when 
measuring the effectiveness of these grant programs?
    Answer. The answer follows separately for each study.
Impact Evaluation of the U.S. Department of Education's Student 
        Mentoring Program
    The mentoring program evaluation used an experimental design where 
students were randomly assigned either to receive or not to receive 
school-based mentoring from one of the Department's grantees. The 
evaluation assessed the effectiveness of the program by estimating 
impacts at the end of one school year on the intended program outcomes, 
as stated in the authorizing legislation, for students who were offered 
program services versus those who were not.
    Outcomes were collected through administration of a student survey 
and collection of student schools records, and included measures of 
``prosocial'' behavior, absenteeism, school engagement, reading and 
math scores on State assessments, grades, future orientation, and 
delinquency (including gang membership). Promiscuous behavior was the 
only intended program outcome listed in the legislation that was not 
measured because in the initial phases of instrument development the 
study team found that questions regarding sexual behaviors or attitudes 
were not acceptable to principals or parents.
    Outcomes were measured at the end of one school year because this 
provided the most policy-relevant information. Prior research has found 
that about half of the students in school-based mentoring programs do 
not receive mentoring after the first school year and that any benefits 
from a single year of school-based mentoring do not persist beyond the 
end of the school year.
    The evaluation found that for the full sample of students, the 
program did not lead to statistically significant impacts on any of the 
measures. The full report and an executive summary are available online 
at: http://ies.ed.gov/ncee/pubs/20094047/
Options for Restructuring the SDFSC Act
    To help inform deliberations on the SDFSC Act reauthorization in 
2001, the Department awarded a grant to the RAND Corporation's Drug 
Policy Research Center to conduct an examination of the program and 
assess options for improving it. Under the scope of the resulting 
study, RAND commissioned three analyses of school drug and violence 
prevention and prepared a background paper describing the history and 
development of the SDFSC Act program. RAND also conducted two focus 
groups with teachers and practitioners on the drug and violence 
problems in their schools and on their experiences with the program in 
their districts. These activities were preparatory to a 2-day 
conference held in July 1999, which was attended by programmatic and 
policy leadership from the Department, classroom teachers, and local 
program operators, high-level representatives with drug and violence 
prevention responsibilities in the Departments of Justice and Health 
and Human Services, and prominent researchers and policy analysts.
    The entire study is summarized in one report, and the commissioned 
papers, a summary of the focus groups, and the background paper are 
contained in a companion volume. Each can be found on-line at:

        http://www.rand.org/pubs/monograph--reports/MR1328/

                                  and

        http://www.rand.org/pubs/monograph--reports/MR1328.1/

    As the Department's fiscal year 2010 budget justification for the 
SDFSC State Grant program indicates, the study found that the program 
does not adequately target schools most needing help and generally 
spreads funding too thinly at the local level to support quality 
interventions.
Prevalence and Implementation Fidelity of Research-based Prevention 
        Programs in Public Schools
    This study examined, for the 2004-2005 school year: (1) the 
prevalence of research-based drug and violence prevention programs in 
schools; and (2) the extent to which research-based drug and violence 
prevention programs implemented in schools adhered to the program 
features on which they are based (i.e., were implemented with fidelity 
to the program design that was validated as effective by the research).
    In conducting this study more than 300 programs were screened and 
reviewed by Westat to determine the level of research rigor behind the 
programs' literature base. The study identified 21 school-based 
prevention programs that demonstrated evidence of effectiveness through 
this systematic review of literature.
    The study then used national probability sample surveys of 
districts and schools to estimate program prevalence, and national 
probability sample surveys of schools and research-based prevention 
programs to estimate fidelity of implementation. The surveys used both 
mail- and Web-based approaches to gather information on prevention 
programs and on the factors that may be associated with the adoption of 
research-based programs. Univariate analyses (e.g., percentage of 
schools with a research-based program) and bivariate analyses (e.g., 
percentage of schools with a research-based program by the number of 
students enrolled) were conducted. Tests of statistical significance 
were conducted. Because the surveys undertaken had a complex multistage 
sample design, a replication methodology was used to establish variance 
strata and primary sampling units, and create replicate weights for 
each specific subsample of the full sample.
    The two main findings of the study were as follows: (1) only 7.8 
percent of drug and violence prevention programs and practices 
supported with SDFSC State Grant funds in 2004-05 were research-based 
(i.e., the 21 research-based prevention programs comprised only 7.8 
percent of all prevention programs implemented in schools); and (2) 
44.3 percent of SDFSC-funded researched drug and violence prevention 
curriculum programs were implemented with fidelity (i.e., met minimum 
standards for overall fidelity of implementation). The report of the 
study is expected to be completed later this year.
      safe and drug-free schools and communities national programs
    Question. How will you alter the SDFSC national program to meet the 
needs of the individual populations that are currently served through 
the State and mentoring grant programs?
    Answer. No alteration of the national programs is needed. 
Generally, under the various national programs grant competitions, 
applicants have the opportunity to select target populations and design 
and implement projects based on locally identified needs, existing 
programming, or other unique local conditions.
    Please also know that for the mentoring program, at our national 
conference in August we will be having a special grantee meeting 
focused on sustainability, to assist grantees in their transitions to 
no funding next year. We are also having discussions with 
organizations, such as Big Brothers, Big Sisters, which are active in 
mentoring, about possible assistance to grantees once the Federal 
funding ends.
                       mentoring resource center
    Finally, SDFSC mentoring program funds will support the operation 
of the Mentoring Resource Center (MRC) through the end of this fiscal 
year. The MRC has served as the Department's training and technical 
assistance provider to grantees and provided them with training, 
publications, site visits, online learning, and other opportunities for 
program and staff development. When the MRC contract ends in October we 
are considering maintaining the significant body of resources it has 
developed on an archival site, or transferring the assets to another 
Federal agency where they can be a continued resource for mentoring 
grantees and for others involved in creating mentoring programs.
                  updated guidance on title i waivers
    Question. With regard to stimulus funding, are there plans for 
additional or updated guidance pertaining to title I waivers, and if 
so, when do you anticipate this guidance to be available?
    Answer. The Department expects to release guidance on title I 
waivers related to funding provided under the Recovery Act in July 
2009.
                     students and the loan process
    Question. The fiscal year 2010 budget proposes to eliminate the 
Federal Family Education Loan Program (FFELP) and make certain that all 
Federal student loans are handled through the Direct Loan Program (DLP) 
by July 2010. One concern regarding this proposal is the potential loss 
of local services currently provided to students including loan default 
prevention, financial counseling and discounting interest rates for 
students that choose to enter high demand fields. Students can walk 
into their local bank or our State lending agency and receive personal 
guidance on making wise financial choices for their future.
    How will students navigate the student loan process if they are 
calling the Department of Education (DOE) rather than their local bank 
or lending agency?
    Answer. Students and families will see very little difference in 
the student loan process under the President's proposal. Consistent 
with current practice, initial interactions for most students will be 
with their school's financial aid office. Under either FFELP or direct 
loans, the loan process is highly automated, with applications, 
entrance and exit counseling, and other information available 
electronically through the school Website. Extensive guidance for 
students and parents is also available from the Department.
    In addition, relatively few students interact with their local bank 
for a student loan. The FFELP is highly concentrated among large 
national lenders; the 25 largest lenders account for more than 80 
percent of total volume. Local lenders that do participate in the 
program typically sell the loans before a borrower enters repayment. 
Loan servicing--which involves interactions with borrowers after they 
have left school--is even more concentrated among a small number of 
companies. Since the most efficient of these companies will be retained 
by the Department to service direct loans, with loan volume awarded 
based on performance, borrower service should be as good or better than 
that available in FFELP. The Department already provides loan default 
prevention and financial counseling services for DLP borrowers; these 
services will be expanded as the program grows.
               role of local student loan infrastructure
    Question. Do you intend for this proposal to utilize the existing 
local infrastructure and experienced workforce currently in place or 
will the proposal rely on the larger student lending institutions?
    Answer. The President recognizes that local student loan agencies 
provide many valuable services to students and parents, and has 
specifically included those activities among those that could be funded 
under the proposed $2.5 billion College Access and Completion Fund. 
More broadly, the Department has not made a final decision regarding 
loan servicing arrangements; a procurement was just completed, however, 
that does include the requirement that the selected vendors be able to 
service all title IV federally held loans, including direct loans. 
Allocations of types and volume to any one vendor will be determined 
based upon servicer capabilities and performance. The current 
contractors have committed to sufficient capacity for the expansion of 
direct lending, and we expect they will consider subcontracting with 
other current participants in FFELP in order to more efficiently meet 
their commitments.
              technical assistance for rural institutions
    Question. How will the Department provide assistance and training 
to 2-year colleges and technical schools in remote areas such as Black 
River Technical College in Pocahontas, Arkansas, or Phillips County 
Community College in Helena, Arkansas?
    Answer. Schools have recently transitioned to direct lending with 
little or no problem. To ensure that all schools are prepared, however, 
the Department has created a Direct Loan Transition Team to assist 
schools such as those you mention that may have unique requirements or 
need additional support. Department staff is working with those schools 
to answer questions and to offer assistance. Initial efforts have 
focused on HBCUs, HSIs, and Tribally Controlled institutions. Direct 
loan webinars have been held for community colleges and independent 
private colleges.
    The transition to direct loans should be seamless for schools of 
all sizes. The Department system that originates direct loans is called 
the Common Origination and Disbursement (COD), the same system that 
schools use to originate title IV grants (Pell Grant, ACG, National 
SMART, and TEACH). Most schools (and their computer systems) already 
interact with the system they will use for direct loans.
              estimated savings from shift to direct loans
    Question. The Department expects to save $4 billion a year by 
switching from FFELP to DLP. What factors were used to calculate the 
estimated savings?
    Answer. Direct Loans produce savings primarily because, under 
current interest rate assumptions, borrower repayments exceed other 
program costs, including the cost of Government borrowing to finance 
loans. This results in net revenues to the Government.
                 increased federal administrative costs
    Question. Does the $4 billion include anticipated increases in 
administrative costs for the Federal Government to increase loan volume 
or for the costs associated with contracting out student lending 
services?
    Answer. Consistent with the requirements of the Federal Credit 
Reform Act, the projected savings do not include Federal administrative 
costs. Even with the addition of these costs, however, the President's 
proposal to shift to 100 percent Direct Loans produces substantial 
savings.
                 steps to increase direct loan capacity
    Question. Transitioning the student loan volume of DLP from around 
30 percent of all Federal student lending to 100 percent is a 
considerable change, and the DOE has been preparing to increase DLP 
volume. Can you explain what steps the Department is taking to prepare 
for a potential increase in DLP loan volume?
    Answer. The Department is expanding capacity for both loan 
origination and loan servicing. For loan origination, Direct Loans uses 
the COD system, which also disburses funds for the Pell Grant program, 
making the proposed expansion relatively simple for both the Department 
and participating schools. The Department has also increased its call 
center capacity to handle additional. On loan servicing, the Department 
has recently completed a procurement to substantially increase its loan 
servicing capacity. Loan volume will be allocated among the new vendors 
based on servicer capabilities and performance.
                    replacement of ffelp loan volume
    Question. Currently, the FFELP provides Federal funds to private 
lending institutions to keep interest rates on FFELP loans low and to 
reduce risks associated with providing loans to students with little or 
no credit history. Can you provide the amount of total loan volume that 
this Federal investment leverages through FFELP?
    Answer. In fiscal year 2009, the Department estimates the FFELP 
would provide $64 billion in new student loans, as well as an 
additional $1 billion in consolidations of existing loans.
                          direct loan capacity
    Question. Can the Department replicate this total loan volume in 
addition to the current volume of loans provided through the DLP solely 
through DLP?
    Answer. Yes, the Department will have the capacity to originate and 
service 100 percent of new loan volume for the 2010-2011 award year.
                          student loan volume
    Question. If the President's proposal were adopted, what level of 
total loan volume do you expect to be able to fund through the DLP in 
fiscal year 2010?
    Answer. Under current estimates, the Department would award $53.4 
billion in new loans in fiscal year 2010. Because the FFELP would 
continue to originate loans until July 1, 2010, an additional $38.3 
billion would be awarded through FFELP in fiscal year 2010, for total 
new loan volume of $91.7 billion. In fiscal year 2011, the first fiscal 
year in which direct loans would award 100 percent of new loan volume, 
total awards are estimated at $96.7 billion.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
                         teacher incentive fund
    Question. I am very encouraged by the administration's proposal to 
increase the Teacher Incentive Fund to $487.3 million this year, and I 
strongly support your request. While Congress works on the 
reauthorization of the Elementary and Secondary Education Act, 
including the Teacher Incentive Fund, do you plan on making any changes 
to the program administratively?
    Answer. The Department is requesting the inclusion of 
appropriations language permitting support for approaches that provide 
performance-based compensation to all staff in a school, because 
research indicates that this type of strategy can be effective in 
raising performance across a variety of organizations. This proposed 
language would replace language permitting the funding of performance-
based compensation only for teachers and principals.
    The Department would hold a new competition with the requested 
fiscal year 2010 funds, in addition to an upcoming Recovery Act 
competition. In both of these grant competitions, the Department will 
place a priority on the support of comprehensive, aligned approaches 
that: (1) support improved teacher and principal effectiveness and help 
ensure an equitable distribution of effective educators; (2) actively 
involve teachers (including special education teachers) and principals 
in the design of human capital and compensation systems; and (3) use 
data from emerging State and local longitudinal data systems to track 
outcomes and associate those outcomes with educator performance.
                         charter school program
    Question. I am very encouraged by the administration's proposal for 
a $52 million increase to the Charter School Program (CSP) for a total 
of $268 million this year, and I strongly support your request. I would 
have liked to see more funds reserved for charter school facilities, 
and hope that we can work to find resources for that purpose in the 
future.
    While Congress works on the reauthorization of the Elementary and 
Secondary Education Act, including the CSP, do you plan on making any 
changes to the program administratively?
    Answer. The administration is committed to supporting successful 
models of school reform, including high-quality charter schools. As you 
noted, the President's fiscal year 2010 budget has proposed an increase 
of $52 million for the CSP. We view this request as the first step in 
our effort to double support for charter schools over the next 4 years 
and to help drive reform strategies and innovation in our schools. The 
administration has proposed new appropriations language and the use of 
available waiver authority to help expand or replicate successful 
charter school models or networks. The proposed appropriations language 
would allow the Department to make direct grants to Charter Management 
Organizations or other entities for the replication and expansion of 
effective charter school models, which should significantly expand the 
reach of the program. The administration also plans to strengthen 
program capacity by waiving, in appropriate circumstances, the one-
grant limitation and the 18-month planning limitation to allow grantees 
additional time within the 36-month grant period for planning and 
implementation.
    presidential and congressional academies for history and civics
    Question. I was very disappointed to see that the Presidential and 
Congressional Academies for History and Civics are proposed for 
elimination. I gave my maiden speech in the Senate about the importance 
of putting the teaching and learning of U.S. history back in our 
classrooms, which resulted in the creation of these academies, with the 
support of Senator Reid, Senator Byrd, and Senator Kennedy. While it is 
a small program, teachers and students each summer have benefited 
greatly which is why I recently introduced legislation to expand the 
program and why I hope that the Appropriations Committee will continue 
to fund these programs.
    What can I do over the course of the next year to convince you of 
the merit of the Presidential and Congressional Academies?
    Answer. The teaching of history in our classrooms is important to 
the administration and will continue to receive significant Federal 
funding. We proposed to eliminate the Presidential and Congressional 
Academies for History and Civics because we feel the program is too 
small to have a substantial national impact. Furthermore, the level of 
effort required to administer and monitor the program on behalf of the 
Department, in addition to the effort required of applicants to apply 
for support, provides compelling reasons to put resources into larger 
programs with a greater chance of having a national impact. Instead of 
the academies, we are proposing the creation of a competitive grant 
program of more significant size called ``History, Civics, and 
Government'' that will ``scale-up'' effective practices and encourage 
wider adoption of successful programs in these subject areas. In 
addition to the new initiative, the administration continues to support 
the Teaching American History and Teacher Quality State Grants 
programs, which make substantial funding available for the professional 
development of history teachers nationwide.
    The Department is looking closely at the effectiveness of all our 
programs, and in the coming years will make a greater and greater 
effort to request funding only for programs that can demonstrate 
evidence of effectiveness. If we are able to determine that the 
Presidential and Congressional Academies program had clear evidence of 
effectiveness (for instance, that the teachers who participate in the 
Presidential academies were raising the level of student achievement in 
their classrooms, or that the high school students attending the 
congressional academies were receiving a clear benefit that was somehow 
being extended to a wider population of students), we would likely look 
at the program differently. This evidence would need to be more than 
past survey results showing that the teachers and students enjoyed 
participating and liked the programs, which is frequently the type of 
``evaluations'' that teacher in-service training and similar programs 
produce.
                        choice in student loans
    Question. I have repeatedly expressed my concerns about the 
administration's proposal to convert the entire student loan program 
into the Government-run Direct Loan program. The Senate has agreed that 
parents, students, and schools should be able to make their own choices 
of student loan providers, as the current programs allow.
    How does your proposal seek to retain the power of the competitive 
marketplace where parents, students, and schools can choose the best 
providers to help them afford their college tuition?
    Answer. The competitive marketplace will play a key role in the 
Department's plans to ensure that students, parents, and schools 
continue to receive high-quality service. We have already contracted 
with a number of private-sector firms with extensive experience in the 
Federal Family Education Loan Program (FFEL) to expand our loan 
servicing capabilities. Work will be allocated among these vendors 
based on their performance; customer satisfaction will be among the key 
criteria used in determining these allocations. Private-sector vendors, 
chosen through competitive procurements, will also provide default 
aversion and collection services and borrower counseling.
 administrative cost of originating all federal student loans through 
                          direct loan program
    Question. I am also concerned about the estimated costs of 
administering this new program. The administration budget only asks for 
an increase of $117 million from $753 million to take over the FFEL 
Program. Could you provide the Appropriations Committee with estimates 
of what those total annual discretionary costs would be for the next 5 
years to originate and administer all loans under the Direct Loan 
program?
    Answer. Estimated costs for Student Aid Administration depend on 
many factors, most significantly origination and servicing volume. 
Recently, this volume has proven to be quite volatile, due in large 
part to loan purchase programs authorized by the Ensuring Continued 
Access to Student Loans Act of 2008. The recent introduction of 
multiple servicer contracts has also introduced a level of uncertainty. 
However, given current conditions, it is estimated that total Student 
Aid Administration costs will total approximately $5.5 billion to $6.5 
billion over the next 5 years.
                        funding for pell grants
    Question. I agree that we should not charge students more for their 
student loans in order to generate profits for lenders. That's why I 
supported the College Cost Reduction Act which reduced the Special 
Allowance Payment for lenders and generated savings for students.
    However, I am concerned about the administration's proposal to 
convert the entire student loan program into the Government-run Direct 
Loan program and use the profits made from charging students an 
artificially high interest rate on their loans to provide generous 
increases to the Pell Grant.
    According to the Congressional Budget Office, the majority of 
savings generated by the administration's proposal comes from charging 
most students on most loans 6.8 percent in interest when it costs the 
Government much less to originate and service the loan.
    Why shouldn't students be charged a lower interest rate to cover 
the actual costs of the loan instead of asking them to pay more in 
interest over the course of the life of their loan to generate revenue 
for the Federal Government to pay for the Pell Grant increases?
    Answer. The administration strongly believes Federal student aid 
resources should be focused on broadening access to higher education 
for all Americans. Particularly in today's economically challenging 
times, the need-based Pell Grant program is the best vehicle for 
helping disadvantaged students and families attend colleges and other 
postsecondary institutions.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you for your leadership. Thank you, 
Mr. Secretary. Well, the subcommittee will stand adjourned.
    [Whereupon, at 11:36 a.m., June 3, the subcommittee was 
recessed, to reconvene subject to the call of the Chair.]

</pre></body></html>
